<html>
<title> - THE CONTRIBUTION OF THE SOCIAL SCIENCES TO THE ENERGY CHALLENGE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     THE CONTRIBUTION OF THE SOCIAL 
                    SCIENCES TO THE ENERGY CHALLENGE 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2007

                               __________

                           Serial No. 110-55

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

37-984 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
LAURA RICHARDSON, California         JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           PAUL C. BROUN, Georgia
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant























                            C O N T E N T S

                           September 25, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    11

                               Witnesses:

Dr. Robert B. Cialdini, Regents' Professor of Psychology and 
  Marketing, Arizona State University
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    16

Dr. Duane T. Wegener, Professor of Psychological Sciences; 
  Initiative Leader for Social, Economic, and Political Aspects 
  of Energy Use and Policy, Energy Center at Discovery Park, 
  Purdue University
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    34

Mr. John ``Skip'' Laitner, Visiting Fellow and Senior Economist, 
  American Council for an Energy Efficient Economy
    Oral Statement...............................................    35
    Written Statement............................................    36
    Biography....................................................    48

Dr. Jerry Ellig, Senior Research Fellow, Mercatus Center at 
  George Mason University
    Oral Statement...............................................    48
    Written Statement............................................    50
    Biography....................................................    55

Dr. Robert F. Bordley, Technical Fellow, Vehicle Development 
  Research Laboratory, General Motors Corporation
    Oral Statement...............................................    56
    Written Statement............................................    58
    Biography....................................................    60

Discussion.......................................................    67


    THE CONTRIBUTION OF THE SOCIAL SCIENCES TO THE ENERGY CHALLENGE

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     The Contribution of the Social

                    Sciences to the Energy Challenge

                      tuesday, september 25, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, September 25, 2007, the Subcommittee on Research and 
Science Education of the House Committee on Science and Technology will 
hold a hearing to examine how research in the social sciences, 
including the behavioral and economic sciences, contributes to the 
design, implementation and evaluation of effective policies for energy 
conservation and efficiency.

2. Witnesses

Dr. Robert Bordley, Technical Fellow, Vehicle Development Research 
Laboratory, General Motors Corporation

Dr. Robert Cialdini, Regents' Professor of Psychology and Marketing, 
Arizona State University

Dr. Jerry Ellig, Senior Research Fellow, Mercatus Center, George Mason 
University

Mr. John ``Skip'' Laitner, Visiting Fellow and Senior Economist, 
American Council for an Energy Efficient Economy

Dr. Duane Wegener, Professor of Psychological Sciences, Purdue 
University

3. Overarching Questions

        <bullet>  What contribution do the social sciences make to our 
        ability to predict or evaluate the effectiveness of public 
        policies in changing individual and collective behavior related 
        to energy use?

        <bullet>  What new and continuing areas of basic research in 
        the social sciences could significantly improve our ability to 
        design effective policies? What new technologies and 
        methodologies are enabling advances in the research? Are there 
        promising research opportunities that are not being adequately 
        addressed?

        <bullet>  To what extent are policies (both private and 
        government) to influence energy consumption patterns actually 
        being shaped by what has been learned from the social sciences?

4. Federal Spending on Social, Behavioral and Economic Sciences

    Basic and applied research in the social, behavioral and economic 
(SBE) sciences is funded out of a number of federal agencies, including 
the National Science Foundation (NSF), the National Institutes of 
Health (NIH) as well as other agencies within the Departments of Health 
and Human Services, Agriculture, Commerce, Defense, Education, Homeland 
Security, Housing and Urban Development, Interior, Justice, Labor, 
State and Transportation. The National Endowment for the Humanities and 
the Smithsonian Institution also provide some funding in these areas. 
Notably, given the topic of this hearing, the Department of Energy does 
not have a program of social science research applied to the energy 
challenge.
    According to research funding statistics compiled by NSF\1\, a 
total of just over $1 billion was obligated to basic and applied 
research in all social sciences for fiscal year 2004 (FY04), including 
$200 million for economics. Psychology was counted separately, and was 
funded at a total of $1.85 billion in FY04, of which $1.7 billion was 
funded by NIH and over $90 million was funded by DOD and Veterans 
Affairs. The primary interest of those three agencies is the medical 
aspect of psychology.
---------------------------------------------------------------------------
    \1\ Data are based on self-reporting by agencies. In many cases, 
especially where there is interdisciplinary work, it is hard to tally 
exact dollars spent on one field or another, so these values are at 
best an estimate.
---------------------------------------------------------------------------
    The main support for basic research in the social sciences comes 
from the SBE Directorate at NSF. Overall, NSF accounts for 61 percent 
of federal support for basic research in anthropology, social 
psychology and the social sciences at U.S. colleges and universities. 
In some fields, including archaeology, political science, linguistics, 
and non-medical aspects of anthropology, psychology, and sociology, NSF 
is the predominant or exclusive source of federal basic research 
support. The NSF SBE budget request for fiscal year 2008 (FY08) is $220 
million, an increase of 3.9 percent over FY07. In addition to funding 
basic research in the social, behavioral and economic sciences, NSF's 
SBE Directorate funds the collection and analysis of data on science 
and engineering research, education and workforce trends (including the 
data presented here), resulting in the biannual ``S&E Indicators.'' 
This activity accounts for $31 million in FY08, or approximately 15 
percent of the SBE Directorate budget.

5. Social, Behavioral and Economic Sciences and the Energy Challenge

    A key part of the solution to our energy challenge is the 
development of more efficient, cleaner energy technologies. This is a 
primary mission of the Department of Energy. However, while it may be 
impossible to quantify, individual and collective behavior also plays 
an important role, not just through direct use of energy, but also by 
creating or failing to create market demand for more energy efficient 
technologies. Individuals across the United States make decisions every 
day about what vehicle or appliance to purchase, whether to drive or 
take public transportation, what light bulbs to install, whether to 
shut down their computers at night. Each one of these decisions, from 
turning off the computer to buying a 35 mpg sedan versus a 15 mpg SUV, 
has an impact on the supply and demand curve that drives both energy 
prices and energy technology development, has some environmental 
footprint, and in the case of oil and natural gas, may have an impact 
on national security.
    These impacts are generally quantified in the aggregate, based on 
data collected by the Energy Information Administration. In 2005, U.S. 
households consumed 21 quadrillion BTU (quad) of primary energy, 
accounting for 21 percent of total U.S. energy consumption. To put this 
in perspective, people in the United States consume 2.4 times as much 
energy at home as those in Western Europe, in large part because our 
homes are twice as large and not designed for energy efficiency, 
despite the availability of affordable technologies to make them so. 
Household vehicles account for an additional 14 quad or 14 percent of 
primary energy, resulting in an overall household total of more than 
one-third of annual U.S. energy consumption.
    In 2005, the National Academy of Sciences (NAS) produced a report 
on ``Decision-Making for the Environment: Social and Behavioral Science 
Research Priorities.'' Much of the research called for in the report is 
of an applied nature--for example, quantifying the environmental or 
economic impact of every minute action, such as running the clothes 
dryer during peak hours instead of off-peak hours. Information such as 
this might help policy-makers prioritize efforts and could even 
stimulate technological innovation, but it isn't clear that such 
information would actually influence consumer behavior. In the chapter 
on Environmentally Significant Individual Behavior, the NAS panel 
states that, ``A basic understanding of how information, incentives, 
and various kinds of constraints and opportunities, in combination with 
individuals' values, beliefs, and social contexts, shape consumer 
choice in complex real-world contexts would provide an essential 
knowledge base for understanding, anticipating, and developing policies 
for affecting environmentally significant consumer behavior.''
    Energy-related behavior is significant not just to the environment, 
but to the consumer's own monthly expenses, to the economy as a whole, 
and to national security. The National Science Foundation is not 
responsible for generating the needed data on environmental and 
economic impact called for in the NAS report, or for sharing it with 
the public. However, NSF does fund the basic research in the social, 
behavioral and economic sciences that can help inform policy-makers at 
all levels in the development, implementation and evaluation of 
information campaigns, incentives programs, regulations and other 
public policies to change how we use energy in this country.
    A similar story can be seen in the recent history of smoking in the 
United States. Changing societal norms resulted in a society that is 
now hostile to smokers and as such have greatly reduced the number of 
smokers, resulting in reduced health risks for individuals and a 
reduced burden on our collective health system. But linking smoking to 
lung and other cancers was not sufficient to bring about this decrease. 
Nor was the knowledge that second-hand smoke was harmful to others. 
Advertising by tobacco companies still made smoking look ``sexy'' just 
as car company advertisements make large SUV's look very appealing to 
the typical consumer. In addition to laws restricting advertising, and 
the near elimination of smoking from movies and television (the 
characters who light up in today's movies are typically the ``bad 
guys''), public officials and non-profit organizations launched major 
information campaigns targeted at different populations. Many of those 
information campaigns failed to influence smoking behavior, in 
particular among youth. Social and behavioral researchers eventually 
helped to determine what kinds of advertisements and other anti-smoking 
campaigns work for which target populations.
    There are many parallels to behavior and persuasion in the energy 
challenge. A 2003 survey commissioned by the Alliance to Save Energy 
found that an overwhelming majority of consumers (92 percent) agree 
that business, government, and consumers have an equal responsibility 
to reduce energy use. But attitudes have not translated into action. 
Social science researchers can help create and provide information in 
an understandable manner, a particularly challenging task in the case 
of energy; determine how information interacts with all of the other 
factors listed by the NAS panel to affect consumer behavior; understand 
variation in these interactions across subsets of the population; and 
work with policy-makers to help shape targeted information campaigns 
and policies.
    The Department of Energy launched an ``Energy Hog'' energy 
efficiency campaign in 2004. The Energy Hog website provides useful 
information to consumers about how to save energy without spending a 
lot of money. Such information, however, is primarily reaching those 
self-selecting consumers who actively seek it. The majority of 
Americans, despite concern for both the environment and rising energy 
prices, simply don't consider energy in their own behavior or in that 
of their neighbors. The purpose of this hearing is to explore the basic 
research that could help policy-makers understand why attitudes about 
energy don't currently translate into action.

6. Questions for Witnesses

Dr. Robert Bordley

        <bullet>  Please describe the type of market research you do 
        for GM and how your background and experience as a social 
        scientist influences your work.

        <bullet>  What has social science research revealed about 
        factors that influence an individual's vehicle purchasing 
        decisions? What questions remain unanswered? Have you looked 
        specifically at the issue of fuel economy?

        <bullet>  How are recent breakthroughs in research incorporated 
        into marketing or business strategies? What role might the 
        National Science Foundation play in building bridges between 
        academic social science researchers and government and industry 
        policy-makers?

Dr. Robert Cialdini

        <bullet>  Please describe the work you have done recently on 
        individual behavior and energy conservation. What have you 
        learned about what influences the decisions individuals make 
        with respect to energy use?

        <bullet>  How can this research be used more effectively to 
        inform policy? Do you as a researcher reach out to policy-
        makers or others in a position to influence policy? If not, how 
        would you propose that these connections be made? Can the 
        National Science Foundation play a role?

        <bullet>  What basic social psychology research questions 
        relevant to the energy challenge remain unanswered? Do social 
        scientists have all of the tools they need to answer these 
        questions and adequate resources to pursue promising research 
        directions? Are there as of yet undeveloped or underdeveloped 
        technologies or methodologies that would help advance this 
        research?

Dr. Jerry Ellig

        <bullet>  How predictive is a purely economic approach to 
        evaluating the impact of energy policy on individual and 
        communal behavior? What factors other than price signals need 
        to be considered when developing and applying economic models 
        to energy-related behaviors?

        <bullet>  To what extent are policies to influence individual 
        and community energy use being shaped by what has been learned 
        from research in the social sciences, including economics?

        <bullet>  What tools and methodologies are most appropriate for 
        evaluating the effectiveness of policies to incentivize 
        consumer behavior with respect to energy use? What kinds of 
        basic research questions underlie the development of such tools 
        and methodologies?

Mr. John ``Skip'' Laitner

        <bullet>  How predictive is a purely economic approach to 
        evaluating the impact of energy policy on individual and 
        communal behavior? What other factors need to be considered to 
        match economic theory to empirical data? To what extent are 
        such data even available? That is, to what extent are relevant 
        energy policies being evaluated for effectiveness?

        <bullet>  To what extent are policies to influence individual 
        and community energy use being shaped by what has been learned 
        from research in the social sciences, including economics? Are 
        you aware of particular sectors of industry or government that 
        make more of an effort to incorporate the results of such 
        research into the design and evaluation of policy?

        <bullet>  Please describe the purpose and scope of the first-
        ever Behavior, Energy and Climate Change Conference being 
        organized by ACEEE. What do you hope to achieve through this 
        conference? How much interest have you seen from industry, 
        government officials, and others in a position to influence 
        policy?

Dr. Duane Wegener

        <bullet>  Please describe your involvement in the Purdue Energy 
        Center, and in particular the mission and goals of the Social, 
        Economic, and Political Aspects of Energy Use and Policy team 
        of the Center. How and to what degree does your team interact 
        and collaborate with the technology teams at the Center?

        <bullet>  How much support do you and your colleagues in this 
        area get from federal funding agencies? Have you sought any 
        support from or partnerships with public or private utilities 
        or other non-governmental entities?

        <bullet>  What has social science research revealed about 
        factors that influence how Americans form attitudes relevant to 
        energy use and policy? How can this research be used more 
        effectively to inform policy?

        <bullet>  What basic social psychology research questions 
        relevant to the energy challenge remain unanswered? Do social 
        scientists have all of the tools they need to answer these 
        questions and adequate resources to pursue promising research 
        directions? Are there as of yet undeveloped or underdeveloped 
        technologies or methodologies that would help advance this 
        research?
    Chairman Baird. We will now call this hearing to order, and 
I want to thank all our witnesses and guests here and my good 
friend and colleague, Dr. Ehlers, for being here. I want to 
also thank staff for their outstanding work in putting this 
hearing together.
    I am especially excited about today's hearing because it 
sets the ground work for a number of hearings that I hope to 
hold in this committee looking at how the social sciences can 
help us address some of the most difficult challenges we face 
in our country today. Energy, in my opinion, ranks among the 
country's top three challenges, next to health and national 
security. Solving our nation's energy challenges will depend on 
a combination of technological innovations and behavior 
changes. This committee and this Congress have held countless 
hearings on the energy technologies of tomorrow. What we don't 
talk often enough about is behavior and how changes in behavior 
can start making a big dent in our energy challenge today. 
Whereas we talk about the technologies of tomorrow, behavior 
can help us make the changes today.
    The panel sitting before us will give us insight into how 
we might achieve this goal. One witness will tell us how a 
simple change in a written message to hotel guests asking them 
to reuse their towels could save 39 barrels of oil and 72,000 
gallons of water in an average--in one hotel in one year. If 
you multiply that by all the hotels in all the cities in this 
country, that adds up to real energy savings, and that is just 
one example of the kind of things we can learn from this 
hearing today.
    Imagine if every American decided to turn off their lights 
when they left the room, shut down their computers at night, or 
look for Energy Star labels the next time they shop for a major 
appliance. The truth is U.S. households are responsible for 
more than one-third of annual U.S. energy consumption. Of that 
approximately 60 percent goes into powering our homes and the 
rest into fueling our cars and SUVs, though not my SUV. To put 
it in perspective, American homes consume 2.4 times as much 
energy as homes built in Western Europe, 2.4 times as much. A 
recent survey by the Alliance to Save Energy found that 92 
percent of Americans agree that businesses, government, and 
consumers have an equal responsibility to reduce energy use. 
That seems fair, given that consumers use one-third of the 
energy. Unfortunately, this attitude is not always translated 
into action. The truth is that typical consumers don't have the 
information to factor energy use to purchases and behaviors, 
and the government and industry have fallen far short in 
providing or communicating the needed information to the public 
in a way that will result in behavior change, and I want to 
underscore the latter point. Merely giving information but 
without the cognizance of how the information will actually 
lead to behavior change just doesn't do the job.
    A recent National Academy of Sciences Report stated that 
``a basic understanding of how information, incentives, and 
various kinds of constraints and opportunities in combination 
with values, beliefs, and social contexts shape consumer choice 
in complex, real-world context would provide an essential 
knowledge base for understanding and anticipating and 
developing policies for effecting environmentally significant 
consumer behavior.'' That again from the NAS. While the focus 
of the particular NAS report was environmental policy, the 
statement works equally well for policies related to energy use 
which has not only an environmental impact but also economic 
and frankly national security ramifications.
    Our witnesses are working on different aspects of this 
exact problem. Together they will tell a story beginning with 
research into what influences individuals' energy-related 
behavior and ending with the relevance of such research to the 
development and evaluation of effective energy policies.
    When the topic of social science comes up, there are always 
vocal skeptics. We see them on the Floor of the House, 
sometimes in this committee, and recently in the Conference 
Report on the America Competes Act. Those who may acknowledge 
the intellectual merit of the research but have trouble making 
the connection to areas of national need and question why the 
Federal Government should be supporting social science research 
in the face of so many competing demands for those dollars I 
hope will pay attention to this hearing today.
    Today we will learn how the knowledge generated by research 
in the social sciences is relevant to policy-making for energy. 
But it is no less relevant to every other major issue facing 
the country today including health care, education, national 
security, crime, competitiveness, foreign policy, and the 
environment. We won't have hearings on all of those topics, but 
I guarantee we will have hearings on a few others and see how 
behavioral and social sciences can help understand these 
issues.
    I want to thank all our witnesses for being here today. I 
look forward very much to your testimony and our discussion, 
and I would now recognize the Ranking Member, Dr. Ehlers, for 
any comments he may wish to make.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    I now call to order this hearing on the contribution of the social 
sciences to the energy challenge.
    Energy, in my opinion, ranks among our country's top three 
challenges next to health and national security. Solving our nation's 
energy challenge will depend on a combination of technological 
innovation and behavior change. This committee and this Congress have 
held countless hearings on the energy technologies of tomorrow. What we 
don't talk about is behavior--and how changes in behavior can start 
making a big dent in our energy challenge today.
    The panel sitting before us will give us insight into how we might 
achieve this goal. One witness will tell you how a simple change in a 
written message to hotel guests asking them to reuse their towels could 
save 39 barrels of oil and 72,000 gallons of water in a single average-
size hotel in one year. If you multiply that by all of hotels in all 
the cities in this country, that adds up to real energy savings. And 
that's just because of a single, easy action on the part of hotel 
guests.
    Imagine if every American decided to turn off their lights when 
they left a room, shut down their computers at night, or looked for an 
EnergyStar label the next time they shopped for a major appliance? The 
truth is that U.S. households are responsible for more than one-third 
of annual U.S. energy consumption. Of that, approximately 60 percent 
goes into powering our homes and the rest into fueling our cars and 
SUVs. To put it in perspective, American homes consume 2.4 times as 
much energy as homes built in Western Europe.
    A recent survey by the Alliance to Save Energy found that ninety-
two percent of Americans agree that business, government, and consumers 
have an equal responsibility to reduce energy use. That seems fair, 
given that consumers use one-third of the energy. But, unfortunately, 
this attitude has not translated into action.
    I am not blaming the American consumer. The truth is that the 
typical consumer doesn't have the information he or she needs to factor 
energy use into purchases and behaviors, and the government and 
industry have fallen far short in providing the needed information to 
the public in a way that will result in behavior changes.
    A recent National Academy of Sciences Report stated that ``A basic 
understanding of how information, incentives, and various kinds of 
constraints and opportunities, in combination with individuals' values, 
beliefs, and social contexts, shape consumer choice in complex real-
world contexts would provide an essential knowledge base for 
understanding, anticipating and developing policies for affecting 
environmentally significant consumer behavior.''
    While the focus of that particular NAS report was environmental 
policy, such a statement works equally well for policies related to 
energy use--which has not only an environmental impact, but also 
economic and national security ramifications.
    Today's witnesses are working on different aspects of that exact 
problem. Together they will tell a story beginning with research into 
what influences an individual's energy-related behavior and ending with 
the relevance of such research to the development and evaluation of 
effective energy policies.
    When the topic of social sciences comes up, there are always vocal 
skeptics--those who may acknowledge the intellectual merit of the 
research, but have trouble making the connection to areas of national 
need and question why the Federal Government should be supporting 
social science research in the face of so many competing demands for 
those dollars.
    Today we will learn how the knowledge generated by research in the 
social sciences is relevant to policy-making for energy. But it is no 
less relevant to every other every major issue facing the country 
today--including health, education, national security, crime, 
competitiveness, foreign policy and the environment.
    I thank all of our witnesses for being here today, and I look 
forward to your testimony.
    I now recognize the Ranking Member for any comments he may wish to 
make.

    Mr. Ehlers. I thank the Chairman, and I am pleased that 
today's hearing will explore how energy-related policies are 
being shaped by social science research, and also I might add, 
by the behavior of people which is what we will be studying.
    I understand that it is very challenging to determine why 
people do what they do regarding energy given all the variables 
in their lives. If Congress creates what looks like good policy 
but which lacks an understanding of the primary drivers of 
decision-making, our policies will still fail. We must account 
for social factors when crafting energy policies, and I will 
give a few examples in a minute.
    Much of the basic research funded by the National Science 
Foundation examines the fundamental mysteries behind brain 
cognition and human behavior. Among other things, NSF studies 
the causes and consequences of social and cultural norms. I 
know many of my colleagues share my personal interest in 
developing policies to draw more students into the science and 
mathematics teaching profession. In that context, I believe 
that it is integral that the social science research work, in 
tandem with educational research to evaluate not only how to 
best prepare teachers to teach but to understand what would 
draw them and keep them in teaching. Perhaps if we continue 
this series of hearings we could delve into what incentives 
work best to encourage people to enter teaching professions, as 
well as their willingness to stay in them. I might also add, 
Mr. Chairman, we might also learn better ways of attracting 
students to study these particular areas of science and 
mathematics if we understood exactly what they and their 
colleagues were thinking and also learn that this ensures their 
future better than most other choices that they might make.
    Returning to the topic at hand today, I am particularly 
interested in what influences individuals to make energy-
efficiency decisions. We all assume that if people understood 
their return on investment from energy efficiency measure, say 
home improvements to save on winter heating bills, then they 
would quickly make those changes. But I think our witnesses 
will share that it is much more complicated. We are not always 
as rational as we would like to believe. Furthermore, being 
well-educated about energy efficiency does not necessarily 
translate into action. Consumers are a fickle bunch, especially 
in a society where individualism and personal freedoms are 
highly cherished, and certain unranked desires on the part of 
the consumer may guide the decision more than rational thought.
    Mr. Chairman, I would just like to bring forward something 
that happened to me. When my wife and I first got married and 
first went into a house of our own instead of a furnished 
apartment, we had to get a refrigerator. Not being an expert in 
what refrigerators are good for, what features are nice and so 
forth, I told my wife, you decide which features you want and 
then we will go out together and decide on the best 
refrigerator. She went shopping and came back, and had found 
two refrigerators that met her needs which she liked very much. 
I looked at them. One cost exactly twice as much as the other. 
That would make it a simple choice. And this is in the days 
before energy labels. But I proceeded to calculate the energy 
consumption of the two refrigerators and discovered much to my 
amazement that if I bought the more expensive one I would have 
saved money within 10 years compared to buying the cheap one 
because the cheap one used considerably more energy.
    So we bought the more expensive one contrary to all 
rational thought. It lasted 23 years, so we not only saved more 
than the differential cost, but we actually saved enough to pay 
for more than two refrigerators of the other type.
    So those are the lessons that we should learn. We now have 
the labels, but again I don't think the labels really make the 
picture clearer. It would be much better if I could assign some 
sort of age to the refrigerator and have a notice on the front 
that says this one will cost you X amount over so many years, 
and compared to other refrigerators that will last a shorter 
time.
    There are so many things that we can do about this that we 
should be doing, and you have probably all heard my I-wish-
energy-were-purple story. You haven't? How did you escape? But 
basically that if energy were purple, people's behavior would 
change because they could see the results. In the winter they 
could see purple oozing through the walls of their house if 
they are not well-insulated or purple rivulets running down the 
windows and doors, and so they would seal those up more 
tightly. And driving down the highway, the Prius might be just 
a little purple haze around the car but an SUV comes by, it is 
just a purple cloud. If people could see energy, if it were 
purple, they would change their behavior very quickly. The 
question I think Mr. Chairman is how can we help them see the 
consequences of their decisions, even though we can't make 
energy purple? What way can we make this more obvious to them 
so that it registers?
    Well, I thank you, Mr. Chairman, for investigating this 
important topic, and I look forward to hearing from our 
witnesses.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    I am pleased that today's hearing will explore how energy-related 
policies are being shaped by social science research. I understand that 
it is very challenging to determine why people do what they do 
regarding energy, given all the variables in their lives. If Congress 
creates what looks like good policy, but which lacks an understanding 
of the primary drivers of decision-making, our policies may still fail. 
We must account for social factors when crafting energy policies.
    Much of the basic research funded by the National Science 
Foundation (NSF) examines the fundamental mysteries behind brain 
cognition and human behavior. Among other things, NSF studies the 
causes and consequences of social and cultural norms. I know many of my 
colleagues share my personal interest in developing policies to draw 
more students into the science and mathematics teaching profession. In 
that context, I believe that it is integral that the social science 
research work in tandem with educational research to evaluate not only 
how to best prepare teachers to teach, but to understand what would 
draw them and keep them in teaching. Perhaps if we continue this series 
of hearings we could delve into what incentives work best to encourage 
people to enter teaching professions as well as their willingness to 
stay in them.
    Returning to the topic at hand today, I am particularly interested 
in what influences individuals to make energy efficiency decisions. We 
all assume that if people understood their return on investment from 
energy efficiency measures--say, home improvements to save on winter 
heating bills--then they would quickly make those changes. But I think 
our witnesses will share that it is much more complicated. We are not 
always as rational as we'd like to believe. Furthermore, being well-
educated about energy efficiency does not necessarily translate into 
action. Consumers are a fickle bunch, especially in a society where 
individualism and personal freedoms are highly-cherished.
    I thank the Chairman for investigating this important topic and I 
look forward to hearing from our witnesses.

    Chairman Baird. Dr. Ehlers, thank you. One of the things 
that is most pleasant about serving in Congress is you can 
serve with people like Dr. Ehlers as your Ranking Member 
because the example he cited illustrates that he has applied 
this in his life; and how many other Americans have the 
technological know-how as a Ph.D. physicist to make those 
calculations? And that is the kind of thing we are going to be 
talking about today.
    So without further ado, I just want to thank my good 
friend, Jerry McNerney for joining us today, also a Ph.D. 
engineer, mathematician, but applied it to wind and solar 
energy for many years. So he knows whereof he speaks as well.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point. At this point I will introduce our witnesses. 
Dr. Robert Cialdini is Regents' Professor of Psychology and 
Marketing and W.P. Carey Distinguished Professor of Marketing 
at Arizona State University. Dr. Duane Wegener is a Professor 
of Psychological Sciences at Purdue University and an 
Initiative Leader in the Social, Economic, and Policy Aspects 
of Energy Use and Policy Division of the Purdue Energy Center. 
Apparently the Purdue Energy gets the concept to have you as 
part of the faculty. Mr. John ``Skip'' Laitner is Visiting 
Fellow and Senior Economist for Technology Policy at the 
American Council for an Energy Efficient Economy. Dr. Jerry 
Ellig is a Senior Research Fellow at the Mercatus Center at 
George Mason University and an Adjunct Professor at the George 
Mason University School of Law. And Dr. Robert Bordley is a 
Technical Fellow in the Vehicle Development Research Laboratory 
at General Motors Corporation and an Adjunct Professor in the 
Industrial and Operations Engineering Department at the 
University of Michigan no less, with a nod to my dear friend.
    As our witnesses know, each testimony is limited to five 
minutes each after which the Members of the Committee will have 
five minutes to ask questions.
    We will start with Professor Cialdini. Thank you all for 
being here.

  STATEMENT OF DR. ROBERT B. CIALDINI, REGENTS' PROFESSOR OF 
       PSYCHOLOGY AND MARKETING, ARIZONA STATE UNIVERSITY

    Dr. Cialdini. Chairman Baird, Ranking Member Ehlers, and 
Members of the Subcommittee, it is my pleasure to be here today 
to testify on the contribution of the social sciences to the 
energy challenge. I believe that the social and behavioral 
sciences do indeed hold tremendous potential to influence 
individual and collective behaviors affecting energy 
conservation providing that we understand how to craft the 
message. Here is why. It is standard practice when advocating 
for action among policy members, such as yourselves, to 
emphasize the breadth of a problem; and that makes sense 
because policy-makers are able to provide additional resources 
or to enact regulations to address those abuses that they seem 
to see as most prevalent.
    However, a different and even opposite logic applies when 
communicating to the public about a problem. To understand that 
logic, consider the following incident. Not long ago, a 
graduate student of mine visited the Petrified Forest National 
Park in Arizona with his fiancee, a woman he described as the 
single most honest person he had ever met. They quickly 
encountered a park sign warning visitors against stealing 
petrified wood. It said, our heritage is being vandalized by 
the theft of 14 tons of wood every year. While still reading 
the sign, he was shocked to hear his fiancee whisper, we better 
get ours now.
    What could have spurred this otherwise wholly law-abiding 
young woman to want to become a thief and to deplete a national 
treasure in the process? I believe it has to do with the 
mistake that Park Service officials made in creating that sign. 
They tried to alert visitors to the park of its theft problem 
by telling them how many other visitors were thieves. In so 
doing, they stimulated the behavior they had hoped to suppress 
by making it appear commonplace, when in fact, less than three 
percent of the park's millions of visitors have ever stolen a 
piece of wood.
    Although their claims may be both true and well-
intentioned, the creators of this and many other types of 
public service campaigns have overlooked something basic about 
the communication process. Within the lament, look at all the 
people doing this undesirable thing, lurks the powerful and 
undercutting message, look at all the people who are doing this 
undesirable thing. And one of the fundamental lessons of human 
psychology is that people follow the crowd. I am concerned that 
this point is being missed in our attempts to communicate the 
importance of environmental protection and energy conservation 
within our communities.
    Therefore, in our messaging, we need to be diligent in 
making clear to the public that many unwelcomed actions with 
regard to the environment are performed by only a small 
minority of the population.
    My colleagues and I at Arizona State University have done 
research indicating that such an approach works. At the 
Petrified Forest, for example, we erected a pair of signs in 
different areas. The first urged visitors not to take wood and 
depicted a scene showing three thieves in action. After passing 
that sign, visitors became more than twice as likely to steal. 
Our other sign also urged visitors not to take wood, but it 
depicted a lone thief marginalizing that behavior instead of 
normalizing it. Those individuals took only half as many pieces 
of wood as before.
    I believe that this lesson applies to other forms of 
environmental offenses such as energy wastage. The secret is to 
avoid validating the deviant actions of a small minority of 
wrongdoers by making them appear the rule rather than the 
exception. Otherwise we assure that a few rotten apples will 
spoil the barrel.
    The truth is, we are not a nation of polluters or 
despoilers or energy pigs. We are not. Consequently, public 
service messages should raise the profile of the majority that 
does act pro-environmentally because as social science research 
tells us, that spurs others to follow.
    To test this idea, we examined resorts' conservation 
choices made in upscale hotel rooms where guests often 
encounter a sign asking them to reuse their towels. This is the 
one at the hotel I stayed in a few blocks from here last night. 
As anyone who travels frequently knows, this card may urge 
action in various ways. Sometimes it requests compliance for 
the sake of the environment. Sometimes it does so for the sake 
of future generations, and sometimes it exhorts guests to 
cooperate with the hotel in order to save resources. What the 
card never says but is entitled to say because it is true is 
that the majority of guests do recycle their towels when given 
the opportunity. We suspected that this omission was costing 
the hotels and the environment plenty. Indeed, when as part of 
our research program we placed such a sign in certain guest 
rooms in an upscale Phoenix hotel, it increased towel reuse by 
34 percent over the traditionally employed messages.
    I am going to close by raising two things that I think are 
noteworthy about the results of our towel study. First, the 
message that generated the most participation in the hotel's 
program was the one that no hotel to our knowledge has ever 
employed. Apparently, this highly effective appeal didn't 
emerge from a history of trial and error as a hotel best 
practice. Instead, it emerged from scientifically based 
understanding of human psychology. This points out the need for 
us to call on social scientific research in a systematic 
fashion to help advance sound environmental policy. For 
instance, in the case of hotel conservation, an average 150-
room hotel would save 72,000 gallons of water a year.
    The second notable aspect of the hotel study was that the 
significant increase in program participation was nearly 
costless to the hotel, something that government needs to 
recognize as well. We don't need to institute highly, costly 
fixes, technological fixes, or tax incentives or regulations. 
We can do it with the messaging process costlessly.
    Thank you for the opportunity to provide the results of my 
team's efforts to date. I will look forward to your questions 
and comments.
    [The prepared statement of Dr. Cialdini follows:]
                Prepared Statement of Robert B. Cialdini

Abstract

    Social norms, which refer to what most people do (descriptive 
social norms) and what most people approve (injunctive social norms), 
are remarkably powerful in directing human action. Social science 
research has uncovered the most successful ways to incorporate norms 
into messages designed to produce socially desirable conduct.
    Studies in several environmental contexts (e.g., home energy 
conservation, household recycling, hotel conservation efforts) show 
that (1) energy users severely underestimate the role of social norms 
in guiding their energy usage, (2) communications that employ social 
norm-based appeals for pro-environmental behavior are superior to those 
that employ traditional persuasive appeals, and (3) even though these 
highly effective social norm-based appeals are nearly costless--
requiring no large technological fixes, tax incentives, or regulatory 
changes--they are rarely (and sometimes mistakenly) delivered.

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, it is my pleasure to be here today to testify on The 
Contribution of the Social Sciences to the Energy Challenge. I believe 
that the social and behavioral sciences do indeed hold tremendous 
potential to influence individual and collective behaviors effecting 
energy conservation, providing that we understand how to craft the 
message.
    Here's why. It is standard practice when advocating for action 
among policy-makers (e.g., legislative or other governmental officials) 
to emphasize the breadth of a problem. And, that makes sense because 
policy-makers can be expected to provide additional resources or 
regulations to address those abuses that appear to them most 
widespread. However, a different--and even opposite--logic may apply 
when communicating with the public about a problem. To understand that 
logic, consider the following incident.
    Not long ago, a graduate student of mine visited the Petrified 
Forest National Park in Arizona with his fiancee--a woman he described 
as the most honest person he'd ever known, someone who had never taken 
a paper clip or rubber band without returning it. They quickly 
encountered a park sign warning visitors against stealing petrified 
wood, ``OUR HERITAGE IS BEING VANDALIZED BY THE THEFT OF 14 TONS OF 
WOOD EVERY YEAR.'' While still reading the sign, he was shocked to hear 
his fiancee whisper, ``We'd better get ours now.''
    What could have spurred this wholly law-abiding young woman to want 
to become a thief and to deplete a national treasure in the process? I 
believe it has to do with a mistake that park officials made when 
creating that sign. They tried to alert visitors to the park's theft 
problem by telling them that many other visitors were thieves. In so 
doing, they stimulated the behavior they had hoped to suppress by 
making it appear commonplace--when, in fact, less than three percent of 
the park's millions of visitors have ever taken a piece of wood.
    Park officials are far from alone in this kind of error. Those 
responsible for developing and enforcing public policy blunder into it 
all the time. Teenage suicide prevention programs inform students of 
the alarming number of adolescent suicides and, research shows, cause 
participants to become more likely to see suicide as a possible 
solution to their problems. When publicizing cases of school violence, 
news outlets assemble accounts of incident after incident and, in the 
process, spawn the next one. During prominently announced crack-downs 
on the problem, government officials decry the frequency of tax evasion 
and, as demonstrated by one follow-up study, increase tax cheating the 
next year (Kahan, 1997). Although their claims may be both true and 
well-intentioned, the creators of these information campaigns have 
overlooked something basic about the communication process: Within the 
lament ``Look at all the people who are doing this undesirable thing'' 
lurks the powerful and undercutting message ``Look at all the people 
who are doing it.'' And, one of the fundamental lessons of human 
psychology is that people follow the crowd. I am concerned that this 
point is being missed in our attempts to communicate the importance of 
environmental protection and energy conservation within our 
communities.
    I think there is a better way to proceed. We need be diligent in 
making clear to the public that many unwelcome actions are performed by 
a small minority of the population. For instance, let's consider the 
case of littering. Few citizens litter with any frequency; most take 
care to preserve the environment. The key to an enlightened public 
policy approach to litter is to deliver the message that even one 
abandoned newspaper can spread to despoil a pristine park or beach, 
that even one cigarette butt flipped from a car can ignite a 
devastating fire, that even one carelessly discarded plastic container 
can endanger wildlife, and, most important, that even one piece of 
litter can begin an accumulation that creates the mistaken--but 
contagious--impression that we all litter. It's not even remotely true 
that we are a nation of despoilers, and we shouldn't be misled into 
believing that it is. Instead, armed with the knowledge that, as a 
citizenry, we do care about our environment, we should focus on 
marginalizing the few who don't care.
    Would such an approach work in other environmental arenas? My 
colleagues and I at Arizona State University have done research 
indicating that it well might. At the Petrified Forest, we erected a 
pair of signs in different areas. The first urged visitors not to take 
wood and depicted a scene showing three thieves in action. After 
passing that sign, visitors became over twice as likely to steal than 
before! Our other sign also urged visitors not to take wood, but it 
depicted a lone thief. Visitors who passed it became nearly half as 
likely to steal than before (Cialdini, 2003). I believe that this 
lesson applies to other forms of environmental offenses such as energy 
wastage. The secret is to avoid validating the deviant actions of a 
small minority of wrongdoers by making them appear the rule rather than 
the exception. Otherwise, we assure that a few rotten apples will spoil 
the barrel.
    In addition, we should be sure to raise the profile of the majority 
that does act pro-environmentally, because that spurs others to follow 
suit. For instance, with our students, my fellow environmental 
researcher, Wes Schultz of California State University-San Marcos, and 
I obtained support from the William and Flora Hewlett Foundation to 
study how descriptive social norms (the perception of what most people 
do in a situation) can influence energy conservation decisions. Our 
survey of nearly 2,500 Californians showed that those who thought their 
neighbors were conserving were more likely to conserve themselves. But, 
at the same time, almost all of the survey respondents underestimated 
the conservation efforts of their neighbors. In a follow-up study, we 
placed door hangers on the doors of San Diego-area residents once a 
week for a month. The door hangers carried one of four messages, 
informing residents that (1) they could save money by conserving 
energy, or (2) they could save the Earth's resources by conserving 
energy, or (3) they could be socially responsible citizens by 
conserving energy, or (4) the majority of their neighbors tried 
regularly to conserve energy--information we had learned from a prior 
survey. We also include a control group of residents in the study whose 
door hanger simply encouraged energy conservation but provided no 
rationale. Even though our prior survey indicated that residents felt 
that they would be least influenced by information regarding their 
neighbors' energy usage, this was the only type of door hanger 
information that led to significantly decreased energy consumption, 
almost two kWh/day (Nolan, Schultz, Cialdini, Goldstein, & 
Griskevicius, 2007). This suggests a clear way to increase conservation 
activity--by trumpeting the true levels of conservation that are going 
unrecognized.
    To investigate this idea, we examined resource conservation choices 
in upscale hotel rooms, where guests often encounter a card asking them 
to reuse their towels. As anyone who travels frequently knows, this 
card may urge the action in various ways. Sometimes it requests 
compliance for the sake of the environment; sometimes it does so for 
the sake of future generations; and sometimes it exhorts guests to 
cooperate with the hotel in order to save resources. What the card 
never says, however, is that (according to data from the Project Planet 
Corporation that manufactures the cards) the majority of guests do 
reuse their towels when given the opportunity. We suspected that this 
omission was costing the hotels--and the environment--plenty.
    Here's how we tested our suspicion. With the collaboration of the 
management of an upscale hotel in the Phoenix area, we put one of four 
different cards in its guest rooms. One of the cards stated ``HELP SAVE 
THE ENVIRONMENT,'' which was followed by information stressing respect 
for nature. A different card stated ``HELP SAVE RESOURCES FOR FUTURE 
GENERATIONS,'' which was followed by information stressing the 
importance of saving energy for the future. A third type of card stated 
``PARTNER WITH US TO HELP SAVE THE ENVIRONMENT,'' which was followed by 
information urging guests to cooperate with the hotel in preserving the 
environment. A final type of card stated ``JOIN YOUR FELLOW CITIZENS IN 
HELPING TO SAVE THE ENVIRONMENT,'' which was followed by information 
that the majority of hotel guests do reuse their towels when asked. The 
outcome? Compared to the first three messages, the final (social norm) 
message increased towel reuse by an average of 34 percent (Goldstein, 
Cialdini, & Griskevicius, 2007).
    Two things are noteworthy about the results of the hotel study. 
First, the message that generated the most participation in the hotel's 
towel recycling program was the one that no hotel (to our knowledge) 
has ever used. Apparently, this simple but effective appeal didn't 
emerge from a history of trial and error to become a hotel ``best 
practice.'' Instead, it emerged from a scientifically-based 
understanding of human psychology. This points out the need to call on 
social scientific research in a systematic fashion to help advance 
sound environmental policy. For instance, in case of hotel conservation 
programs, the average 150-room hotel would save 72,000 gallons of 
water, 39 barrels of oil, and would obviate the release 480 gallons of 
detergent into the environment in the course of a year if guests 
complied with the requests.
    The second notable aspect of the hotel study was that the 
significant increase in program participation was nearly costless. In 
most cases, for an organization to boost effectiveness by 34 percent, 
some expensive steps have to be taken; typically, organizational 
structure, focus, or personnel must be changed. In this instance, 
however, none of that was necessary. Rather, what was required was a 
presentation of the facts about the preferred behavior of the majority.

Conclusion

    In sum, when communicating with the public, it is important to 
avoid trying to reduce the incidence of a damaging problem by 
describing it as regrettably frequent. Such an approach, while 
understandable, runs counter to the findings of social science 
regarding the contagiousness of social behavior, even socially harmful 
behavior. Moreover, often, the problem under consideration is not 
widespread at all. It only comes to seem that way by virtue of a vivid 
and impassioned presentation of its dangers. Instead, it would be 
better to honestly inform our audience of the environmental peril 
resulting from even a small amount of the undesirable conduct. 
Furthermore, when most people are behaving responsibly toward the 
environment, we'd be less than responsible ourselves if we failed to 
publicize that fact, as the social science evidence is plain that the 
information will serve both to validate and stimulate the desired 
action.

References

Cialdini, R.B. (2003). Crafting normative messages to protect the 
        environment. Current Directions in Psychological Science, 12, 
        105-109.

Goldstein, N., Cialdini, R.B., & Griskevicius, V. (2006). A room with a 
        viewpoint: Using norm-based appeals to motivate conservation 
        behaviors in a hotel setting. Manuscript currently under 
        review.

Kahan, D. (1997). Social influence, social meaning, and deterrence. 
        Virginia Law Review, 83, 349-395.

Nolan, J.M.. Schultz, P.W., Cialdini, R.B., Goldstein, N.J., & 
        Griskevicius, V. (2007). Normative influence is under-detected. 
        Manuscript currently under review.

                    Biography of Robert B. Cialdini
    Robert B. Cialdini is Regents' Professor of Psychology and 
Marketing at Arizona State University, where he has also been named W. 
P. Carey Distinguished Professor of Marketing. He has taught at 
Stanford University and Harvard's Kennedy School of Government. He has 
been elected President of the Society of Personality and Social 
Psychology. He is the recipient of the Distinguished Scientific 
Achievement Award of the Society for Consumer Psychology, the Donald T. 
Campbell Award for Distinguished Contributions to Social Psychology, 
and the (inaugural) Peitho Award for Distinguished Contributions to the 
Science of Social Influence.
    Professor Cialdini's book Influence: Science and Practice, which 
was the result of a three-year program of study into the reasons that 
people comply with requests in everyday settings, has sold over a 
million copies while appearing in numerous editions and twenty-two 
languages.

    Chairman Baird. My guess is that card doesn't use your 
effective message, right?
    Dr. Cialdini. It doesn't. It says please do this for the 
sake of the environment, and then it adds insult to injury by 
saying, don't forget to recycle every year. Americans waste 
four trillion documents, enough to paper the Grand Canyon 300 
times. So they do the opposite of what our research suggests.
    Chairman Baird. Dr. Wegener.

 STATEMENT OF DR. DUANE T. WEGENER, PROFESSOR OF PSYCHOLOGICAL 
SCIENCES; INITIATIVE LEADER FOR SOCIAL, ECONOMIC, AND POLITICAL 
 ASPECTS OF ENERGY USE AND POLICY, ENERGY CENTER AT DISCOVERY 
                    PARK, PURDUE UNIVERSITY

    Dr. Wegener. Chairman Baird, Ranking Member Ehlers, and 
Members of the Subcommittee, thank you for the opportunity to 
testify.
    I am here today in part because of the necessary transition 
from fossil fuels to new, sustainable energy sources will rely 
on more than development of new energy technologies. A 
successful transition to new energy sources will be determined 
to a large extent by changing in the energy use behaviors of 
energy consumers.
    In my home discipline of social psychology, factors such as 
social norms, values, and attitudes have been identified as 
important determinants of behavior. However, these social 
factors are not always equally important. My research focuses 
on attitudes, persuasion, and the consequences of the resulting 
attitudes in terms of the persistence of the attitude over 
time, its ability to resist future attempts at change, and its 
ability to influence future thinking and behavior.
    As the Charter for this hearing noted, there are 
indications that people hold favorable attitudes toward energy-
relevant actions such as conservation. Yet, in too many 
circumstances, these attitudes do not seem to be having the 
desired effects on behavior. Why is it that these attitudes are 
not getting the job done and what do we know about attitudes 
and persuasion in help making these attitudes more influential?
    The social psychology literature on attitudes has 
identified a number of determinants of when attitudes influence 
behavior and when they do not. Let me focus on one area of this 
research, the work on attitude strength. The concept of 
attitude strength came from the acknowledgment that not all 
attitudes are equally capable of influencing behavior. Many 
specific properties of the attitudes have been identified that 
make them relatively strong. In the persuasion experiments 
conducted in my lab, we focus on the factors that influence how 
much people think about the persuasive message. In some 
circumstances, people engage the message and think carefully 
about what it has to say. In others, they either lack the 
motivation or the ability to think carefully about the 
information in the message. In both types of situations, people 
can be persuaded but the changes in attitudes created by 
thinking carefully about the message creates attitudes that 
have this property of strength.
    As one example, in a recent set of studies a colleague of 
mine, Kevin Blankenship, and I took topics that people were not 
naturally motivated to think carefully about, including the 
topic of building nuclear power plants in Canada. And we asked 
them to think about whether that message related to values that 
we had previously identified as either quite important or 
relatively unimportant to our participants. When considering 
whether the message was related to these important values, 
message recipients thought much more thoroughly about the 
information using a number of different measures of amount of 
thinking. And just as importantly, the attitudes formed through 
thinking were then more capable of resisting a later message 
that opposed people's attitudes. In the nuclear power study, 
the later message opposed the building of nuclear power plants 
where the initial message had supported the building of those 
plants.
    These thoughtful attitudes have also been shown in other 
research to be more likely than to guide later behaviors, even 
when the non-thoughtful attitudes were in fact just as 
favorable as those thoughtful attitudes.
    So if people are favorable toward energy conservation, for 
example, but their opinions are not well-thought out, then 
these attitudes are unlikely to translate into energy 
conservation behaviors.
    Theory and research and attitudes has also identified 
additional factors that make attitudes stronger. For example, 
attitudes are stronger when people hold them with confidence, 
and the attitude is also strong if the person views the 
proposal like the building of nuclear power plants as mostly 
good or mostly bad, rather than as having a more equal mixture 
of good and bad features which we refer to as ambivalence.
    In each of these cases, the attitudes with these properties 
are more likely to have the consequences that I mentioned 
earlier, persistence, resistance, and impact on behavior. There 
is certainly much more to learn about persuasion and about 
attitude strength including, for example, which of the 
strength-related features is necessary or sufficient to produce 
the particular consequences, especially here to produce the 
desired attitude-consistent behaviors.
    Although I spent most of my time this morning speaking as a 
researcher who conducts experiments on attitude change, I also 
work within a multi-disciplinary group of energy researchers in 
the Energy Center at Purdue University. The model in that 
Center is to build connections among social scientists from 
different disciplines, psychology, economics, political 
science, consumer behavior, science education, and others, and 
also to connect those researchers with the technological 
development teams and bioenergy hydrogen, et cetera. This 
integration of social scientists, natural scientists, and 
engineers is valuable in moving the issues of economic 
viability and technology adoption to the forefront of 
technology development. We believe that addressing the social 
obstacles that a new technology is likely to face will help to 
build new technologies that find viable markets more quickly 
and are therefore more successful. Both the basic research in 
social science and the integration of this science with 
technology development will be important in smoothing the 
behavioral pathways to a new energy economy. Unfortunately, 
both basic science and social psychology and policy and 
behavioral research on energy per se remains under-funded at 
the federal level.
    To conclude, the best new technology will not help us to 
address the energy challenge unless the public adopts them. 
Therefore, the coming energy transition from fossil fuels to 
new sustainable sources of energy will consist in large part of 
behavioral changes will benefit from greater research to 
understand these behavioral changes and to integrate this work 
with technology development.
    Thank you very much.
    [The prepared statement of Dr. Wegener follows:]
                 Prepared Statement of Duane T. Wegener

Abstract

    The energy challenge is characterized by (a) a great need for 
development of new technology, and (b) a need for unprecedented changes 
in energy-related behavior. These behavior changes must occur at many 
levels, including investors, energy producers (including those in the 
supply chain), and individual consumers. At Purdue University, I 
address behavior change through basic research on attitudes, 
persuasion, and behavior. I also help to lead an initiative in the 
Purdue Energy Center that focuses on social, economic, and political/
policy factors that will influence the behavioral pathways to a new 
energy economy. By interacting directly with technology development 
teams, my colleagues and I seek to identify and influence the barriers 
that new energy technologies will face. By integrating social science 
with technology development, we believe that new technologies can come 
on-line faster and more smoothly. The challenge for completing this 
work is that current federal funding provides strong support for 
technology pathways but provides insufficient support for research 
addressing the behavioral pathways. In the various sections of my 
written testimony, I describe my activities in the Purdue Energy 
Center, the available funding for our research, the existing research 
on attitude formation and change (including examples of recent research 
from my lab on attitudes toward nuclear power), and examples of 
relevant research questions that remain unanswered.

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, thank you for the opportunity to testify on the 
Contribution of the Social Sciences to the Energy Challenge. I believe 
that the social sciences will play a crucial role in understanding and 
facilitating the behavioral pathways to a new, sustainable energy 
economy.
    I was asked to address four sets of questions. They are listed, 
along with my written testimony, in the following sections. In order to 
facilitate the identification of responses to specific questions, I 
have included headings to correspond with each question in the question 
set.

1.  Please describe your involvement in the Purdue Energy Center, and 
in particular the mission and goals of the Social, Economic, and 
Political Aspects of Energy Use and Policy team of the Center. How and 
to what degree does your team interact and collaborate with the 
technology teams at the Center?

Involvement in the Center

    I serve as one of three Initiative Leaders for the area of Social, 
Economic, and Political Aspects of Energy Use and Policy (SEPAE). The 
other two initiative leaders are Wallace Tyner (a Professor of 
Agricultural Economics) and Glenn Parker (a Distinguished Professor of 
Political Science). Included in the initiative leader role, we each 
also serve as a member of the Executive Board of the Energy Center (a 
decision-making body that meets quarterly). Our work as initiative 
leaders is multi-faceted. Because a primary goal for the Energy Center 
in general is to build new transdisciplinary research teams, we have 
been working to inform one another about the research we do in each of 
our respective disciplines. We have also been working to build 
connections to the various technology-development initiatives within 
the Center. Finally, as initiative leaders, we work to organize 
responses to calls for research proposals. Much of the early effort has 
been aimed at federal research dollars, but we have also attempted to 
make connections with State government, utilities that operate in the 
state, and, to a lesser degree, with private foundations (more on this 
in response to Question #2 from the Committee).
The Mission of the SEPAE Group within the Energy Center
    The mission of the SEPAE group is directly related to the topic of 
today's hearing. We seek to extend research and theory from the social 
sciences to the topics of energy technology, energy use, and policy. In 
other words, SEPAE faculty work to address drivers and obstacles faced 
by new energy technologies (especially those studied within the other 
Energy Center research initiatives). The purpose of the SEPAE research 
is to increase the ultimate effectiveness of technology development by 
performing simultaneous analyses of economics, policy alternatives, 
public/political technology acceptance, and energy-related decision-
making. Each of these factors should feed into energy-related 
behaviors, including investment by companies or individuals, use of new 
energy-related products, and support for policy-makers who champion 
particular energy policies.
    We believe that these efforts are crucial in managing the necessary 
transition away from previous technologies that are ultimately 
unsustainable (and, in many forms, polluting) and to the use of new, 
sustainable energy technologies. The reality is that any new energy 
technology is likely to start with a variety of competitive 
disadvantages. Potential long-term sources of clean energy, such as the 
promised hydrogen economy, will require new infrastructure for storage, 
transportation, and fuel delivery. Even energy sources that potentially 
piggyback on existing infrastructure (such as generation of liquid 
fuels via clean coal technologies or biomass) require new processing 
facilities and pose new logistical challenges as they seek to compete 
economically with currently dominant energy sources (i.e., fossil 
fuels).
    Every step in the process will depend on a combination of social, 
economic, and political forces. Uninformed (and perhaps even informed) 
citizens may continue to favor cheap and familiar sources of energy. 
Suppliers of that energy may also attempt to forestall widespread 
adoption of alternative energy sources. Yet, citizens concerned about 
issues such as security, environmental preservation, and support for 
local economic development may be willing to pay the premium necessary 
to fully develop new energy sources that can ultimately compete with 
fossil fuels. For many new energy technologies, new regulatory statutes 
and bodies will be necessary, and policies governing the economic risks 
for investors will have direct effects on whether private investment 
occurs and to what extent. As the next generation of energy sources 
comes online, customer acceptance may also determine the extent to 
which policy-makers and industry support the widespread development, 
and ultimately the economic feasibility, of the new technologies.
    Unfortunately, in many cases, simply waiting for the development of 
a commercially viable product may be too late. For example, some 
promising technologies are being developed for use of plants that are 
genetically modified to increase their efficiency (and environmental 
friendliness) in production of biofuels. However, no regulatory system 
exists for the commercial use of those plants for production of 
biofuel. If the technology progresses to the point of becoming 
economically viable, but no regulatory process is put in place, it 
could create years worth of delays before the new plants can be 
productively used in the marketplace. Of course, this anticipated delay 
and the associated uncertainty could deter private investment in the 
technology. And the building of a regulatory system is likely to depend 
on both public and political perceptions of the new technology (e.g., 
in terms of its impact on the surrounding community and on the 
environment more generally).
    Research addressing the social, economic, and political factors 
that influence development and adoption of new technologies will help 
the technology researcher to create technologies that face fewer 
obstacles. For example, public or political opposition to use of a 
genetically-modified plant in biofuel production might be based 
primarily in the concern that the modified gene will spread to native 
species (see Goy & Duesing, 1996; Meilan, 2004). If so, then creation 
of sterile versions of the plant might face less public and political 
opposition. In this type of situation, therefore, attention to social 
and political factors might identify issues that can be addressed in 
advance by technology developers, and the new technology can avoid an 
obstacle that would threaten the economic viability of the technology.
    In other settings, identification of obstacles or drivers for 
adoption might identify effective means of educating or persuading the 
public or policy-makers about the benefits of the new technology. This 
could ease the creation of regulatory systems friendly to the new 
technology or could ease the zoning and approval of new plants using 
the technology. Therefore, in a variety of situations, the economic 
viability of the new technology might be enhanced by early attention to 
social, economic, and political/policy matters.

Interaction with Technology Teams

    The integration of SEPAE topics with the technology development 
teams differentiates Purdue University's Energy Center from many others 
across the country. Ideally, the SEPAE topics will eventually be 
pursued across each of the other research areas within the center 
(including initiatives in Clean Coal, Solar, Bio-, Wind, 
Electrochemical, Power Electronics, Hydrogen, and Nuclear areas of 
energy technology).
    These integrative efforts have yielded a number of successes in the 
brief time since the Energy Center's inception. For example, a team of 
researchers investigating production of biofuels from trees recently 
received a $1.4 million grant from the Feedstock Genomics program at 
the Department of Energy (DOE Grant # DE-FG02-06ER64301; through the 
Office of Science, Office of Biological and Environmental Research). In 
the grant proposal, the Principal Investigators noted the connections 
between SEPAE research in the Center and their research on biofuel 
production, and these connections were noted as a strong feature of the 
proposal in panel reviews of the biofuel grant. The SEPAE activities 
were not funded in the DOE grant, but other recent efforts are 
beginning to produce funding for the SEPAE activities.
    Recently, a team of SEPAE researchers submitted a grant application 
to the National Science Foundation program on Human Social Dynamics, 
and this grant has been recommended for funding (for $750,000 over 
three years, beginning in January 2008). The grant addresses social, 
economic, and political aspects of U.S. Ethanol Policy. In particular, 
the research supported by the grant will examine (a) the economics of 
the seven most likely ethanol policy options, (b) public and political 
perceptions of the ethanol policies (including comparisons between 
public perceptions and those of policy-makers in states that ban use of 
genetically-modified plants for biofuel production or not), and (c) the 
influences of attitudes and values on individuals' energy-related 
decision-making.
    I am the Principal Investigator for that grant, along with Wallace 
Tyner (in Agricultural Economics) and Leigh Raymond (in Political 
Science) as Co-Investigators. In addition, however, the research team 
includes consultants in Psychological Sciences (Professor Janice 
Kelly), Biochemistry (Distinguished Professor Clinton Chapple), 
Forestry and Natural Resources (Associate Professor Richard Meilan), 
and Economics (Professor Timothy Cason). Therefore, the research team 
for this project includes researchers from across the areas of SEPAE, 
as well as Principal Investigators (Chapple and Meilan) from the DOE 
grant on biofuel production mentioned earlier.
    As these two grants would imply, our interactions thus far have 
been closest between SEPAE and the BioEnergy initiative. We have also 
made some initial connections with the Hydrogen and Clean Coal 
initiatives, though not to the same extent. Other than these three 
areas, most of the interaction among areas of the Center has taken 
place in the Executive Board meetings, where each initiative leader 
describes the current efforts for their initiative. It is clear from 
our initial efforts that the creation of transdiciplinary teams 
involves a good deal of ``start up'' costs. It takes time and effort, 
not only in developing potential research questions of common interest, 
but then also attempting to find sources of funding that would be 
interested in supporting research on those questions.
    Researchers in the energy technology areas are naturally focused on 
the work required to develop those technologies, and only some express 
interest in integration of SEPAE topics with technology development. In 
some cases, the researchers believe that public acceptance of the new 
technology must simply consist of making them aware of the benefits of 
the technology (whether the benefits be related to cost, environmental 
preservation, or security). However, as many of the committee members 
may routinely experience in their role as policy-makers, public 
acceptance is often influenced by a variety of factors that may, on the 
face of it, appear less than rational. In the energy domain, many new 
technologies that appear to have advantages over older technologies 
(e.g., in decreased pollution), are nonetheless opposed by nearby 
residents (the prevalent ``not-in-my-back-yard'' problem). This is 
certainly true for nuclear energy (Rankin, Nealy, & Melber, 1984; Rosa 
& Dunlap, 1994). A local example in Southern Indiana provided a similar 
situation when community members opposed a new coal-based power plant 
using updated technology capable of cutting pollution to a small 
fraction of that emitted by the coal-based plant to be replaced 
(despite the fact that the new plant would create more than ten times 
the amount of energy of the old plant).
    Therefore, it seems crucial to understand the human aspects of 
energy-related behavior and to take those aspects into account in the 
technology development process. In order to do this, it may require 
directed investment on the part of funding agencies or energy centers 
to build and maintain these transdisciplinary collaborations.

2.  How much support do you and your colleagues in this area get from 
federal funding agencies? Have you sought any support from or 
partnerships with public or private utilities or other non-governmental 
entities?

Support from Federal Funding Agencies

    A number of SEPAE faculty have been successful in recent 
competitions for federal research support. However, this success comes 
despite a relative lack of available funds for SEPAE research.
    There are at least a couple of standpoints from which to answer 
this question. One is from the point of view of energy researchers per 
se.
For Energy Research
    As noted earlier, the SEPAE group has been successful of late in 
obtaining funding from the Human Social Dynamics (HSD) program of the 
National Science Foundation (NSF). However, this program is, by no 
means, focused on problems related to energy per se. Therefore, it is 
not a surprise that relatively little of the funding through this 
program supports energy-related research. Over the four years of the 
HSD program, a number of the awards support projects focused on 
influences of climate change, but very few deal directly with energy or 
new energy technologies.
    In addition to the NSF funding, SEPAE member Wallace Tyner was also 
successful in a recent Department of Energy (DOE) competition for 
research proposals in Ethical, Legal, and Societal Implications (ELSI) 
of Research on Alternative Bioenergy Technologies, Synthetic Genomics, 
or Nonotechnologies. This grant, set to receive $660,000 over three 
years, seeks to ``develop realistic assessments of the economic and 
environmental impacts of regional and global policies designed to 
stimulate bioenergy production and use.'' Professor Tyner, who led the 
proposal, was joined by Tom Hertel, Distinguished Professor of 
Agricultural Economics, and Quinlai Zhuang, Professor of Earth and 
Atmospheric Sciences and Agronomy. This was a new program for the DOE, 
and it funded proposals for a total of $1 million during fiscal year 
2007 (approximately five total grants of the size of the Tyner, Hertel, 
& Zhuang proposal). Therefore, unless this program or something like it 
is expanded quite a lot, the federal funding aimed specifically at 
social, economic, and political aspects of energy use or policy seems 
quite limited.
    It is also true that none of the current National Energy 
Laboratories involve the study of social, economic, or political/policy 
dimensions of energy technology. Thus, if Congress sees potential 
benefits in specifically funding energy-related research addressing 
social, economic, and political/policy factors, this may require 
changes in the structure or priorities of federal funding sources. One 
model would be to set up a national center (a national lab) for the 
social-scientific study of energy. If benefits are seen in the direct 
integration of this research with technology development, it would be 
important for this center to be closely associated with either a 
technology-oriented national lab or energy center. Yet another model 
would be to provide finding for competitions within existing funding 
structures (e.g., through the DOE or even NSF) that focus on the 
social-scientific influences on energy use, policy, and technology. 
Again, if benefits are seen in integration of this research with 
technology development, specific calls could be made for 
transdisciplinary work on the topic (within either the current DOE 
focus on technology development or NSF interdisciplinary programs).
For Basic Science
    A second standpoint for answering this question comes from my work 
as a basic (laboratory-based) researcher on processes involved in 
attitude formation and change. As discussed in more detail in response 
to Question #3, basic research on attitudes and attitude change seeks 
to identify psychological processes that generalize across many 
specific content domains (including, but by no means limited to energy-
related topics). Because attitudes have potent influences on behavior, 
attitude change provides one of the best mechanisms for influencing 
energy-use behavior (and behaviors in a variety of other domains, such 
as health, civic engagement, environmental preservation, etc.).
    In energy and other domains, it would make little sense to fund 
research on applications (such as chemical processes involved in making 
liquid fuels from coal) without continuing to fund basic research (such 
as the actions of a catalyst on reactions that occur with controlled 
concentrations of certain chemicals). Yet, whether intended or not, 
this is what has happened at the National Institutes of Health (NIH) 
for research on attitudes and attitude change (and for Social 
Psychology generally--the discipline in which most psychological 
research on attitudes occurs).
    Indeed, over the years, the National Institute of Mental Health 
(NIMH) has been the single largest funding source for basic research in 
social psychology (and attitude change). This continued to be true 
until a few years ago. Since that time, NIMH funding for social 
psychological research has virtually dried up, because NIMH has decided 
that basic research in all areas of social psychology (not only 
attitudes and attitude change) is not sufficiently related to severe 
mental illnesses. Although NIH continues to fund applied research into 
specific conditions or diseases (e.g., cancer, drug abuse), there is 
concern from the scientific community that funding for basic (cross-
content) research on the relevant behavioral processes is insufficient. 
This has occurred despite the fact that Congress has repeatedly 
requested that NIH increase its support for basic behavioral research.
    The reader might wonder how this decrease in funding is related to 
research on energy per se. When basic research is not funded, this 
reduces advances in theory and research relevant to many applied 
domains. For example, as I describe in more detail later, my colleagues 
and I recently conducted research on implications of attitudinal 
ambivalence for attitude change. In that research, we found the same 
pattern of results for a health-related topic (proposed taxing of junk 
food) and an energy-related topic (proposed building of nuclear power 
plants). Thus, decreases in funding for basic research decreases 
knowledge that can benefit many (seemingly unrelated) areas of applied 
interest.
    It is true that NSF continues to fund basic research in social 
psychology generally (and attitude change in particular). 
Unfortunately, because the NSF budget has not increased, overall 
support for basic research on attitudes and attitude change (and for 
research on social and cognitive processes in general) has markedly 
decreased and remains severely under-funded.

Support from Non-Governmental Entities

    In the first two years of the Energy Center, SEPAE efforts at 
seeking funding for our research have focused on federal funding 
sources (though, as discussed earlier, relatively few federal dollars 
are specifically aimed at the types of research we conduct). One reason 
for this is undoubtedly that most of the researchers gathering as 
members of SEPAE have had their previous research supported primarily 
by federal dollars.
    We have made some attempts, and are continuing to do so, in other 
areas, however. Our few contacts with energy utilities thus far have 
been channeled back to regulatory decisions pending with the Indiana 
Utility Regulatory Commission. One regulatory settlement occurred 
recently in the area of natural gas to support analysis of a demand-
side (energy conservation) program. Unfortunately, the structure and 
funding included in that settlement would not support the kinds of 
research that we conduct in the SEPAE group. Although we are certainly 
open to direct work with utilities, we have not identified other 
opportunities for funding our research in this way.
    In other areas of the Center, there are close ties with Indiana 
State Government (especially in supporting research for how to use 
Indiana coal in environmentally responsible ways). However, we have not 
yet identified a State government funding mechanism for SEPAE research.
    Just in the past couple of weeks, we have also had SEPAE members 
(Tyner and Wegener) meeting with a broad group of Purdue University 
researchers to discuss a proposal to a private foundation. This 
foundation is consulting with various Universities on possible projects 
that address agriculture and the environment (a Purdue proposal would 
likely address the environmental impact of biofuels, with a heavy 
emphasis on changing land use behaviors). These foundation connections 
are new for us and may take some time to cultivate. The exploration of 
new funding sources is certainly one type of ``start up'' cost involved 
in the building of transdisciplinary research teams to address 
important societal problems.

3.  What has social science research revealed about factors that 
influence how Americans form attitudes relevant to energy use and 
policy? How can this research be used more effectively to inform 
policy?

Influencing Attitudes

    I have to answer this question from the standpoint of a social 
psychologist, without claiming to be an expert in all areas of social 
science relevant to attitude formation and change. One interesting 
aspect of the social psychological literature on attitudes and 
persuasion is that it is designed to be basic science, identifying 
general psychological properties that are applicable to attitudes about 
different people, objects, or policies. Therefore, in most social 
psychological research on attitude change, the same effects and 
processes are shown to occur for two or more topics. In many cases, 
these topics are not directly energy-related, but there is little 
reason to expect that the processes identified would not also occur 
when the attitudes are about energy use or energy policy.
    Research on attitudes and attitude change has been a core part of 
social psychology since the 1930s. G. W. Allport (1935) first called 
attitude social psychology's most indispensable construct, but this is 
arguably still true today. This is because attitudes (one's overall 
evaluations of people, objects, or issues) are pervasive and functional 
(see Maio & Olson, 2000b; Pratkanis, Breckler, & Greenwald, 1989). For 
example, attitudes predict behavior when controlling for other 
psychological constructs, such as values (Homer & Kahle, 1988) and 
subjective norms (Ajzen & Fishbein, 1970, 2005). Indeed, it is partly 
because attitudes are capable of influencing behaviors that researchers 
became interested in techniques used to change attitudes.
    It is beyond the scope of the current testimony to provide a 
comprehensive review of the last 80 years of research and theory in 
this area. Therefore, I will provide only a brief summary to provide 
examples of common variables and processes that have been studied. The 
reader can see Petty and Cacioppo (1981/1996) for an accessible 
(undergraduate level) overview of attitudes and persuasion. Petty and 
Wegener (1998) and Wegener and Carlston (2005) provide more recent 
reviews.
    I divide my current summary into sections on classes of variables 
studied, common processes in message-based persuasion, and examples of 
research from my lab that has addressed attitudes toward nuclear power.
Classes of Variables that Influence Attitudes
    Factors involved in message-based attitude change (of the type 
involved in mass communications, such as advertising) have included 
characteristics of the source of the message, characteristics of the 
message itself, characteristics of the recipient of the message, and 
characteristics of the context in which people receive the message (see 
Petty & Wegener, 1998). Prevalent source characteristics include the 
credibility (expertise and trustworthiness), attractiveness 
(likability), and power of the source. Prevalent message 
characteristics include the position of the message (i.e., relatively 
agreeable or disagreeable to the message recipient) and the quality and 
quantity of arguments used in the message. Other message features 
include framing of the message (e.g., stating the message in positive 
terms, such as ``if you stop smoking, you'll live longer,'' or negative 
terms, such as ``if you smoke, you will die sooner'') or the order in 
which opposing messages are encountered. Recipient characteristics 
include characteristics of the attitudes message recipients already 
hold, demographic characteristics, and personality of the person 
receiving the message. Finally, context variables include the level of 
distraction created by competing activities, the modality (e.g., 
written, audio) through which the message is received, and the 
uplifting or depressing setting surrounding the persuasive message 
(which could also be considered as creating differences in the mood 
state of message recipients).
Persuasion Processes
    In addition to the many individual variables that have been 
studied, a variety of psychological processes have been identified to 
determine when and how the variables influence attitudes. Many of the 
persuasion processes can be organized using the Elaboration Likelihood 
Model (ELM; Petty & Cacioppo, 1986b; Petty & Wegener, 1999). The ELM 
organizes persuasion processes according to how much people are 
thinking about (elaborating on) the available information about the 
person, object, or topic of interest.
    High-elaboration (thoughtful) processes. The message recipient is 
likely to think more about available information when highly motivated 
(e.g., because the message topic is important or personally relevant to 
the recipient) and able to do so (e.g., because environmental 
distractions are minimal; see Petty & Wegener, 1998). When elaboration 
(thinking) is high, message recipients are likely to generate many 
evaluative thoughts about the information, and these thoughts are 
responsible for influences of the available information on attitudes 
(see Wegener, Downing, Krosnick, & Petty, 1995). In these types of 
situations, argument quality is likely to be an important determinant 
of attitude change. If arguments are compelling, attitudes become more 
favorable, but if arguments are weak, then little attitude change 
occurs. In contrast, if motivation or ability to think is lacking, 
argument quality has little effect on attitudes (e.g., Petty, Cacioppo, 
& Goldman, 1981).
    When thinking carefully about available information, message 
recipients are also likely to actively assess the evaluative 
implications of available information by ``calculating'' the likelihood 
and desirability of presented information. For example, a statement in 
a message might say that a particular political candidate favors higher 
subsidies for producers of ethanol that use cellulosic feedstocks 
(e.g., grasses or trees) than for producers that use corn. When 
thinking carefully about the information, message recipients assess the 
likelihood that the candidate strongly favors the policy and their own 
perceived desirability of the policy (and attitudes are calculated by 
multiplying likelihood perceptions and desirability perceptions; 
Fishbein & Ajzen, 1975). Thus, differences in the quality of arguments 
can be created by changing the likelihood or desirability components of 
the statements (Petty & Wegener, 1991).
    Low-elaboration (non-thoughtful) processes. As noted earlier, 
effortful elaboration (thinking) is less likely when motivation or 
ability to think is lacking (e.g., because the attitude issue is not 
likely to affect the message recipient or the message is encountered 
when the person must also pay attention to competing activities). When 
this occurs, attitudes can still be formed or can change, but by using 
``short cut'' (heuristic) strategies that take less cognitive effort.
    For example, attitudes can be influenced by classical conditioning, 
in which positive or negative stimuli are simply associated with the 
attitude object. In fact, many advertisements use this type of strategy 
by associating pleasant music or scenery with a product, even when the 
music or scenery is utterly irrelevant to the qualities of the product. 
On a related note, people might also use a ``How do I feel about it?'' 
heuristic, in which they mistake feelings created by an unrelated 
activity (such as the weather outside or watching a happy or sad movie) 
as being reactions to the attitude object or issue (see Clore & 
Schnall, 2005).
    Other relatively simple processes include familiarity-based liking 
of objects that one has seen often (even if seen so briefly that one 
cannot report whether one has previously seen the object or not; Kunst-
Wilson & Zajonc, 1980). One reason for this mere exposure effect may be 
that ease in perceiving the object (because it has been seen before) is 
experienced positively (Winkielman & Cacioppo, 2001).
    When heuristics are used to quickly and easily determine what one's 
attitude should be, source characteristics (``I should agree with 
people I like'') that are irrelevant to the primary features of the 
object may, nonetheless, influence people's attitudes (see Petty & 
Wegener, 1998). The impact of these peripheral aspects of the 
communication is likely to be different, however, when thinking a lot 
about available information. In such circumstances (when people are 
paying close attention to the qualities of information about the 
object), the influence of peripheral aspects of the persuasive attempt 
should be minimized (Petty & Cacioppo, 1986b; Petty & Wegener, 1999).
    General ELM principles. Therefore, the ELM framework explains when 
communicators would expect peripheral aspects of a communication to 
influence attitudes (when motivation or ability to think is low) and 
when they should not (when motivation and ability are high). This would 
explain why some relatively peripheral features, like the physical 
attractiveness of the message source, influences attitudes in some 
situations (low motivation or ability), but not in others (high 
motivation and ability; Puckett, Petty, Cacioppo, & Fisher, 1983). In 
contrast, when motivation and ability to think are high, the quality of 
arguments provided in the message should have strong effects on 
recipient thoughts and attitudes. But when motivation or ability is 
lacking, the quality of arguments should have little effect (Petty & 
Cacioppo, 1986b).
    Persuasion is not so simple as to say that any one variable can 
only influence persuasion when people are thinking a lot or a little, 
however. For example, consider a communication given by an expert 
source (e.g., a Princeton Professor of Education advocating a new 
educational policy; Petty et al., 1981). The expertise of the source 
can be used as a relatively simple ``peripheral cue'' when thinking is 
minimal (``I should agree with experts''). However, source expertise 
can also influence attitudes when people are thinking carefully, if the 
right conditions exist. For example, if the available information is 
somewhat ambiguous (open to interpretation), then, as people think 
carefully about the information, it may be interpreted more positively 
if provided by an expert rather than a non-expert (Chaiken & 
Maheswaran, 1994). The idea that the same persuasion variable can 
influence attitudes for different reasons as the level of elaboration 
(thinking) increases from low to high levels is referred to as the 
variable serving ``multiple roles'' in persuasion (see Petty & Wegener, 
1998, 1999).
    Perhaps the key reason that researchers pay close attention to the 
level of thinking by research participants is that the level of 
thinking determines how consequential the resulting attitude will be. 
When attitudes are formed or changed in more thoughtful ways, they last 
longer over time, they better resist future attempts at change, and 
they serve as stronger guides for future thoughts and behaviors (Petty, 
Haugtvedt, & Smith, 1995; Wegener, Petty, Smoak, & Fabrigar, 2004). Of 
course, when seeking to influence the use of energy by consumers or the 
purchase of energy-efficient products, it would be important not only 
to create attitudes favorable toward those behaviors, but to create 
attitudes strong enough to influence those behaviors.
Examples of Attitudes toward Nuclear Power
    Consistent with my basic science orientation, over the years, I and 
my colleagues have used a variety of message topics in studying 
attitude change. In a number of cases, however, we have used messages 
that propose the building of new nuclear power plants. Let me given 
some examples of specific research questions that have guided portions 
of this work.
    Values and information processing. For many years, attitudes 
researchers have associated ``strong'' attitudes (i.e., those that 
resist change and influence behavior) with attitudes that express or 
connect directly to one's cherished values (e.g., Sherif & Cantril, 
1947; Maio & Olson, 2000a). For example, in one early program of 
research, Ostrom and Brock (1969) asked message recipients to consider 
a message in relation to values the recipients viewed as personally 
important or unimportant. After measuring attitudes, Ostrom and Brock 
presented an opposing message attempting to change the newly formed 
attitudes and found that attitudes initially formed while considering 
important values were more resistant to change than attitudes formed 
while considering unimportant values. This result was viewed as 
consistent with ``value expressive'' or ``value linked'' attitudes 
being stronger if the values are important to people.
    However, this ``structural'' view of value effects on attitude 
strength is not the only possibility. As mentioned earlier, from an ELM 
point of view, increases in thinking about the issue can also result in 
strong attitudes (Wegener et al., 2004). Therefore, it seemed plausible 
that thinking about important rather than unimportant values might make 
the issue seem more important or interesting, and this increased 
thinking might be responsible for the creation of stronger attitudes. 
Indeed, in a series of studies, consideration of important values led 
to higher levels of information processing than consideration of 
unimportant values, and this amount of thinking was responsible for the 
strength (resistance to change) of the resulting attitudes (Blankenship 
& Wegener, in press). Measures designed to tap ``value expression'' 
showed that the increases in thinking per se did not create attitudes 
that ``expressed'' the values, as assumed by Ostrom and Brock (1969) 
and Sherif and Cantril (1947).
    One important feature of the values and processing work is that 
consideration of important values increases processing of information 
about topics viewed as utterly irrelevant to message recipients. For 
example, a number of the studies addressed proposed admission of an 
Eastern-European country into the European Union (a topic participants 
viewed as quite irrelevant to them), and one of the studies proposed 
the building of nuclear power plants in Canada (another topic of 
relatively little relevance to our message recipients).
    As described in the ELM sections earlier, topics of low personal 
relevance typically receive little thinking, and attitudes produced (by 
mostly peripheral means) are not very consequential. However, in many 
domains (such as health, where people often view consequences of 
negative health behaviors as unlikely to occur for them), practitioners 
would want people to think about and form consequential attitudes on 
those topics. Asking people to consider important values (or even 
briefly presenting the values prior to message presentation, 
Blankenship, 2006) may be one easy way to get people to think about 
topics they would otherwise ignore (often to their own peril).
    Another applied implication is that persuasive messages about non-
threatening, personally irrelevant topics might be useful in creating 
attitudes that impact perceptions and behavior on more relevant topics. 
For example, people start out as less favorable toward the building of 
a nuclear power plant in their community than they are toward nuclear 
power in general (Rankin, Nealy, & Melber, 1984; Rosa & Dunlap, 1994). 
But messages about nuclear power in general or in distant places (where 
less inherent resistance exists) may be viewed by message recipients as 
irrelevant to them and unworthy of their attention. A technique such as 
consideration of important values might prove helpful. It can use the 
low-relevance topic, where initial resistance to the message is 
relatively low, but because the technique can produce high levels of 
processing, the attitudes produced are then harder to change and more 
likely to guide later decisions and behavior. It may be, therefore, 
that thoughtful persuasion of the benefits of nuclear power in Canada 
could be useful in lessening the public resistance to widespread 
development of nuclear power closer to home.
    Message order effects. The ordering of different messages has also 
been of interest for many years (e.g., Lund, 1925; Hovland & Mandell, 
1957), but results have been mixed. Sometimes the first message 
encountered is more persuasive (a primacy effect, e.g., Lund, 1925), 
and sometimes the second/last message received is more persuasive (a 
recency effect, e.g., Hovland & Mandell, 1957). Summarizing the work to 
date, Hovland (1957) speculated that primacy might be most likely when 
presenting information on an unfamiliar/novel topic. Although research 
on message order flourished in the early 1960s, results continued to be 
mixed, with a number of results inconsistent with Hovland's (1957) 
contentions (see Lana, 1961; Rosnow & Robinson, 1967). As recently as 
1993, a prominent attitudes text (Eagly & Chaiken, 1993) expressed 
pessimism that consistent message order effects would be discovered 
anytime soon.
    However, consistent predictions could be made using the ELM notion 
that higher levels of information processing should lead to stronger 
attitudes that are more resistant to change. In a pair of studies 
reported by Haugtvedt and Wegener (1994), we showed that high levels of 
personal relevance consistently lead to primacy effects (greater impact 
of the first message), and low levels of personal relevance lead to 
recency effects (greater impact of the second/last message). Consistent 
with the ELM theorizing, greater processing of the first message should 
create stronger attitudes prior to receiving the second message. With 
stronger attitudes (when processing of the first message is high rather 
than low), the message recipient is able to resist the second message, 
resulting in primacy. In contrast, when attitudes following the first 
message are weak, the second message is able to exert more persuasive 
impact (for additional discussion, see Haugtvedt & Wegener, 1994).
    These effects were found when the two messages favored and opposed 
the building of nuclear power plants (when high relevance conditions 
suggested that the plants be built in the message recipients' own and 
nearby states, and low relevance conditions suggested that the plants 
be built in distant states). Consistent with the basic science approach 
of generalizing the effects across different types of topics, the same 
effects were also found using a proposal for an educational policy 
(i.e., institution of senior comprehensive exams for graduating 
seniors, Petty & Cacioppo, 1986a).
    Ambivalence and processing. Finally, a recent set of research 
studies has examined the effects of attitude ambivalence on information 
processing. Ambivalence occurs when people realize that there are both 
positive and negative aspects of an attitude object or policy. For 
example, people might believe that nuclear power is good because of the 
lack of greenhouse gas emissions, but is bad because of the radioactive 
waste.
    Research on persuasion has shown that people tend to think 
carefully about information on topics about which they are ambivalent 
(Maio, Bell, & Esses, 1996). One way to understand this effect would be 
to say that people are unsure as to what their attitudes should be when 
they are ambivalent, and they actively process available information in 
an attempt to determine what their attitude should be (see Chaiken, 
Liberman, & Eagly, 1989).
    However, another prominent feature of ambivalence is that it is 
uncomfortable for people to be ambivalent. Because of this, they may be 
motivated to use information processing to reduce the ambivalence. 
Note, however, that not all information should be equally capable of 
reducing ambivalence. Consider a person who is moderately favorable 
toward nuclear power, for example, because s/he sees more positive than 
negative features. This person would be more likely to overcome the 
ambivalence by learning about additional positive features (because the 
larger number of positive features will ``dwarf'' the negative features 
and reduce the feeling of conflict). If the person learns about new 
negative features of nuclear power, this would only increase the 
ambivalence (because there would be more negative perceptions to 
counter the positive, and the feeling of conflict would increase).
    This suggests that effects of attitude ambivalence should not be a 
general increase in information processing (as suggested by past 
research). Instead, ambivalent people should want to process 
information that adds new information supporting their existing 
position (because it could help to decrease the ambivalence). In 
contrast, people experiencing ambivalence should want to avoid 
processing of information that opposes their existing attitude (because 
the information threatens to increase their ambivalence).
    Clark, Wegener, and Fabrigar (under review) reported evidence 
consistent with the proposal in a series of three studies (one 
addressing attitudes toward nuclear power, and two addressing attitudes 
toward the taxing of junk food). When people were relatively ambivalent 
before they received the persuasive message, they processed the message 
to a greater extent when the message was relatively agreeable (i.e., 
focusing on features of the proposal that further supported the message 
recipients' views before they received the message). When the message 
disagreed with the ambivalent person's pre-message assessments, message 
recipients did not think carefully about the information. In addition, 
ambivalent participants perceived the agreeable messages as more likely 
than the disagreeable messages to reduce ambivalence, and these 
perceptions of potential for ambivalence reduction led to the 
processing differences across messages that were relatively agreeable 
or disagreeable.
    However, when participants were relatively unambivalent, they 
showed a very different pattern of message processing. Unambivalent 
people processed messages more when the messages were disagreeable 
rather than agreeable. These results were consistent with past research 
that did not address ambivalence, but likely examined situations where 
ambivalence was relatively low. In that past research, disagreeable 
messages were thought to receive more scrutiny because they threaten 
the person's attitude or self confidence (e.g., Cacioppo & Petty, 1979; 
Edwards & Smith, 1996). Although this may be for people experiencing 
low levels of ambivalence, it appears that motives to reduce 
ambivalence overpower any attitude-threat effects and entirely reverse 
the traditional effects of message position on amount of message 
processing.
    When one reorganizes these studies to examine effects of 
ambivalence on message processing, the Maio et al. (1996) effects are 
limited to the processing of relatively agreeable messages. When the 
person already agrees with the point of view in the message, s/he is 
more likely to process the message when feeling high rather than low 
levels of ambivalence. In contrast, with disagreeable messages, people 
experiencing high levels of ambivalence are less likely to think 
carefully about that message than people experiencing little or no 
ambivalence.
    Therefore, if applied researchers had assumed (as previous research 
had suggested) that ambivalence would generally lead to careful 
thinking (and careful thinking would lead to strong attitudes, as 
discussed in the ELM), these researchers would have been sorely 
mistaken. In fact, if using a disagreeable message (which is the 
typical kind of message when changes in attitudes are sought), the 
ambivalent people are significantly less likely to process information 
carefully (and, therefore, their attitudes would remain weak and 
unlikely to guide future behavior).

Using the Research to Inform Policy

    I am not sure if informing policy is the primary role of research 
on attitudes and attitude change. It is true that the need for policies 
like government subsidies (e.g., to make environmentally friendly forms 
of energy more affordable) might be more necessary when consumers do 
not strongly favor use of those new technologies. It may also be true 
that government policies influence how much public support a new energy 
source receives. For example, it may be that support for use of ethanol 
may stem, in part, from people wanting to support farmers and rural 
communities (which also implies support for subsidies that go to 
support farmers or ethanol producers).
    It seems to me, however, that research on attitudes and attitude 
change may be more useful in helping to support and implement 
government policies pertaining to energy use. For example, it may be 
deemed as useful or even necessary for our country to transition away 
from use of fossil fuels (which are polluting and come largely from 
beyond our borders, producing a security premium for obtaining a steady 
supply of these fuels). But, as noted earlier, an effective transition 
from cheap fossil fuels to more costly (and perhaps less convenient) 
new technologies will take more than technology development alone.
    Public attitudes, values, and norms supporting the transition will 
go a long way toward paving the way for new technologies to take hold 
and become commonplace. For example, our local municipality recently 
implemented a city ordinance restricting smoking in public places. Both 
before and after this policy decision was made, there was a flurry of 
advertising supporting this decision prior to implementation of the 
ordinance. These efforts were clearly not intended to influence the 
members of the City Council, who had already decided how they were 
going to vote. The advertising was there to prepare the public for the 
change and to persuade them that it makes good health sense for 
employees and patrons. If successful, such efforts increase the 
likelihood that the ordinance will receive little opposition in the 
future, and the restrictions will become an accepted norm.
    If Federal, State, or local government views particular energy 
sources or technologies as economically or politically desirable, these 
entities (or policy-makers within them) may want to persuade the public 
that these energy sources or technologies are desirable. Indeed, such 
persuasion may be necessary for the public to accept use of the new 
technologies in their communities. The relevance of these ideas becomes 
apparent when considering that, in many places around the country, our 
energy-producing infrastructure is aging and new power plants will be 
necessary. Yet, the process of building a new plant is often held up, 
in part, by company officials trying (unsuccessfully) to convince local 
residents that the plant will not create negative consequences for 
their community.
    Part of this likely stems from incomplete understanding of the 
principles studied in attitudes and persuasion. For example, utility 
officials presenting information about the environmental impact of 
their proposed plants are not likely to be viewed as credible 
communicators. They have a clear self-interest, and might often be 
viewed as untrustworthy. In many of these instances, a better grasp of 
persuasion principles might suggest use of an independent third-party 
communicator who can provide information without being perceived as 
having ulterior motives. Assuming that strong (persuasive) arguments 
are available (e.g., new power plants can often produce many times the 
power of old plants with far less pollution than the old, smaller 
plants), this information may be processed in a more objective manner 
if presented by a trusted and expert source.
    It is also true that initial concerns may not be the same as long-
term concerns. For example, although people oppose the building of a 
nuclear power plant more when it is proposed to be near rather than far 
away from them, the same is not true for opposition of plants that are 
already built. That is, people are not more negative toward nuclear 
power (or oil development) when they live near to it rather than far 
away (Smith, 2002). Similarly, people who live near a nuclear power 
plant tend to become more favorable toward it over time--a long-term 
adaptation effect (van der Pligt, Eiser, & Spears, 1986, 1987). 
Therefore, for energy sources that promise long-term benefits (and that 
operate in safe, and environmentally friendly ways), it may be that the 
primary public perception obstacles are incurred early in the process--
when obtaining zoning and permits to build the plant.
    Stepping outside my own area of attitudes and persuasion research, 
I should also mention that other work in the SEPAE area of the Purdue 
Energy Center is very explicitly aimed at assessing policy alternatives 
per se. For example, Dr. Tyner's economic analyses specifically address 
the influences of policy alternatives on whether the technology is 
likely to draw private investment or not. Perhaps other panel members 
will also address the links between other social science areas and 
policy.

4.  What basic social psychology research questions relevant to the 
energy challenge remain unanswered? Do social scientists have all of 
the tools they need to answer these questions and adequate resources to 
pursue promising research directions? Are there of yet undeveloped or 
underdeveloped technologies or methodologies that would help advance 
this research?

Unanswered Questions

    In over 80 years of empirical social psychology research, much has 
been learned about how people form and change their attitudes. But for 
virtually every variable in the persuasion setting, and for each 
process that has been identified, there exists additional questions 
that have not yet been examined. Let me provide examples of three types 
of research questions that seem worth pursuing--one dealing with 
specific predictors of attitude strength, a second dealing with weak 
attitudes influencing later information processing in ways that make 
them stronger over time, and a third addressing the specific cognitive 
mechanisms that connect attitudes and other psychological variables to 
behavior. By focusing on attitude strength and behavior, I do not mean 
to imply that we know everything about attitude change. We certainly do 
not. However, because the ultimate goal of most attempts at attitude 
change is to change behavior, a focus on behavior in future research 
seems as likely as any other focus. I want to be clear, however, that I 
write this section with the caveat in mind that every year seems to 
produce new questions that simply were not in the collective 
consciousness of researchers, sometimes even months before.
Necessary and Sufficient Strength-Related Features of Attitudes
    I have mentioned at various points in this testimony that the goal 
of persuasion is not simply to produce positive attitudes toward one's 
desired product or policy. The goal is to produce a favorable attitude 
that is also strong enough to last over time, to resist future attempts 
at change, and to guide future thinking and behavior (Petty & Krosnick, 
1995). This basic idea has been in the literature for some time, but 
which properties of the attitude are sufficient or necessary for the 
attitude to produce these desired consequences? Many properties have 
been studied (e.g., accessibility, ambivalence, certainty, direct 
experience, knowledge, elaboration; Wegener et al., 1995). However, 
these properties of attitudes have often been studied in isolation, so 
the relative contribution of each attitudinal property remains unclear. 
Also, many of the attitudinal properties are only weakly or moderately 
correlated with each other, so there is not a single unified 
``strength'' property of attitudes (Krosnick, Boninger, Chuang, Berent, 
& Carnot, 1993).
    This leaves open the real possibility that the contribution of 
different strength-related attitudinal properties might differ across 
the types of attitude consequences of interest. For example, consider a 
context in which the attitude object is relatively novel (as many new 
energy technologies would be) and the primary question is whether one's 
attitude will persist long enough to guide future behavior. In this 
situation, it may be that relatively ``passive'' attitude properties 
such as accessibility in memory or certainty might be especially 
important (it turns out that accessibility and certainty are 
empirically linked, in that both can be increased by simple repeated 
expression of one's attitude; Holland, Verplanken, & van Knippenberg, 
2003).
    On the other hand, when the attitude is controversial and the 
person is likely to encounter many diverging opinions, the ability of 
the attitude to resist change may be the key. In such settings, the 
most important strength-related properties of attitudes may be more 
``active'' qualities that give the person greater ability to counter-
argue ``attacking'' messages. If so, then attitudes based on large 
amounts of knowledge or on high levels of elaboration might be the 
attitudes best able to hold fast in the face of the diverging opinions. 
These questions have simply not been addressed in existing attitude 
strength research.
Initially Weak Attitudes Becoming Stronger Over Time
    Another interesting set of research questions may address the 
possible impact of initially weak attitudes. In existing attitude 
strength research, the weak attitudes are simply treated as relatively 
non-consequential (i.e., unlikely to last over time, influence 
behaviors, etc.). However, there may be at least some ``weak'' 
qualities of attitudes that create the potential for the attitudes to 
``snowball'' into becoming strong. For example, as described earlier, 
recent research in our lab shows that ambivalence and message position 
combine to influence information processing (Clark et al., under 
review). That is, ambivalent people think carefully about information 
that agrees with their pre-message attitudes but avoid thinking about 
information that disagrees with their pre-message attitudes.
    In our initial studies, participants were given the persuasive 
message rather than choosing to view it on their own. However, these 
results from our initial research would also have direct implications 
for what ambivalent and unambivalent people would choose to receive if 
given the choice. A result parallel to our information processing 
studies would be for people experiencing ambivalence to be more likely 
to expose themselves to agreeable rather than disagreeable information. 
People experiencing little ambivalence may be more balanced in their 
choices or might even expose themselves to more disagreeable rather 
than agreeable information.
    But notice what the effects of this exposure are likely to be. When 
ambivalent people expose themselves to agreeable information, this 
should make them less ambivalent and should, therefore, make their 
attitude stronger. In contrast, exposure to balanced or more 
disagreeable information would make people's attitudes more ambivalent 
and, therefore, weaker. One interesting aspect of this possible pattern 
of results is that exposure to attitude-consistent information is one 
of the results that has been discussed in past research as indicative 
of attitude strength (i.e., as ``impact on thoughts and behavior''). 
Because of this, past researchers have expected (and some have recently 
found; Brannon, Tagler, & Eagly, 2007) that people with stronger 
attitudes are more likely to seek attitude-consistent rather than 
attitude-inconsistent attitudes. These effects are rather small in 
magnitude, however, and we suspect (but have not yet tested) that this 
overall pattern masks the effects of some specific types of weak 
attitudes (especially those that are ambivalent).
    More generally, it would change the attitude strength literature in 
important ways if specific forms of ``weak'' attitudes actually create 
stronger preferences for attitude-consistent information or create 
stronger influences on other types of thinking and behavior.
More Specific Mechanisms to Connect Attitudes and Behavior
    In many respects, the study of attitude change is predicated on the 
ability of attitudes to influence future behavior. Indeed, much 
research over the years has studied when attitudes predict future 
behavior and when they do not (and other psychological constructs, such 
as norms, influence behavior instead; see Ajzen & Fishbein, 2005). This 
emphasis seems justified, both for the study of attitudes in general, 
and for studies of attitudes in relation to energy.
    There are a number of respects in which we can increase our 
understanding of exactly how attitudes or other psychological 
constructs influence behaviors, however. For instance, much research on 
attitude-behavior consistency speaks of ``prediction'' of behavior, but 
there is an important distinction to be made between prediction of 
behavior and influence on behavior (Fabrigar, MacDonald, & Wegener, 
2005). For example, consider a person who forms a positive attitude 
toward hybrid automobiles after riding in a friend's hybrid automobile. 
Suppose that this person goes to buy a new car a few months later, but 
the person does not buy a hybrid car.
    This could happen for many reasons, but consider two distinct 
explanations for this lack of attitude-behavior consistency that have 
not been systematically differentiated in the attitudes literature to 
date. One possibility is that the person's positive attitude toward 
hybrid cars persisted unchanged right up until the purchase decision, 
but the attitude did not prove strong enough to guide the behavior when 
the purchase was made. However, there is another possibility--one that 
produces the same lack of attitude-behavior consistency (at least when 
using the initial positive attitude to predict the later behavior). 
That is, the person may use his or her current attitude when deciding 
to purchase a new automobile, but the attitude may have changed in the 
months since the original positive attitude was formed. This latter 
situation is not really a case of attitude-behavior inconsistency at 
all, but the change in attitude means that the earlier positive 
attitude did not carry through to guide the purchase behavior.
    In fact, the social psychology program at Purdue University will be 
holding a conference during May of 2008 with the explicit theme of 
motivating work to develop more complete theory connecting 
psychological antecedents with behavior.
We Cannot Forget about Applied Energy Research
    The question posed to me by the Committee was framed in terms of 
basic social psychology research, and I am entirely comfortable with 
that, because I am first and foremost a basic scientist. I should also 
note, however, that technology-focused researchers do not always 
appreciate the fact that we are working to identify generalizable 
persuasion principles that operate across topic domains. Quite 
naturally, practitioners focusing on a particular topic will view our 
research as more relevant and informative to them if it deals 
specifically with their domain of interest (be it a specific form of 
energy, a particular health condition, or some other specific topic).
    Because of this, there may be benefits of applied research that 
addresses psychological processes that have been identified in 
unrelated domains but would have clear relevance to influencing 
attitudes related to energy. At a minimum, if it is important to direct 
attention in the energy domain toward the psychological principles we 
discover, it may be helpful to fund some portion of the basic research 
(e.g., that funded through NSF) in ways that explicitly incorporate 
energy-related topics. Doing so would ensure that energy researchers 
and practitioners identify the persuasion (and other social psychology) 
principles discovered as relevant to the energy domain.
    Even in areas where the basic research has not used energy-related 
topics, telephone surveys and other tools for attitude measurement can 
be used to determine the current attitudes, beliefs, and knowledge that 
people hold about energy topics. When the characteristics of current 
attitudes are documented, for example, this would tell energy 
researchers which basic persuasion principles are relevant to attitudes 
in that energy domain. For example, if surveys show high levels of 
ambivalence for people's attitudes toward clean coal technologies, this 
would suggest that the research on attitude ambivalence described 
earlier (e.g., Clark et al., under review) is quite relevant.

Tools and Resources

    One of the benefits of social science research in general, and 
social psychological research in particular, is that it is very 
efficient from a cost standpoint. With some sub-disciplines excepted 
(such as social, affective, or cognitive neuroscience, which use 
Functional Magnetic Resonance Imaging, fMRI, techniques), most research 
laboratories can be constructed with $100,000 or less. Once a lab is 
established, the primary costs are those of personnel (i.e., faculty 
time, graduate students, post-doctoral fellows, research assistants) 
and research participants (especially if recruiting research 
participants from the surrounding community).
    Because of this efficiency, it seems likely that one might often 
gain more ``bang for the buck'' from research on behavior change than 
on higher-cost funding of new (as yet untried, and often economically 
unfeasible) energy-production technologies. This is not an argument to 
reduce funding to develop new technologies. But the research on basic 
persuasion principles will be relevant across many such technologies, 
and the transition away from fossil fuels will absolutely require 
changes in behavior that involve energy conservation (using current 
technologies) as well as adoption of new energy sources, policies, and 
products. More generally, this transition will require policies to 
encourage investment, persuasion of potential consumers, changing norms 
to encourage adoption, and other social, economic, or governmental 
interventions to facilitate shifts in energy use.
    Unfortunately, despite the relative efficiency of social science 
research, there is much less federal funding available to fund this 
research (at least within social psychology) than there used to be. As 
I described earlier, this is largely a function of the shift in funding 
priorities for the National Institute of Mental Health. This shift may 
have made sense for that institute if its primary mission is, indeed, 
severe mental illness. However, this shift in priorities has left a 
sizable gap in funding for basic science whose results and theory cut 
across many basic and applied disciplines. It is extremely important to 
find a new home for federal funding of basic research in social 
psychology in general and of research in attitude change in particular.

New Technologies or Methods

    Most social psychological research uses existing computer 
technology in creative and useful ways. Therefore, many of the new 
research methods come from the creativity of researchers, rather than 
the development of new research technology per se. This is not true of 
all social psychology research, however. As I mentioned earlier, my 
colleagues in social, cognitive, or affective neuroscience use a 
variety of techniques that I do not (including fMRI and other versions 
of brain imaging or scanning).
    There are also a variety of new ``implicit'' measures of attitudes 
that have been developed recently to tap into attitudes and perceptions 
that people are reluctant to share or of which people might not even be 
aware. These typically use existing computer technology, but they 
represent some very interesting methods that are just beginning to pay 
big theoretical dividends. For example, implicit measures of attitudes 
have been shown to improve prediction of behavior in some contexts and 
for some behaviors, even when traditional direct measures of attitudes 
are also used (see Ajzen & Fishbein, 2005; Fazio & Olson, 2003). There 
are many unexplored questions using these techniques.
    The long-term impact of these methods for theories of attitudes and 
attitude change are still unclear. It is also important to note, 
however, that there is still much to learn using more ``conventional'' 
methods to ask people about their attitudes and thereby examine how 
factors in a persuasive message or in the environment influence the 
attitude.
    Finally, it is also important to note that social psychologists' 
focus on cognitive and motivational processes requires sophisticated 
statistical techniques and research methods (see Reis & Judd, 2000; 
Sansone, Morf, & Panter, 2004). These developments help to build 
stronger evidence in tests of psychological theories, and parallel 
analyses then receive use in related academic and applied disciplines 
(for a recent example advance in this area, see Muller, Judd, & 
Yzerbyt, 2005).

References

Ajzen, I., & Fishbein, M. (1970). The prediction of behavior from 
        attitudinal and normative variables. Journal of Experimental 
        Social Psychology, 6, 466-487.

Ajzen, I., & Fishbein, M. (2005). The influence of attitudes on 
        behavior. In D. Albarracin, B.T. Johnson, & M.P. Zanna (Eds.), 
        The handbook of attitudes (pp. 173-221). Mahwah, NJ: Erlbaum.

Allport, G.W. (1935). Attitudes. In C. Murchison (Ed.), Handbook of 
        social psychology (pp. 798-884). Worcester, MA: Clark 
        University Press.

Blankenship, K.L. (2006). Opening the mind before it closes: 
        Considering a message in light of important values increases 
        message processing and later resistance to change. Unpublished 
        doctoral dissertation, Purdue University, West Lafayette, IN.

Blankenship, K.L., & Wegener, D.T. (in press). Opening the mind to 
        close it: Considering a message in light of important values 
        increases message processing and later resistance to change. 
        Journal of Personality and Social Psychology.

Brannon, L.A., Tagler, M.J., & Eagly, A.H. (2007). The moderating role 
        of attitude strength in selective exposure to information. 
        Journal of Experimental Social Psychology, 43, 611-617.

Chaiken, S., & Maheswaran, D. (1994). Heuristic processing can bias 
        systematic processing: Effects of source credibility, argument 
        ambiguity, and task importance on attitude judgment. Journal of 
        Personality and Social Psychology, 66, 460-473.

Clark, J.K., Wegener, D.T., & Fabrigar, L.R. (under review). 
        Attitudinal ambivalence and message-based persuasion: Motivated 
        processing of proattitudinal information and avoidance of 
        counterattitudinal information. Unpublished manuscript, Indiana 
        University, Bloomington, IN.

Clore G.L., & Schnall, S. (2005). The influence of affect on attitude. 
        In D. Albarracin, B. Johnson, & M. Zanna (Eds.), The handbook 
        of attitudes (pp. 437-492). Mahwah, NJ: Erlbaum.

Eagly, A.H., & Chaiken, S. (1993). The psychology of attitudes. Forth 
        Worth, TX: Harcourt, Brace, Jovanovich.

Fabrigar, L.R., MacDonald, T., & Wegener, D.T. (2005). The structure of 
        attitudes. In D. Albarracin, B. Johnson, & M. Zanna (Eds.), The 
        handbook of attitudes (pp. 79-124). Mahwah, NJ: Erlbaum.

Fazio, R.H., & Olson, M.A. (2003). Implicit measures in social 
        cognition research: Their meaning and use. Annual Review of 
        Psychology, 54, 297-327.

Fishbein, M., & Ajzen, I. (1975). Belief, attitude, intention, and 
        behavior: An introduction to theory and research. Reading, MA: 
        Addison-Wesley.

Goy, P.A., & Duesing, J.H. (1996). Assessing the environmental impact 
        of gene transfer to wild relatives. Bio/Technology, 14, 39-40.

Haugtvedt, C.P., & Wegener, D.T. (1994). Message order effects in 
        persuasion: An attitude strength perspective. Journal of 
        Consumer Research, 21, 205-218.

Holland, R.W., Verplanken, B., & van Knippenberg, A. (2003). From 
        repetition to conviction: Attitude accessibility as a 
        determinant of attitude certainty. Journal of Experimental 
        Social Psychology, 39, p. 594-601.

Homer, P.M., & Kahle, L.R. (1988). A structural equation test of the 
        value-attitude-behavior hierarchy. Journal of Personality and 
        Social Psychology, 54, 638-646.

Hovland, C.I. (1957) (Ed.). The order of presentation in persuasion. 
        New Haven, CT: Yale University Press.

Hovland, C.I., & Mandell, W. (1957). Is there a `law of primacy' in 
        persuasion? In C.I. Hovland (Ed.), The order of presentation in 
        persuasion (pp. 1-22). New Haven, CT: Yale University Press.

Krosnick, J.A., Boninger, D.S., Chuang, Y.C., Berent, M.K., & Carnot, 
        C.G. (1993). Attitude strength: One construct or many related 
        constructs? Journal of Personality and Social Psychology, 65, 
        1132-1151.

Kunst-Wilson, W.R., & Zajonc, R.B. (1980). Affective discrimination of 
        stimuli that cannot be recognized. Science, 207, 557-558.

Lana, R.E. (1961). Familiarity and the order of presentation of 
        persuasive communications. Journal of Abnormal and Social 
        Psychology, 62, 573-577.

Lund, F.H. (1925). The psychology of belief: IV. The law of primacy in 
        persuasion. Journal of Abnormal and Social Psychology, 20, 183-
        191.

Maio, G.R., Bell, D.W., & Esses, V.M. (1996). Ambivalence and 
        persuasion: The processing of messages about immigrant groups. 
        Journal of Experimental Social Psychology, 32, 513-536.

Maio, G.R., & Olson, J.M. (2000a). What is a ``value-expressive'' 
        attitude? In G.R. Maio & J.M. Olson (Eds.), Why we evaluate: 
        Functions of attitudes (pp. 249-270). Mahwah, NJ: Lawrence 
        Erlbaum Inc.

Maio, G.R., & Olson, J.M. (2000b) (Eds). Why we evaluate: Functions of 
        attitudes. Mahwah, NJ: Lawrence Erlbaum Inc.

Meilan, R. (2004). Molecular Biology of Forest Trees. Pages 229-236 in: 
        Encyclopedia of Forest Sciences. Academic Press, Oxford, U.K.

Muller, D., Judd, C.M., & Yzerbyt, V.Y. (2005). When moderation is 
        mediated and mediation is moderated. Journal of Personality and 
        Social Psychology, 89, 852-863.

Ostrom, T.M., & Brock, T.C. (1969). Cognitive bonding to central values 
        and resistance to a communication advocating change in policy 
        orientation. Journal of Experimental Research in Personality, 
        4, 42-50.

Petty, R.E., & Cacioppo, J.T. (1981/1996). Attitudes and persuasion: 
        Classic and contemporary approaches. Boulder, CO: Westview 
        Press.

Petty, R.E., & Cacioppo, J.T. (1986a). Communication and persuasion: 
        Central and peripheral routes to persuasion. New York: 
        Springer-Verlag.

Petty, R.E., & Cacioppo, J.T. (1986b). The Elaboration Likelihood Model 
        of persuasion. In L. Berkowitz (Ed.), Advances in experimental 
        social psychology (Vol. 19, pp. 123-205). New York: Academic 
        Press.

Petty, R.E., Cacioppo, J.T., & Goldman, R. (1981). Personal involvement 
        as a determinant of argument-based persuasion. Journal of 
        Personality and Social Psychology, 41, 847-855.

Petty, R.E., Haugtvedt, C.P., & Smith, S.M. (1995). Elaboration as a 
        determinant of attitude strength. In R.E. Petty & J.A. Krosnick 
        (Eds.), Attitude strength: Antecedents and consequences (pp. 
        93-130). Mahwah, NJ: Lawrence Erlbaum Associates, Inc.

Petty, R.E., & Krosnick J.A. (1995). Attitude strength: Antecedents and 
        consequences. Mahwah, NJ: Erlbaum.

Petty, R.E. & Wegener, D.T. (1991). Thought systems, argument quality, 
        and persuasion. In R.S. Wyer & T.K. Srull (Eds.) Advances in 
        social cognition (Vol. IV, pp. 147-162). Hillsdale, NJ: 
        Erlbaum.

Petty, R.E., & Wegener, D.T. (1998). Attitude change: Multiple roles 
        for persuasion variables. In D. Gilbert, S. Fiske, & G. Lindzey 
        (Eds.), The handbook of social psychology (4th ed., pp. 323-
        390). New York: McGraw-Hill.

Petty, R.E., & Wegener, D.T. (1999). The Elaboration Likelihood Model: 
        Current status and controversies. In S. Chaiken & Y. Trope 
        (Eds.), Dual process theories in social psychology (pp. 41-72). 
        New York: Guilford Press.

Pratkanis, A.R., Breckler, S.J., & Greenwald, A.G. (Eds.) (1989). 
        Attitude structure and function. Hillsdale, NJ: Erlbaum.

Puckett, J.M., Petty, R.E., Cacioppo, J.T., & Fisher, D.L. (1983). The 
        relative impact of age and attractiveness stereotypes on 
        persuasion. Journal of Gerontology, 38, 340-343.

Rankin, W.L., Nealy, S., & Melber, B. (1984). Overview of national 
        attitudes toward nuclear energy: A longitudinal analysis. In W. 
        Freudenburg & E. Rosa (Eds.), Public reaction to nuclear power 
        (pp. 41-67). Boulder, CO: Westview.

Reis, H.T., & Judd, C.M. (2000) (Eds.). Handbook of Research Methods in 
        Social and Personality Psychology. Cambridge, UK: Cambridge 
        Press.

Rosa, E., & Dunlap, R. (1994). Nuclear power: Three decades of public 
        opinion. Public Opinion Quarterly, 58, 295-325.

Rosnow, R., & Robinson, E. (1967). Experiments in persuasion. New York: 
        Academic Press.

Sansone, C., Morf, C.C., & Panter, A.T., (2004) (Eds.). The SAGE 
        handbook of methods in social psychology. Thousand Oaks: Sage.

Sherif, M., & Cantril, H. (1947). The psychology of ego-involvements: 
        Social attitudes and identifications. New York, Wiley.

Smith, E. (2002). Energy, the environment, and public opinion. Lanham, 
        MD: Rowman & Littlefield.

Van der Pligt, J., Eiser, R., & Spears, R. (1986). Attitudes toward 
        nuclear energy: Familiarity and salience. Environment and 
        Behavior, 18, 75-93.

Van der Pligt, J., Eiser, R., & Spears, R. (1987). Nuclear waste: 
        Facts, fears, and attitudes. Journal of Applied Social 
        Psychology, 17, 453-470.

Wegener, D.T., & Carlston, D.E. (2005). Cognitive processes in attitude 
        formation and change. In D. Albarracin, B. Johnson, & M. Zanna 
        (Eds.), The handbook of attitudes (pp. 493-542). Mahwah, NJ: 
        Erlbaum.

Wegener, D.T., Downing, J., Krosnick, J.A., & Petty, R.E. (1995). 
        Strength-related properties of attitudes: Measures, 
        manipulations, and future directions. In R.E. Petty and J.A. 
        Krosnick (Eds.), Attitude strength: Antecedents and 
        consequences (pp. 455-487). Mahwah, NJ: Erlbaum.

Wegener, D.T., Petty, R.E., Smoak, N.D., & Fabrigar, L.R. (2004). 
        Multiple routes to resisting attitude change. In E.S. Knowles & 
        J.A. Linn (Eds.), Resistance and persuasion (pp. 13-38). 
        Mahwah, NJ: Erlbaum.

Winkielman, P., & Cacioppo, J.T. (2001). Mind at ease puts a smile on 
        the face: Psychophysiological evidence that processing 
        facilitation elicits positive affect. Journal of Personality 
        and Social Psychology, 81, 989-1000.

                     Biography for Duane T. Wegener
    Dr. Wegener received his Ph.D. in Social Psychology from Ohio State 
University in 1994. After serving as an Assistant Professor of 
Psychology at Yale University for three years, he joined Purdue 
University in 1997 as an Associate Professor and was promoted to 
Professor in 2003. Dr. Wegener serves as one of three Initiative 
Leaders for the Social, Economic, and Political Aspects of Energy Use 
and Policy, a research initiative within the Energy Center at Discovery 
Park--an interdisciplinary research hub at Purdue University.
    Dr. Wegener's research focuses on attitudes and persuasion, 
especially influences on the amount and nature of information 
processing and the consequences of the resulting attitudes for later 
thinking and behavior. Dr. Wegener has been PI or Co-PI on grants in 
social psychology (National Science Foundation), health (focusing on 
processing of health communications; Canadian Institute for Health 
Research), and energy (focusing on energy-related attitudes and 
decision-making; National Science Foundation--Human Social Dynamics 
Program).
    In 2001, he received the American Psychological Association (APA) 
Early Career Award for distinguished contributions to the science of 
social psychology. Dr. Wegener's research has resulted in over 50 
publications in journal articles and book chapters. He is currently a 
Section Co-Editor for the Social and Personality Psychology Compass, 
and he served as Associate Editor for Basic and Applied Social 
Psychology and the Personality and Social Psychology Bulletin. He has 
also served as an editorial board member for the Journal of Personality 
and Social Psychology, the Journal of Experimental Social Psychology, 
and Personality and Social Psychology Bulletin, and as an ad hoc 
reviewer for over 30 academic journals.

    Chairman Baird. Thank you, Dr. Wegener.
    Dr. Laitner.

  STATEMENT OF MR. JOHN ``SKIP'' LAITNER, VISITING FELLOW AND 
  SENIOR ECONOMIST, AMERICAN COUNCIL FOR AN ENERGY EFFICIENT 
                            ECONOMY

    Mr. Laitner. Good morning, Chairman Baird, Ranking Member 
Ehlers, Members and staff of the Subcommittee. I recently 
joined the American Council for an Energy Efficient Economy as 
their Senior Economist for Technology Policy. However, I am now 
celebrating 37 years in the energy policy arena, and in those 
nearly 4 decades of effort, there have certainly been some 
disappointments along the way. At the same time, however, I 
have never been more confident in telling this subcommittee 
that the United States has never been better positioned to move 
onto a path of sustainable energy production and consumption, 
one that promotes both productivity and economic prosperity if 
we choose to do it. But it is not really just about technology 
or economics, rather it is about the human element, the 
innovative spirit, and with apologies to my colleagues from the 
south, about our vaunted Yankee ingenuity. In that sense, a 
productive and prosperous energy policy equally depends on a 
better understanding of the human dimension. What is it that 
might be done to motivate that ingenuity and what might be done 
to translate it into productive action.
    Let me give you a very concrete example. Some years ago a 
colleague of mine had a really good idea for a new technology 
but in fact it wasn't really a new technology, it was seeing a 
different blend of technologies, a new design, a rearrangement 
of existing ones, a new configuration that if implemented would 
save manufacturers a good bit of money. Suffice it to say that 
if my estimates are correct, by 2025, the annual savings from 
this new energy efficient technology would rival the 
anticipated output from the Alaska National Wildlife Refuge. It 
is potentially very big.
    So here is where the social science comes in. First, what 
is it that really motivated him to develop a prototype of this 
technology? Second, what gave him the inspiration to see a new 
way of doing things? Third, critically, why can't he get it to 
the market? He seems to hold onto it, always wanted to make 
just one more refinement. He doesn't seem to know how to really 
close the deal, and given the Chairman's background, I think he 
might have some interesting insights into that kind of 
behavior. But fourth, how many more are out there just like 
him? I suspect a lot. And how many more could there be if we 
encouraged a greater entrepreneurial enthusiasm? Again, I 
suspect a lot. Fifth and finally, what can we do to motivate a 
greater level of innovating seeing entrepreneurial action? This 
is all from the production side. There are similar questions 
from the perspective of the consumer. What is it that 
encourages early and then accelerated adoption of new 
technologies? We have heard a bit of that already. What does 
this tell us about the energy policy signal beyond the price 
signal?
    Mr. Chairman, I submit the energy problem is not purely a 
technology problem. While there is already a good bit of 
science involved to be sure and there is clearly a need for 
more research and disciplines like material science and 
advanced electronics, more generally in biology, chemistry, and 
physics, fundamentally I believe it is equally a problem with 
the human dimension. Yes, we are seriously under-funding our 
R&D efforts and especially for energy efficiency but it is even 
worse for the social sciences.
    Members of the Subcommittee may be interested in at least 
one set of energy-related statistics to help frame these last 
thoughts. Based on the 2007 edition of British Petroleum's 
Energy Statistical Review, it appears the U.S. enjoys what is 
referred to as proven fossil fuel reserves of around 130 
billions of oil equivalent. That is good. At our current rate 
of consumption, that is roughly a 52-year resource. The bad 
news is about 90 percent of that resource is coal. But the good 
news is in the spirit of Leonardo daVinci's motto, sapere 
vedere, Tuscan dog Latin meaning to know how to see, we may 
also see something more on the order of 900 billion tons of 
energy-efficiency reserves over the next century. As it turns 
out, we may use about two-thirds of this large efficiency 
resource in our normal pattern of growth. However, that would 
still mean an energy consumption of about three and one-half 
times greater than we are using today by the end of the 
century. That is huge. Depending on how much of that energy 
comes from renewables or other clean energy resources, that may 
not be good enough. So the question then becomes, how do we 
unlock that remaining one-third of the efficiency resource so 
that we might keep our total energy use to say less than 50 
percent growth compared to today's use of energy and still 
maintain a robust economy? How exactly do we get at it? At a 
minimum, the answer is at least one part accelerated R&D and 
one part new insights from the social sciences, an expanded 
investment in our understanding of the human dimension.
    In answering this question at least in part, let me finally 
turn to an analogy drawn from baseball. Pitcher Nolan Ryan was 
something of a hero of mine. He won I think 324 games over his 
career which included a stint with President Bush's own former 
team, the Texas Rangers. But how many games would Nolan Ryan, 
the so-called Ryan Express, how many would he have won had he 
taken the field without his catcher or without his infield? In 
a very similar way, if we are to design and implement an energy 
policy that sustains our economy in a highly prosperous way, we 
should be funding and fielding a complete team effort. Yes, we 
need improved energy efficiency standards and smarter 
incentives. Yes, we need more research and development, but 
yes, we also need to support more research and more funding for 
that research in the field of social sciences.
    I thank you for this opportunity to speak. I would be happy 
to take questions.
    [The prepared statement of Mr. Laitner follows:]
             Prepared Statement of John A. ``Skip'' Laitner

Summary

    This testimony responds to an invitation from the Subcommittee on 
Research and Science Education to help members explore the relevance of 
the social, behavioral and economic sciences in shaping a more 
productive pattern of energy use and a more balanced set of energy 
policies. Any useful policy assessment clearly must include some form 
of economic analysis. Prices and incomes do matter in the evaluation of 
public policy, but they are not all that matter. Technological 
innovation and market dynamics are among those things that influence 
our demand for energy-related goods and services. Social norms and 
structures also play a role. These all, in turn, are shaped by culture, 
beliefs, values, preferences, habits, and the availability of 
alternatives.
    For the most part, current economic policy models fail to 
adequately capture the ways in which individual energy consumption 
patterns change in response to both economic and noneconomic policies 
and programs. Therefore, policies based on these models have 
consistently overlooked the energy savings that can be achieved through 
the accelerated adoption of energy-efficient technologies, changing 
social preferences, and more energy-aware behaviors. As such, these 
models have tended to underestimate the energy savings that can be 
achieved while generally overestimating the costs of achieving 
increased levels of energy efficiency. The inaccuracy of these models 
has large and important implications for both energy policy and climate 
change mitigation policy. There is good news in all of this but, as we 
shall see, there is work ahead.
    Given this circumstance, and based on the available evidence, the 
American Council for an Energy-Efficient Economy (ACEEE) believes three 
distinct recommendations are in order. First, and after further review, 
the Subcommittee should issue a set of findings that confirms our 
testimony. We think it will send a positive signal to the economics and 
social science communities that there is clear room for improvement. 
Second, support the development and funding of a National Energy 
Efficiency Data Center (NEEDC), which would be a national nonprofit 
organization whose purpose will be to collect, organize, disseminate 
and archive energy efficiency and social science statistics, 
particularly those related to public policies and programs. Finally, 
more research and greater research funding will provide the means to 
expand our knowledge and understanding of how human behavior and choice 
can increase energy efficiency, reduce our energy dependency, and 
reduce our impact on the global climate while still maintaining a 
robust economy.

Introduction

    My name is John A. ``Skip'' Laitner and I am the Senior Economist 
for Technology Policy for the American Council for an Energy-Efficient 
Economy (ACEEE), a nonprofit organization dedicated to increasing 
energy efficiency as a means of promoting both economic prosperity and 
environmental protection. I am here today at the invitation of this 
subcommittee to explore the relevance of the social, behavioral and 
economic sciences to energy use and policy. I thank you for the 
opportunity to testify today. Working with me in the preparation of 
this testimony and also here today is my ACEEE colleague, Karen 
Ehrhardt-Martinez. She holds a professional degree in sociology and 
works with me on a variety of economic and technology issues.
    Any useful policy assessment must include some form of economic 
analysis. Prices and incomes do matter in the evaluation of public 
policy, but they are not all that matter. Indeed, the great English 
economist Joan Robinson wrote in 1947 that ``economics science has not 
solved its first problem--namely what determines the price of a 
commodity?'' \1\ That remains true today, now 60 years later. But I 
might add, neither has economics determined exactly what magnitude of 
income is sufficient to satisfy either individual or household demands.
---------------------------------------------------------------------------
    \1\ Robinson, Joan. 1947. An Essay on Marxian Economics. London, 
England: MacMillan, page 79.
---------------------------------------------------------------------------
    Among those things that influence our demand for goods, services, 
and amenities, and that also impact things like technological 
innovation, market dynamics, and personal choice are social norms and 
structures. These, in turn, are shaped by culture, beliefs, values, 
habits, alternatives, and basic human and social needs. In short, there 
is compelling evidence that an accurate economic analysis (of either 
energy use or the environmental impacts associated with the production 
and consumption of energy) requires a broader understanding of human 
behavior and choices. It also requires an understanding of the ways in 
which they are shaped by the institutional and social frameworks of our 
society. Recent studies of climate change policy have also stressed the 
importance of human choice and human behavior for the development of 
effective policies that reduce emissions and mitigate climate 
change.\2\ However, current economic models fail to adequately capture 
the ways in which individual energy consumption changes in response to 
economic and noneconomic policies and programs.\3\ Therefore, policies 
based on these models have consistently overlooked the energy savings 
that can be achieved through changing social preferences and the 
accelerated adoption of energy-efficient technologies and more energy-
aware behaviors. As such, these models have tended to underestimate the 
energy savings that can be achieved while generally overestimating the 
costs of achieving increased levels of energy efficiency. The 
inaccuracy of these models has large and important implications for 
both energy policy and climate change mitigation policy. In my 
testimony here today, I will expand on these notions a bit more as I 
try to answer three questions that this subcommittee has posed for me:
---------------------------------------------------------------------------
    \2\ Brewer, Garry D. and Paul C. Stern, Eds. 2005. Decision-Making 
for the Environment: Social and Behavior Science Research Priorities. 
Committee on the Human Dimensions of Global Change, National Research 
Council, Washington, DC: National Academies Press; and also see, Stern, 
Paul C., Oran R. Young; and Daniel Druckman, Eds. 1991. Global 
Environmental Change: Understanding the Human Dimensions. Committee on 
the Human Dimensions of Global Change, National Research Council, 
Washington, DC: National Academies Press.
    \3\ Laitner, John A. ``Skip'', Stephen J. DeCanio, and Irene 
Peters. 2000. ``Incorporating Behavioral, Social, and Organizational 
Phenomena in the Assessment of Climate Change Mitigation Options.'' in 
E. Jochem, J. Sathaye and D. Bouille, Society, Behavior, and Climate 
Change Mitigation. Dordrecht, The Netherlands: Kluwer Academic Press, 
pages 1-64. See also Laitner, John A. ``Skip'', Stephen J. DeCanio, 
Jonathan G. Koomey, and Alan H. Sanstad, ``Room for Improvement: 
Increasing the Value of Energy Modeling for Policy Analysis.'' 
Utilities Policy, 2003, 11, 87-94. Finally, see also, Worrell, Ernst, 
Stephan Ramesohl, and Gale Boyd. 2003. ``Towards Increased Policy 
Relevance in Energy Modeling,'' ACEEE 2003 Summer Study on Energy 
Efficiency in Industry. Washington, DC: American Council for an Energy-
Efficient Economy.

        1.  How predictive is a purely economic approach to evaluating 
        the impact of energy policy on individual and communal 
        behavior? What other factors need to be considered to match 
        economic theory to empirical data? To what extent are such data 
        even available? That is, to what extent are relevant energy 
---------------------------------------------------------------------------
        policies being evaluated for effectiveness?

        2.  To what extent are policies to influence individual and 
        community energy use being shaped by what has been learned from 
        research in the social sciences, including economics? Are you 
        aware of particular sectors of industry or government that make 
        more of an effort to incorporate the results of such research 
        into the design and evaluation of policy?

        3.  Please describe the purpose and scope of the first-ever 
        Behavior, Energy and Climate Change Conference being organized 
        by ACEEE. What do you hope to achieve through this conference? 
        How much interest have you seen from industry, government 
        officials, and others in a position to influence policy?

    In responding as fully as I can to each of questions, let me divide 
up my testimony into five parts. The first section following this 
introduction provides an energy and economic context that I hope will 
be helpful in responding to the Subcommittee's request. The next three 
sections will deal specifically with each of the questions posed. The 
last section will provide recommendations and conclusions.

Energy Consumption in Context

    As one of the richest and more technologically advanced regions of 
the world, the United States has expanded its economic output by three-
fold since 1970. Per capita incomes are also twice as large today 
compared to incomes in 1970. Notably, however, the demand for energy 
and power resources grew by less than 50 percent during the same 
period.\4\ This decoupling of economic growth and energy consumption is 
a function of increased energy productivity: in effect, the ability to 
do more with less consumption. In today's testimony I would like to 
accomplish three specific tasks as I try to answer your questions. 
First, I would like to note how this decoupling has been achieved; 
second, reaffirm the compelling evidence that suggests greater energy 
productivity gains can be achieved--that there is, indeed, significant 
room for improvement; and third, suggest that social science research 
can provide policy-makers with a more satisfying set of insights that 
can help our nation to capture those greater energy productivities 
while maintaining our economic prosperity and enhancing overall 
environmental quality. There is good news in all of this but, as we 
shall see, there is work ahead.
---------------------------------------------------------------------------
    \4\ These and other specific energy-related data cited in the 
testimony are the author's calculations as they are drawn from the 
Energy Information Administration's Annual Energy Review 2006, Report 
No. DOE/EIA-0384(2006), Washington, DC: U.S. Department of Energy, June 
2007; and Energy Information Administration's Short-Term Energy 
Outlook--August 2007, Washington, DC: U.S. Department of Energy.
---------------------------------------------------------------------------

The Success of Energy Efficiency to Date

    The Members of this subcommittee may be surprised to learn how big 
of a role that energy efficiency has already played supporting the 
growth of our economy over time. Figure 1, below, provides the 
historical context of efficiency gains estimated through 2007 as they 
might compare to the development of new energy supplies since 1970. In 
effect, Figure 1 compares the projected level of energy consumption in 
2007 to that which might have been necessary had the economy continued 
to rely on 1970 technologies and market structure.\5
\\---------------------------------------------------------------------------
    \5\ Strictly speaking, the term energy efficiency as used here 
today can be more broadly defined as a reduction in energy intensity; 
that is, a reduction in the number of Btus needed to support a dollar 
of economic activity. This change results from two key drivers. This 
first is a change in market structure as we move away from energy 
intensive industries as a source of income to higher value-added 
services. The second is what we typically think of as energy 
efficiency--more efficient lighting and consumer products, greater fuel 
economy in our vehicles, and more efficient power plants and industrial 
processes. The United States has benefited from both economic drivers; 
and both were made possible by a combination of behaviors, innovations, 
and choices of technology. From a macroeconomic perspective the 
evidence suggests that anything we can do that positively reduces 
energy use while maintaining incomes and economic prosperity can be 
termed ``energy efficiency.'' It is in that larger sense that I use the 
term here today.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 1970 Americans consumed an estimated 68 quadrillion Btus (quads) 
for all uses of energy--whether heating and cooling our homes, schools, 
and businesses; powering our many industrial processes; or transporting 
both people and freight to the various places they needed to go. If we 
converted all forms of energy consumed in 1970 to an equivalent gallon 
of gasoline per capita, it turns out that the U.S. economy required 
about 2,670 gallons of gasoline equivalent for each man, woman, and 
child living in the U.S. at that time. Had the United States continued 
to rely on 1970 market structure and technologies to maintain its 
economic growth we would today be consuming an estimated 210 quads of 
energy. That would have been about 5,550 gallons of gasoline per person 
equivalent. But in fact, the consumption estimated for 2007 appears to 
be only slightly more than 100 quads of energy (in rounded numbers). 
Again on a per capita equivalent, this means that the United States 
economy requires about 2,660 gallons of gasoline per resident.
    In examining these numbers more closely, several insights might pop 
into mind. First, energy efficiency has allowed us to decrease the per 
capita energy use, at least somewhat, compared to what we used in 1970 
while still enjoying an expanded set of goods and services. Second, 
instead of doubling our energy use with the expanded economy, in 
effect, the gains in energy efficiency have allowed us to reduce total 
energy use by the equivalent of 110 quadrillion Btus in 2007. As such, 
energy efficiency has ``fueled'' roughly 77 percent of the new growth 
demands in the United States since 1970. The new energy resources, on 
the other hand, have provided less than one-third of the demands (or 
about 32 Quads as shown in the figure).

Technology Drivers Behind Our Energy Efficiency Gains

    Among the reasons for the increased energy productivity during the 
past 35-40 years has been the emergence and widespread adoption of 
advanced technologies, including substantial improvements in standard 
consumer products, new high-tech electronics, improvements in fuel 
economy, and the emergence of a variety of information and 
communication technologies (ICT). A refrigerator in 1970, for example, 
would have consumed on average 1,600 to 1,800 kilowatt-hours (kWh) of 
electricity per year. Today, new refrigerators might require only 450 
to 600 kWh--even as their volume has doubled in size. In 1970 
cogeneration units that might have achieved efficiencies on the order 
of 50 to 60 percent. This was still more favorable than the 32 percent 
system efficiencies of our electricity grid back then, a level of 
inefficiency that persists still today.\6\ Yet, cogeneration was seldom 
part of a company's long-term energy plans. Their more productive 
cousins--what today we call combined heat and power (CHP) plants that 
can achieve overall efficiencies of 90 percent and beyond--are becoming 
a critical resource in the strategic plans of many energy-intensive 
industries. In 1970 I was driving a used 1957 Chevy that may have 
gotten all of 20-21 miles per gallon--if that. Today I own a Toyota 
Prius that perhaps averages 45 miles per gallon. And today I do more 
online banking and shopping, and businesses now conduct more of their 
transactions electronically--especially in the last two decades. These 
and many other advanced technologies have added up to a significant 
increase in overall energy productivity.
---------------------------------------------------------------------------
    \6\ Perhaps also of interest to the Subcommittee: what we waste 
just in the production of electricity is more energy than Japan uses to 
power its entire economy. We already have the technology to 
substantially reduce that level of waste, however. It appears that the 
real problem may lie more in understanding how to encourage the 
adoption of technologies like combined heat and power or other waste-
to-energy technologies. Hence, the problem may lie more in the 
dimension of social sciences than in improving our technology.
---------------------------------------------------------------------------

The Social Drivers Behind Our Energy Efficiency Gains

    The impressive gains in energy efficiency since 1970 are the result 
of numerous innovations and choices made by both businesses and 
consumers. But what are the drivers behind these innovations in 
efficiency? What spurs people to choose energy-efficient technologies 
and behaviors? And how much variation is there in the decision-making 
process?
    Among the drivers of innovation and efficiency is the increasing 
level of concern about rising energy prices. However, while energy 
prices comprise an important motivating factor, innovation and 
efficiency have also been driven by concerns about environmental 
degradation, global climate change, international energy security, and 
even the lack of adequate energy and water supplies within developing 
countries.
    In other words, it is a varied backdrop of concerns that has 
motivated action by individuals, households and companies that are 
interested in solving problems. In addition to their concerns over 
energy and the environment, individuals and groups also regularly 
contend with concerns over earning a decent income, as well as 
developing a highly profitable enterprise. But the complexity of the 
process doesn't end there. A thorough understanding of motivating 
factors is further complicated by the diversity of interests, 
backgrounds, skills, and personalities held by would-be agents of 
change. In fact, these individuals and organizations bring with them 
both shared and divergent sets of interests, backgrounds and skills, 
creating a kaleidoscope of shifting concerns and behavioral outcomes. 
In other words, there is a wide range of corporate, group, and 
individual characteristics that shape one's propensity toward energy-
saving or energy-efficient behaviors and those characteristics often 
change over time; yet none of these attributes or concerns are 
adequately captured in the energy prices signals and changes in incomes 
that economic models typically rely on to evaluate the impacts of 
energy programs or policies. Moreover, by relying on energy prices as 
the primary driver of behavioral change, economic models fail to 
measure and incorporate the impact of other important elements such as 
consumer information pertaining to the availability of more energy-
efficient products on the market, the variety of ways of shipping a 
product while generating net energy savings, or traveling to new places 
for work or leisure in ways that use less energy. In short, energy 
choices are not simply a function of energy prices but involve a more 
complex mix of motivating factors that vary across individuals and 
organizations and that shape their propensity to act.
    The good news is that studies by ACEEE and others have repeatedly 
shown that the United States can cost-effectively reduce energy use 25 
percent or more over the next 15-20 years in ways that increase overall 
productivity.\7\ Moreover, given the right choices and investments in 
the many cost-effective but underutilized energy-efficient 
technologies, these gains in energy productivity could provide much 
needed slack in the now overly stressed energy supply markets.\8\ This, 
in turn, could lessen energy price volatilities, and minimize 
greenhouse gas emissions--all in ways that save additional money for 
businesses and consumers. While this information is readily available, 
it has not been included in most of the economic models used to 
evaluate energy policies. As a result, policies based on these models 
have consistently overlooked the cost-effective energy savings that can 
be achieved through changing social preferences and the accelerated 
adoption of energy-efficient technologies and behaviors.
---------------------------------------------------------------------------
    \7\ Nadel, Steven. R. Neal Elliott, and Therese Langer. 2005. A 
Choice of Two Paths: Energy Savings from Pending Federal Energy 
Legislation. Washington, DC: American Council for an Energy-Efficiency 
Economy. See also, McKinsey Global Institute, 2007, Curbing the Global 
Energy Demand Growth: The Energy Productivity Opportunity, San 
Francisco, CA, McKinsey & Company. Finally, see also, ``Closing the 
Efficiency Gap: Strategic Plan for Energy Efficiency Improvement in the 
G8 Countries,'' 2007, Washington, DC, United Nations Foundation.
    \8\ Elliott, R. Neal. 2006. America's Energy Straightjacket. 
Washington, DC: American Council for an Energy-Efficient Economy.
---------------------------------------------------------------------------

Economic Models, Social Preferences and Energy Policy

    The Subcommittee has asked: how predictive is a purely economic 
approach to evaluating the impact of energy policy? To answer this 
question it might be helpful to first put this into context. For that 
purpose, let me take you back to 2003 when both the U.S. Environmental 
Protection Agency (EPA) and the U.S. Department of Energy's Energy 
Information Administration (EIA) received a Congressional request to 
evaluate a proposed climate policy that would reduce energy-related 
carbon dioxide emissions by about one-third compared to levels 
forecasted for the year 2025. The resulting EIA modeling analysis, 
using its National Energy Modeling System (NEMS), suggested that if the 
policy were adopted there would be a negative impact on investment and 
household consumption, and that energy prices would rise significantly 
compared to the reference case.\9\ Conversely, the EPA relied on the 
Argonne National Laboratory's AMIGA Modeling System and found the 
impacts to be somewhat more positive; indeed, the analysis (which 
unfortunately was never publicly released) showed that there could be 
small but positive increases to both investment and consumption over 
time.\10
\\---------------------------------------------------------------------------
    \9\ Energy Information Administration, 2003, Analysis of S. 139, 
the Climate Stewardship Act of 2003, Washington, DC, U.S. Department of 
Energy.
    \10\ U.S. Environmental Protection Agency, 2003, ``Preliminary 
Analysis of the Climate Stewardship Act,'' Unpublished results, May 23. 
The witness has direct knowledge of this modeling result as he was the 
EPA project officer that undertook this analysis in cooperation with 
the Argonne National Laboratory's AMIGA modeler, Donald A. Hanson.
---------------------------------------------------------------------------
    Three key differences perhaps explain this sharp contrast in 
modeling results. First, the AMIGA modeling system tends to use a more 
dynamic characterization of technology cost and performance over time. 
This means that as price signals increase (for example, through a cap 
and trade mechanism) and as non-price policies are implemented (by 
expanding voluntary initiatives such as the ENERGY STAR programs, for 
example, or by increasing performance-based standards such as the 
Energy Efficiency Resource Standard and appropriating additional funds 
for energy-related R&D efforts), the AMIGA modeling system tends to 
show a greater improvement in technology performance that reduces the 
costs and generates a higher energy bill savings. Second, the model 
tracks the substitution of productive capital as it displaces less 
energy-efficient technologies over time. It then translates this into a 
more appropriate GDP accounting framework than the NEMS model is able 
to do.\11\ Finally, AMIGA allows consumer and business preferences to 
shift over time in response to various programs. For example, consumers 
today might purchase a new appliance only if it pays for itself in 
three years. However, an expanded set of voluntary programs might 
encourage the adoption of technologies that might pay for themselves 
in, say, four or five years. That greater willingness to adopt 
technologies would mean a greater level of net energy savings for the 
economy.\12
\\---------------------------------------------------------------------------
    \11\ In fact, AMIGA generally follows the accounting framework of 
the Bureau of Economic Analysis (BEA) as it estimates quarterly GDP for 
the United States. As BEA tracks changes in GDP for any given period of 
time, it accounts for total household consumption, total investment, 
overall government spending, and total net imports. AMIGA follows this 
same accounting procedure. Hence, if there are programs and policies 
that stimulate increases in more productive investment in the economy 
that saves money for households and businesses, and reduces imports of 
oil and natural gas, AMIGA would show those programs and policies to 
provide net benefits to the U.S. economy.
    \12\ Perhaps of interest to the Subcommittee, there is more 
information on this topic as a result of a November 2006 national 
workshop that ACEEE convened to explore a number of these critical 
insights. The workshop title was ``Energy and Economic Policy Models: A 
Re-examination of Some Fundamental Issues.'' For a full list of 
participants and access to the papers presented there, see: http://
www.aceee.org/conf/06modeling/.
---------------------------------------------------------------------------
    There are two critical points to be made in answering the 
Subcommittee's question in this regard. First, since the EIA report was 
the only analysis that was publicly released, the persistent storyline 
of negative economic impacts tended to erode public and Congressional 
support for any meaningful action on either energy or climate policy in 
the United States. Therefore, the most direct effect of poorly 
developed economic modeling exercises on behavior has been to limit the 
range of perceived opportunities for action and therefore to limit 
action itself. In other words, the publication of a set of modeling 
runs that relied on an inappropriate characterization of energy 
productivity benefits has limited the public sense of opportunity to 
act. Second, the exclusion of appropriate social variables and 
technology characterizations from these models also tends to make these 
options invisible during debates of possible remedies and solutions. In 
other words, poorly specified models have also tended to limit policy 
options to a narrow set of potential solutions predominantly focused on 
increasing energy supply as opposed to policies that could increase 
efficiency using social and behavioral science and existing 
technologies. Integrating these important social and technological 
measures into economic models can provide us with a more satisfying and 
thorough review of energy and climate policy options, thereby 
significantly broadening the options from which to choose.
    Currently, the primary method for integrating behavior into 
economic models is through what economist call ``elasticities.'' When 
derived from time series data for prices and incomes as they compare to 
changes in energy use over time, these values provide economists with a 
measure of how energy use responds to changes in prices and incomes. As 
an example, economists may determine that a 10 percent increase in 
price has in the past resulted in a one percent decrease in the demand 
for energy. In that case we say that the energy price elasticity is -10 
percent (sometimes expressed as -0.1). On the other hand, if we 
determine that a 10 percent increase in income has in the past resulted 
in a three percent increase in the demand for energy, here we would say 
that the energy income elasticity is +30 percent (or expressed as 
+0.3).
    These and other forms of elasticities are used directly or 
indirectly in economic models to estimate future energy consumption 
based on different policy scenarios that inevitably result in increased 
energy prices whether induced by fuel taxes, cap and trade systems, or 
otherwise. In short, the elasticity is a constant that is used by 
economists to estimate the level of energy consumption at a variety of 
different energy prices or to estimate the cost of inducing specified 
amounts of energy/carbon savings. Unfortunately, this method fails to 
account for non-economic programs and policies and changing preferences 
among consumers and the important impact that they can have on 
elasticities and consumption patterns. In other words, elasticities and 
preferences are not fixed. They change over time. Figure 2 on the 
following page highlights this point.
    The data in Figure 2 provide annual estimates for what economists 
call long-run elasticities over the period 1970 through preliminary 
estimates for 2007. As opposed to monthly or quarterly changes, the so-
called long-run in this case covers the year to year changes in total 
U.S. energy consumption given changing prices and per capita incomes. 
The intent is not to suggest that these are actual estimates to be used 
in economic policy models; the data are much too aggregate in hat 
regard. But they are highly useful for our purposes here today. The 
intent behind Figure 2 is to highlight the point that these values 
change over time; they are not at all constant as most economic models 
assume them to be.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Using one approach a modeler might determine that the income 
elasticity over this period of time might be 0.60. But, in fact, the 
value changes annually. In 1970 the income elasticity appears to be on 
the order of 0.50, generally rising over time. By 2007 it approaches a 
value of 0.70. On the other hand, the price elasticity (in absolute 
terms meaning that we've dropped the negative sign) might be estimated 
as 0.20 over the period of analysis shown in Figure 2. However, there 
is a significantly different pattern of annual changes in price 
elasticities than is shown for income elasticities. First the pattern 
is much more volatile. It starts at about 0.16 (again as an absolute 
value). It then bumps up and dips before reaching a peak of about 0.31 
in 1982. It then slides back down to 0.17 in the year 2000. The pattern 
finally closes at a significantly higher 0.24 by the end of the period.
    Given the set of data highlighted in Figure 2, three points quickly 
emerge. First, we've clearly confirmed that elasticities are not at all 
constant. Any analysis that makes that assumption may generate biased 
results. Second, the data show policy-makers that, yes, these changes 
are occurring but they provide little insight into what drives these 
changes; more critically, they provide little insight as to what mix of 
programs and policies might provide a more reasoned or balanced 
response to concerns about energy and climate change issues. Finally, 
most economic models start with the presumption that prices are the 
critical determinant of behavior. But the data in Figure 2 suggest 
that, for the United States over this time horizon, income levels are a 
greater determinant of energy use than are energy prices. This seems to 
suggest that policy-makers may want to explore income-based policy 
initiatives as a complement to the price signal. In other words they 
might want to evaluate the extent to which incentives may induce a more 
appropriate public response, or they might want to explore policies 
that encourage innovations that increase energy productivity and 
generate savings for the economy.\13
\\---------------------------------------------------------------------------
    \13\ In fact, one recent journal article provided evidence that a 
combination of programs and policies that complemented a mild price 
signal actually generated a more cost-effective result than a policy 
that depended on price signals alone to drive changes in total energy 
consumption. Hanson, Donald A. and John A. ``Skip'' Laitner. 2004. ``An 
Integrated Analysis of Policies That Increase Investments in Advanced 
Energy-Efficient/Low-Carbon Technologies.'' Energy Economics, 26(4), 
739-55. See especially the discussion surrounding price and non-pricing 
policies as highlighted by the results in Table 4 of that article.
---------------------------------------------------------------------------
    The social sciences can and should contribute in at least three 
ways:

        1.  Recognizing and Understanding Changes in Elasticities

        2.  Documenting and Modeling Socially-Induced Changes in Energy 
        Consumption

        3.  Documenting and Modeling the Variation in Energy 
        Consumption Patterns across Social Groups/ Segments

        1.  Recognizing and Understanding Changes in Elasticities

            As we've just highlighted, most economic models now portray 
        elasticities as fixed. However, both Figure 2 and other 
        research on elasticities shows that these values change 
        significantly over time. The available evidence suggests that 
        such changes are the result of changing social structures, 
        preferences, values, social norms, feedback, commitment, etc. 
        Moreover, complex systems and patterns typically arise out of a 
        multiplicity of relatively simple interactions that cannot be 
        explained by the use of constant elasticities. But the time 
        series data necessary to support these kinds of assessments are 
        generally not available to draw precise conclusions.

        2.  Documenting and Modeling Socially-Induced Changes in Energy 
        Consumption

            People respond to more than just energy prices. There is a 
        large body of research and literature that shows that people 
        may reduce their energy consumption by as much as one-third in 
        response to non-financial incentives, disincentives, and other 
        programs. Two examples highlight this point. First, in a recent 
        study of hotel guest behaviors, Robert Cialdini (also a witness 
        at this hearing) sought to increase the number of guests that 
        were willing to reuse their towels instead of having them 
        laundered on a daily basis. The study left cards in each hotel 
        room asking guests to reuse their towels and noted that 75 
        percent of people staying in the hotel had, at some point in 
        their stay, reused their towels. By emphasizing the behavior as 
        normative, Cialdini was able to lift reuse rates from 35 
        percent to 58 percent, saving both water and energy.\14
\\---------------------------------------------------------------------------
    \14\ Cialdini, R.B. 2005. ``Basic Social Influence Is 
Underestimated.'' Psychological Inquiry 16(4): 158-161.

            In another study, Schultz and his colleagues used a social 
        norms approach to help homeowners to conserve energy. The study 
        involved delivering notices to household doorsteps, telling 
        homeowners how their energy consumption compared to the 
        neighborhood average. Homeowners who were consuming more 
        electricity than their neighbors reduced their consumption.\15
\\---------------------------------------------------------------------------
    \15\ Schultz P.W., J.M. Nolan, R.B. Cialdini, N.J. Goldstein, and 
V. Griskevicius. 2007. ``The Constructive, Destructive, and 
Reconstructive Power of Social Norms.'' Psychological Science (May).

        3.  Documenting and Modeling the Variation in Energy 
---------------------------------------------------------------------------
        Consumption Patterns across Social Groups/Segments

            Understanding variations in energy consumption patterns 
        across social groups and segments is critical to creating 
        effective policies and understanding the effect of social 
        dynamics on energy consumption and carbon emissions. For 
        example, the use of price elasticities of demand that are based 
        on the average consumer fail to take into account the effect of 
        income inequality on demand and fail to capture the ways in 
        which price elasticities vary across different segments of the 
        population over time.

            People are social animals. We act in accordance to the 
        norms and values of the groups to which we belong. Therefore, 
        understanding behavioral change requires an understanding of 
        the ways in which membership in particular demographic groups 
        shape and constrain individuals' conscious and subconscious 
        decisions regarding energy consumption. A variety of 
        demographic characteristics can offer important insights into 
        energy consumption behavior, including those linked to age, 
        education, income, household status, religion, gender, 
        ethnicity, occupation, political affiliation, etc.

            For example, recent studies on the relationship between 
        gasoline prices and consumption levels indicate that 
        elasticities associated with transportation fuel costs have 
        been declining.\16\ These studies create the perception that 
        increasing gasoline prices have little impact on 
        consumption.\17\ However, a study of the same relationship 
        across different income categories is likely to reveal a 
        curvilinear relationship such that both lower and higher income 
        groups experience low price elasticities, while middle income 
        groups display higher price elasticities. Low income groups 
        that have limited discretionary income have already reduced 
        their consumption to the minimum and therefore cannot respond 
        to price signals by reducing their consumption further, while 
        high income groups that have large amounts of discretionary 
        spending are better able to absorb the price increases without 
        changing consumption patterns. It is the middle income groups 
        that are most likely to change their consumption in response to 
        increasing prices of gasoline.
---------------------------------------------------------------------------
    \16\ Hughes, Jonathan E., Christopher R. Knittel, and Daniel 
Sperling. 2006. Evidence of a Shift in the Short-Run Price Elasticity 
of Gasoline Demand, Center for the Study of Energy Markets (CSEM) 
Working Paper 159. Berkeley, CA: California Energy Institute, 
University of California. September.
    \17\ For a thorough review of the literature on elasticities, see 
Dahl, Carol. 2006. Survey of Econometric Energy Demand Elasticities 
Progress Report, Golden, CO: Division of Economics and Business, 
Colorado School of Mines, August.
---------------------------------------------------------------------------

The Role of Social Science Research on Energy Policy

    When applied correctly, both non-economic and economic social 
science research can provide critical insights into the most effective, 
viable, and sustainable energy policies. When correctly specified, 
economic models can provide policy-makers with a range of policy 
scenarios and likely outcomes. When used in conjunction with economic 
insights, non-economic social science research can help by: (1) 
ensuring the development of appropriate technologies, (2) increasing 
the adoption of existing technologies, (3) improving the effectiveness 
of economic policies and forecasts, and (4) identifying non-economic 
mechanisms for catalyzing the types of social change required to reduce 
carbon dioxide emissions and moderate climate change.
    Since the 1980s, funding for non-economic social science research 
on energy consumption has declined dramatically. More funding is 
clearly needed in order to expand our understanding of the social 
dynamics of energy consumption, energy conservation, and energy 
efficiency. By expanding this knowledge base, we could significantly 
improve our capacity to reduce energy consumption via mechanisms that 
are currently less well understood.
    Past research on non-economic mechanisms, performed primarily in 
the 1970's and 1980's, is being currently being applied in some 
programs. At the national level, the ENERGY STAR program is using 
research on information dissemination and labeling to improve its 
information campaigns. It is also using research on the effectiveness 
of social marketing strategies in its design of campaigns to increase 
the adoption of energy-efficient technologies. A variety of electric 
utilities have also used social science research to inform demand-side 
management programs to effectively reduce energy consumption and reduce 
peak load demand.

The Behavior, Energy and Climate Change Conference

    Finally, the Subcommittee has asked about the upcoming Behavior, 
Energy and Climate Change (BECC) Conference--scheduled for November of 
this year in Sacramento, CA. We certainly invite your participation in 
some capacity. This event has been organized in response to the needs 
of policy-makers to better understand the energy behavior and energy-
related choices made by consumers at all levels, whether residential, 
commercial, industrial, governmental, or nonprofit. The routine 
activities of these energy users are the key drivers of greenhouse gas 
emissions. Therefore, efforts to reduce climate impacts necessitate a 
clear understanding of the social and behavioral factors that shape 
choices to conserve energy or to purchase more efficient appliances, 
buildings and vehicles.
    Conference planning began early in 2007, when the California 
Institute for Energy and Environment (CIEE), under the auspices of the 
University of California System's Office of the President, brought 
together a small planning group to begin to think about how to engage 
policy-makers and researchers in a dialogue about the importance of 
behavioral research in accelerating the pace and impacts of new climate 
policies in California (and California's partner states and provinces). 
Subsequent discussions led to a Behavior, Energy and Climate Change 
Summit meeting in Sacramento in May of this year. At the BECC summit, 
policy staff of state legislature, energy and environmental agencies, 
private and public utilities, academic researchers, and private sector 
representatives (50 in all) met to discuss common interests, concerns 
and information needs in this area. There was broad agreement regarding 
the importance of behavior and choice in understanding and affecting 
climate change, and a willingness to continue the conversation and to 
engage a larger group in finding ways to improve policy, enhance 
program impacts, and increase the quantity of scientific research 
needed to support these efforts.
    An important outcome of the summit is the upcoming Behavior, Energy 
and Climate Change Conference to be held November 7-9, 2007 in 
Sacramento, California. CIEE has partnered with the American Council 
for an Energy-Efficient Economy (ACEEE) and Stanford University's 
Precourt Institute for Energy Efficiency (PIEE) in sponsoring this 
meeting, which has now gained national attention and participation from 
across the United States and Canada. (ACEEE has consistently provided a 
venue to report behavior research related to energy use for 25 years at 
its biennial Summer Study on Energy Efficiency in Buildings.\18\ PIEE 
is a newly funded institute. It has behavior research as one of six 
focal areas and is compiling a database of the literature.)
---------------------------------------------------------------------------
    \18\ For those interested in learning more about this highly 
regarded event, the 2008 Summer Study will be convened next August in 
Asilomar, CA. See, http://www.aceee.org/conf/08ss/08ssindex.htm.
---------------------------------------------------------------------------
    The BECC conference program includes more than 60 speakers and will 
cover a broad range of topics. But a common theme is linking 
knowledge--whether from scientific literatures, ongoing academic 
research, energy evaluation, or program experience--to policy 
development and implementation. The hoped-for results will include 
increased awareness, new collaborations between researchers and 
decision-makers in industry and government, a more effective mix of 
policies (voluntary and regulatory), greater support for behavior-
focused research, and an acceleration of the rate and impacts of 
efforts to reduce climate change in California and elsewhere. More of 
the conference details, including the preliminary program agenda can be 
found on the ACEEE Web site at http://www.aceee.org/conf/07becc/
07beccindex.htm. The final conference agenda, the full set of 
presentations, and a conference summary document will also be available 
on the web site following the conclusion of the conference.
    In addition to the conference, the initial discussions also 
identified the need to compile the diverse and dispersed literature on 
behavior, energy and climate change to facilitate research and 
encourage collaborations among policy-makers, academic researchers and 
others. The Precourt Institute at Stanford is undertaking this project 
and has recently developed a searchable bibliographic database of 
relevant literature as well as lists of foundational readings and other 
resources. The initial set of references will be available on their Web 
site on September 25 at http://piee-behavior.stanford.edu. The database 
will expand over time as other researchers contribute additional 
literature and information, and professional profiles of researchers 
involved in the area will also be added.

Conclusions and Recommendations

    Based on more than 25 years of research on the role of energy 
efficiency in our economy, ACEEE believes the evidence indicates a 
generally less-than-satisfying performance of economic models as they 
have been used to assess a variety of energy and climate-related energy 
policies. By definition, national energy policy decisions, based on 
erroneous or incomplete information, will lead to sub-optimal economic 
and environmental outcomes. The good news in all of this is that, 
despite the generally pessimistic outcomes published by many of the 
conventional models, there has been a resurgence of interest in how 
economics and the social sciences can inform policy, increase energy 
efficiency, and reduce energy consumption. One indication of this 
renewed interest is the planned Behavior, Energy and Climate Change 
Conference to be held November 7-9, 2007 in Sacramento, California.
    On the other hand, renewed interest does not guarantee real 
results. Any real advancements in the capacity of the economics and 
social science communities to contribute to more meaningful policy 
insights will require targeted support from policy-makers to overcome 
the current lack of research funding as well as the paucity of existing 
data.
    Given current circumstances, and based on the available evidence 
regarding the contribution of social sciences to energy policy, ACEEE 
believes three distinct recommendations are in order. First, and after 
further review by this subcommittee, we believe it appropriate for the 
Subcommittee to issue a set of findings that confirms our testimony. We 
think it will send a positive signal to the economics and social 
science communities--that there is clear room for improvement. Second, 
support the development and funding of National Energy Efficiency Data 
Center (NEEDC), a national nonprofit organization whose purpose will be 
to collect, organize, disseminate and archive energy efficiency and 
social science statistics, particularly those related to public 
policies and programs.\19
\\---------------------------------------------------------------------------
    \19\ For more details on this proposal, see: Horowitz, Marvin J. 
2006. ``It's Time for a National Energy Efficiency Data Center,'' 
Arlington, VA: Demand Research; as presented to the ACEEE workshop, 
``Energy and Economic Policy Models: A Re-examination of Some 
Fundamental Issues, Washington, DC. The Horowitz paper and others from 
this workshop can be downloaded from http://www.aceee.org/conf/
06modeling/.
---------------------------------------------------------------------------
    Finally, and more critically, more research and greater research 
funding are needed in order to expand our knowledge and understanding 
of how human behavior and choice can increase energy efficiency, reduce 
our energy dependency, and reduce our impact on the global climate.
    Energy consumption is an integral part of our daily lives. 
Individuals, households, businesses, industries, and organizations 
consume energy in work and in leisure, 24/7. Energy heats and cools our 
homes; harvests, processes and cooks our food; provides us with 
transportation; powers our computers; and powers our industrial 
machinery.
    Energy consumption is rooted in human behavior. What is less widely 
recognized is that the solutions to energy shortfalls are also rooted 
in human behavior. Instead, the first and most common response is to 
look to technology to provide the answers. And, when available 
technologies aren't adopted, we look to the field of economics to 
explain why not. Unfortunately this approach is unable to adequately 
identify and address the behavioral roots of our energy problems that 
extend beyond the realm of economics. Effective solutions must draw on 
a broader understanding of social systems and human behavior.\20
\\---------------------------------------------------------------------------
    \20\ In my own work these past several decades, and although I am 
an economist, I've come to see technology as something much different 
than what is characterized in the various energy and economic policy 
models. This difference in the characterization of technology may 
further illustrate the critical role of the social sciences in shaping 
a more robust energy policy. In short, technology is not simply an 
economic characterization of machines and devices, or some stylized 
production function that is coded within an economic model. Rather, 
I've come to view ``technology'' as the cumulative human knowledge 
embedded in our nation's artifacts, equipment, and structures as they 
are designed to deliver some useful or desired social outcome. A second 
part of that characterization is that technology is the set of norms, 
rules and criteria by which we choose to deploy that knowledge.
---------------------------------------------------------------------------
    The need for a better understanding of human behavior and choice 
has been repeatedly noted by the National Research Council's Panel on 
Human Dimensions of Global Change, emphasizing the need for behavioral 
research for effective policies that reduce emissions and mitigate 
climate change.\21\ Most recently, the National Academies reported that 
behavioral science has been significantly under-supported in the U.S. 
Climate Change Science Program.\22\ In fact, most of the social science 
work in this area has either been undertaken by lone academic 
investigators or supported by progressive State government and utility 
companies, particularly in California, the Pacific Northwest, and parts 
of the upper Midwest and New England. The resulting academic social 
science literature is scattered across the disciplines of sociology, 
psychology, anthropology, and economics. It is not coherent or well-
organized. And it is difficult for policy-makers and researchers to 
access--although there have been several efforts to bring these 
literatures together in comprehensive reviews.\23\ The non-scientific 
literatures are mainly from energy program evaluations and market 
studies. They are of uneven quality. Although some of this work can be 
found in public databases,\24\ much is a ``gray literature'' that is 
not known to policy-makers and, in fact, not readily accessible.
---------------------------------------------------------------------------
    \21\ Brewer, Garry D. and Paul C. Stern, Eds. 2005. Decision-Making 
for the Environment: Social and Behavioral Science Research Priorities. 
Committee on the Human Dimensions of Global Change, National Research 
Council. Washington DC: National Academies Press. See also, Stern, Paul 
C., Oran R. Young, and Daniel Druckman, Eds. 1991. Global Environmental 
Change: Understanding the Human Dimensions. Committee on the Human 
Dimensions of Global Change, National Research Council. Washington DC: 
National Academies Press. Finally, see Stern, Paul C. and Elliot 
Aronson, Eds. 1984. Energy Use: The Human Dimension. New York: Freeman.
    \22\ Committee on Strategic Advice on the U.S. Climate Change 
Science Program. 2007. Evaluating Progress of the U.S. Climate Change 
Science Program: Methods and Preliminary Results. Washington DC: 
National Academies Press.
    \23\ For example: Schipper, Lee, Sarita Bartlett, Dianne Hawk, and 
Ed Vine. 1989. ``Linking Lifestyles to Energy Use: A Matter of Time?'' 
Annual Review of Energy. 14, 273-318. See also, Lutzenhiser, Loren. 
1993. ``Social and Behavioral Aspects of Energy Use,'' Annual Review of 
Energy and the Environment. 18, 247-89. Finally, see Wilson, Charlie 
and Hadi Dowlatabadi. 2007. ``Models of Decision Making and Residential 
Energy Use.'' Annual Review of Environment and Resources. 32, 2.1-2.35.
    \24\ California Measurement Advisory Council searchable database. 
http://www.calmac.org/search.asp. See also, Consortium for Energy 
Efficiency, Market Assessment and Program Evaluation Clearinghouse 
searchable database http://www.cee1.org/search/search.php
---------------------------------------------------------------------------
    More research and greater research funding will provide the means 
to expand our knowledge and understanding of how human behavior and 
choice can increase energy efficiency, reduce our energy dependency, 
and reduce our impact on the global climate while still maintaining a 
robust economy.
    This concludes my testimony. On behalf of my colleague, Karen 
Ehrhardt-Martinez, and my other associates at ACEEE, we thank you for 
the opportunity to present these views. I will be happy to respond to 
further questions and, of course, to provide any additional material 
the Subcommittee believes will be helpful in examining this critical 
topic.

                  Biography for John ``Skip'' Laitner
    John ``Skip'' Laitner is the Senior Economist for Technology Policy 
for the American Council for an Energy-Efficient Economy (ACEEE). He 
previously served almost 10 years in a similar capacity for the U.S. 
Environmental Protection Agency (EPA), but chose to leave the federal 
service in June 2006 to focus his research on developing a more robust 
analytical characterization of energy efficiency resources and 
behavioral response within energy and climate policy analyses and 
within economic policy models. In 1998 Skip was awarded EPA's Gold 
Medal for his work with a team of other EPA economists to evaluate the 
impact of different strategies that might assist in the implementation 
of greenhouse gas emissions reduction policies. In 2004 his paper, 
``How Far Energy Efficiency?'' catalyzed new research into the proper 
characterization of efficiency as a long-term resource. Author of more 
than 150 reports, journal articles, and book chapters, Skip has more 
than 35 years of involvement in the environmental and energy policy 
arenas. He's been invited to provide technical seminars in diverse 
places as Australia, Canada, China, France, Germany, Korea, South 
Africa, and Spain. He has a Master's degree in Resource Economics from 
Antioch University in Yellow Springs, Ohio.

    Chairman Baird. Thank you, Mr. Laitner.
    Dr. Ellig.

STATEMENT OF DR. JERRY ELLIG, SENIOR RESEARCH FELLOW, MERCATUS 
               CENTER AT GEORGE MASON UNIVERSITY

    Dr. Ellig. Chairman Baird, Ranking Member Ehlers, Members 
of the Subcommittee, I would like to thank you for the 
opportunity to testify today.
    The Subcommittee asked in its invitation, asked me to 
address three questions, and it is hard not to address those 
without first saying a little bit about what I think economics 
is, what it can do, what it can't do. Since I am an economist, 
that is what I was asked about.
    On the Social Sciences Building at the University of 
Chicago is an inscription from Lord Kelvin that says if you 
cannot measure, your knowledge is meager and unsatisfactory. 
There is an oral tradition that the late, great economist Frank 
Knight passed down through some of his students that the late, 
great economist Frank Knight looked at that inscription and 
said something to the effect of, yes, and after you have 
expressed it in numbers your knowledge is also of a meager and 
unsatisfactory sort.
    The point is I think that the most important thing that 
economics contributes is an understanding of principles that 
help explain human behavior, not numbers, not predictions, not 
even picking the stocks in the stock market, although those are 
some things that economists do, but rather understanding some 
fundamental principles, and that is, you know, the basis from 
which I am talking today.
    The first question--I will paraphrase the questions to save 
time--essentially asked how predictive is a purely economic 
approach and what factors other than price signals do we need 
to look at to understand human behavior.
    There is a syllogism that we use at the Mercatus Center 
when we are teaching Congressional staff how to analyze policy, 
when we are teaching students at GMU how to analyze policy. It 
goes like this. It is actually very similar to something that 
Mr. Baird quoted in his opening statement, that institutions in 
a society create incentives and knowledge flows but then guide 
human interactions that create outcomes. And we tell folks, if 
you understand that, you can understand the effects of policy. 
Now, it is a very broad statement, and it should be obvious 
from that statement that just doing economics doesn't answer 
all the questions we need to answer in order to fully 
understand that. Institutions may be formal like laws and 
regulations or they may be informal and more evolved like 
culture and values and social norms. And there is an awful law 
that economists certainly don't understand about where 
institutions come from, how they evolve, how they change, which 
things are durable, which things are not durable. They create 
incentives and knowledge flows. Incentives may be financial or 
they may be anything else that motivates people to act. So I 
define incentives very broadly even though typically economists 
say incentives and people think, oh, they are assuming people 
only care about money. Incentive is really an understanding 
about human behavior, whatever it is that motivates folks to 
act. If you make it easier for folks to do something, they will 
probably do more of it. If you make it harder for folks to do 
something, they will probably do less of it. That is a more 
general paraphrase of the economist lesson about prices.
    Knowledge flows. Knowledge is not necessarily information 
that can be chopped up into bits and transported. It is often 
tacit which means individuals need to be able to act on 
knowledge that only they have, and different institutions 
enable individuals to use knowledge differently. And finally, 
outcomes. Public policy, we want to influence outcomes. The 
problem is the main thing that public policy directly effects 
is institutions, so we have to track how the institutional 
change works through knowledge and incentive flows to create 
outcomes.
    Now, why did I go on for a long time about this? Because it 
should be fairly obvious from that description that we need a 
lot more than economics to understand that. So, you know, do we 
need all social sciences? You get a big amen from me out of 
that.
    Second question essentially asks about whether social 
science is having an effect on policy? I sure hope so, and I 
think we can probably all cite some very good examples, but I 
have to mention that in talking to folks in federal agencies, 
talking with Congressional staff and others in this town, I 
also frequently hear comments like I understand what you are 
saying about good public policy but you have to realize we do 
stuff for other reasons than what you are talking about. And if 
Congress were to more clearly signal that it is actually 
interested in knowing about the actual results of policies that 
are enacted, putting clauses in appropriations for example that 
say this is the outcome we are trying to accomplish and this is 
how much of it we expect for this appropriation, I think that 
would send a positive signal that would help motivate federal 
agencies to make greater use of research in both the social and 
the natural sciences.
    Final question asked about what kind of tools and methods 
are most appropriate for understanding energy-related issues. 
My short answer, all of them. My concern, if I were overseeing 
federal research funding of social sciences or on a 
subcommittee that oversees the agency that oversees research 
funding, one of the most important questions I would ask is, is 
the way we do this encouraging disciplines to use and look at a 
variety of different methods or is it encouraging kind of a 
tunnel vision in which each discipline says one method is the 
only right way to do it? I know economists who are very closed-
minded who say that econometrics and statistics is the only way 
to get empirical knowledge. I have heard somebody who is an 
expert on program evaluation argue that only randomized field 
studies can generate useful, empirical knowledge. It seems to 
me we shouldn't be throwing out any information.
    In conclusion, you would get a yes out of me if you ask, 
are social sciences important? The only reason I think that we 
care about energy is because of what energy allows people to 
do, and so if the focus really is people, then we need social 
sciences to understand how energy policy affects people.
    [The prepared statement of Dr. Ellig follows:]
                  Prepared Statement of Jerry Ellig\1
\\---------------------------------------------------------------------------
    \1\ The views expressed in this testimony are solely my own and are 
not official positions of the Mercatus Center or of George Mason 
University.
---------------------------------------------------------------------------
Mr. Chairman and Distinguished Members:

    Thank you for the opportunity to appear here today and testify on 
``The Contribution of the Social Sciences to the Energy Challenge.'' I 
am a senior research fellow at the Mercatus Center, a research, 
education, and outreach organization affiliated with George Mason 
University and located a short Metro ride away on the Arlington, 
Virginia campus. The Mercatus Center's mission is to bridge academics 
and policy: we conduct interdisciplinary research in the social 
sciences that integrates practice and theory. Toward that end, we have 
a variety of policy-relevant research programs and also operate the 
largest economics-based professional development program for 
congressional staff, called Capitol Hill Campus.
    My own research focuses primarily on the causes and consequences of 
regulation--primarily ``economic'' regulation, including economic 
regulation of energy. I am not a model-builder, but I'm a big consumer 
of others' theoretical and statistical models. There's a perception in 
this town that the main thing economists supply to the policy process 
is numbers. When two economists disagree on the numbers, that gives 
rise to jokes with punch lines like, ``You could lay all the economists 
in the world end-to-end and never reach a conclusion.'' In my view, the 
most important thing economists can supply to decision-makers is not 
numbers, but understanding. Reasonable researchers may sometimes hold 
differing views about the size of the effects of various policies, but 
there's a lot more agreement among economists on basic underlying 
principles that help explain human behavior in a predictable way: 
people try to do the best they can with what they've got, consumers buy 
less of something if the price goes up, price controls imposed on 
competitive markets tend to create shortages, monopoly harms consumers, 
trade makes both parties better off, individual decisions can make 
society worse off if there are significant ``externalities,'' and so 
forth.
    I doubt you will get much disagreement from this panel on whether 
the social sciences have a role in energy policy. Energy enables people 
to do things they could not otherwise do, or could only do at very 
great cost and inconvenience. Energy allows us to maintain and improve 
our quality of life. In other words, energy should be the servant, not 
the master; energy is a means of enhancing human welfare, not an end in 
itself. Since the social sciences study how people interact, the social 
sciences are necessary if we want to understand the effects of energy, 
and energy policy, on people.
    We should keep in mind both the contributions and the limits of the 
social sciences; they are necessary but not sufficient to make policy 
choices. Effective decision-making requires two things: knowledge of 
the consequences of alternative courses of action and value judgments 
that allow the decision-maker to determine which consequences are the 
most desirable. Like any of the sciences, the social sciences are tools 
for understanding causation--what is and what would likely happen as a 
result of various policy initiatives. To decide what should be done, 
decision-makers must combine the results of the analysis with value 
judgments that reflect their assessment of what is worth doing. No 
analytical model, no matter how complex, can automatically crank out 
the ``right'' policy decision.
    But just as analysis is not a substitute for judgment, values are 
not a substitute for understanding reality. Values determine what 
outcomes decision-makers would want to pursue, but values alone do not 
provide the cause-and-effect analysis necessary to determine how those 
outcomes can be accomplished most effectively. At least as important as 
how options can be accomplished most effectively is the analysis of 
unintended consequences. Without the firm grounding in reality provided 
by social science, decision-makers are flying blind. The social 
sciences, and science generally, are crucial to policy because reality 
isn't optional.
    The Subcommittee's invitation to testify posed three questions; 
I'll take each in turn.

1.  How predictive is a purely economic approach to evaluating the 
impact of energy policy on individual and communal behavior? What 
factors other than price signals need to be considered when developing 
and applying economic models to energy-related behaviors?

    Let me start with the second question first. Real policy problems 
do not respect disciplinary boundaries. For this reason, it's most 
useful to think of different social sciences as complementary sets of 
tools for understanding reality, rather than different ways of 
understanding that are in opposition to each other. In other words, we 
don't need to decide whether an ``economic'' or ``psychological'' or 
``sociological'' approach is the right one. Properly understood, each 
is a different piece of the puzzle. All of these examine these 
questions from a different perspective and provide valuable insight.
    Let me put it another way, using a simple syllogism that we 
frequently employ when analyzing the effects of policy in the economic 
education programs the Mercatus Center runs for congressional staff: 
Institutions generate both incentives and knowledge flows that shape 
human interaction, and human interaction leads to outcomes. That's just 
one sentence, but it requires many social sciences to understand all 
the implications. Let me explain.
    Institutions are the established ways of doing things. They may be 
formal and explicitly enforced, such as laws and regulations, or they 
may be informal, such as culture, ethics and social norms. Institutions 
define the ``rules of the game''--what is considered permissible and 
impermissible behavior. They also shape the way people perceive and 
interpret what's going on around them.
    Incentives are whatever motivate people to act. They may be 
monetary or non-monetary. Cash, fame, a desire to ``do the right 
thing,'' a desire to ``go along with the crowd,'' or the prospect of a 
pleasant afterlife are all incentives.
    Knowledge can be objective information that can be written down and 
transferred. But a great deal of knowledge is highly dispersed. Much 
relevant knowledge is tacit; as physical chemist and philosopher of 
science Michael Polanyi put it, ``We know more than we can tell.'' \2\ 
Public policy can have a significant effect on the extent to which 
people utilize and act on dispersed and tacit knowledge.
---------------------------------------------------------------------------
    \2\ Michael Polanyi, The Tacit Dimension (1974), p. 4.
---------------------------------------------------------------------------
    Outcomes are the things we actually observe people doing and the 
consequences of those actions. Outcomes can be the intended effects of 
a policy, or they may be unintended consequences. The policy-making 
process should identify desired outcomes, identify ways of measuring 
the policy's effect on those outcomes, and also identify and analyze 
potential unintended consequences. Indeed, in the Government 
Performance and Results Act, Congress required federal agencies to do 
this for their most important strategic goals. Agencies are supposed to 
articulate the major outcomes they are trying to achieve, measure 
whether they have achieved them, and match outcomes with information on 
resources and costs.
    Returning to my one-sentence syllogism, we can start with the fact 
that, although public policy ultimately seeks to influence outcomes, it 
can only directly alter institutions. The fact that a policy is 
intended to achieve a particular outcome does not guarantee that the 
policy will achieve the outcome. Policy can only alter institutions--
mostly the formal institutions, such as laws and regulations. The 
problem is, behavior does not necessarily change exactly as policy-
makers intend; many other factors come into play. The behavior of 
people changes as the incentives and knowledge flows change. To 
understand the effects of a policy, decision-makers need to understand 
how the policy change alters knowledge flows and incentives, and how 
those in turn affect both producer and consumer behavior--all the 
subjects of social science research.
    What's the role of economics in this big picture? Most contemporary 
economics textbooks define economics as the study of how people satisfy 
unlimited wants with limited resources. ``Unlimited wants'' are the 
things that people value, for whatever reason. ``Limited resources'' 
simply means that neither individuals nor our entire society have 
enough resources to get everything we can imagine we want. Whenever 
people try to do the best they can with what they've got, economics 
helps us understand the decisions they make.
    Now let me turn to the first question: ``How predictive is a purely 
economic approach to evaluating the impact of energy policy on 
individual and communal behavior? Predicting what decisions people will 
make requires that we know something about what specific wants people 
have, what their priorities are, what possibilities they perceive, and 
what resources they believe they have or can get. This is where other 
social sciences enter the picture. Psychology, sociology, anthropology, 
neuroscience, sociobiology, and numerous other social sciences help us 
understand what people want, why they have the wants they have, how and 
what opportunities they perceive, what wants and methods they regard as 
``proper'' and ``improper,'' how values and wants change, which 
opportunities for innovation will get noticed and acted upon, and 
numerous other questions that must be answered to predict how people 
will react to particular policies.
    Here are a few of the many questions that economics either cannot 
answer or cannot answer by itself:

        <bullet>  How do particular formal and informal institutions 
        emerge and change over time? This includes laws, culture, 
        ethics, norms, and other social influences that guide behavior.

        <bullet>  Why do many individuals follow group norms, and why 
        do some decline to do so?

        <bullet>  What factors count as incentives for individuals in 
        particular situations?

        <bullet>  How does the way people receive and process 
        information affect their behavior?

        <bullet>  How do institutions, incentives and knowledge flows 
        alter the ``mental models,'' heuristics, and ``rules of thumb'' 
        that guide individual decisions?

    I hope it's clear from this brief description that the relationship 
between economics and other social sciences should be one of 
complementarity, not conflict.
    These comments on the role of economics and other social sciences 
are somewhat esoteric. A few concrete examples from energy policy might 
help make my meaning clearer.
    One of the most basic insights of economics is that price controls 
tend to create shortages when the controlled price is below the price 
that would otherwise occur in the market. In the 1970s, the U.S. 
imposed an extensive system of price controls on oil and gasoline. Gas 
lines resulted, because there was no incentive to conserve, and no 
signal that people could use to figure out how much to conserve. We had 
a similar experience in the 1970s with natural gas price controls.\3
\\---------------------------------------------------------------------------
    \3\ In their classic study of natural gas price controls, Stephen 
Breyer and Paul MacAvoy concluded that natural gas regulation's ``major 
objective--benefiting the household consumer--was not achieved. . 
.regulation denied consumers gas reserves for which they would have 
been willing to pay.'' The that regulation imposed on households 
outweighed any benefits households received as price controls 
redistributed wealth from gas producers to consumers. See Stephen 
Breyer and Paul MacAvoy, Energy Regulation by the Federal Power 
Commission (Brookings, 1974), pp. 86-87.
---------------------------------------------------------------------------
    In recent years, oil and gasoline prices have been relatively 
unregulated. When this is the case, prices send signals to consumers 
and producers about the true state of the world, and those prices 
change quickly with changing situations. Regulation of prices will 
always distort these signals although governments have tried this 
throughout history. Rent controls (held artificially low) have caused 
shortages in the supply of rental housing, and minimum prices on 
airline tickets increased consumer costs and caused people to take 
fewer flights than they would otherwise. Today, changes in crude oil 
prices caused by events anywhere in the world translate quickly into 
changes in retail gasoline prices. Nobody likes paying $2.50 or $3.00 
per gallon for gasoline, but the rising price of gasoline in recent 
years has given consumers a message and an incentive: stay away from 
the pumps unless gasoline is worth at least this much to you. So we 
don't have gas lines, and nobody has to sleep in their cars to get a 
good place in line even when the price of oil hits $80 per barrel, as 
it did last week.
    Oil and natural gas provide textbook examples of how economic 
principles can provide valuable insight on the fundamental causes of 
controversial policy problems. This isn't just a figure of speech; the 
examples really are used in textbooks to illustrate the effects of 
price controls.\4\ Note that social science examines not just consumer 
behavior, but producer behavior as well. Prices send strong signals to 
motivate the appropriate behavior to match supply and demand.
---------------------------------------------------------------------------
    \4\ See, e.g., W. Kip Viscusi, John M. Vernon, and Joseph E. 
Harrington, Jr., Economics of Regulation and Antitrust (Lexington, MA: 
D.C. Heath, 1992), Ch. 18.
---------------------------------------------------------------------------
    I don't think any new discoveries in the analysis of human behavior 
have undermined this explanation of why we had gas lines in the 1970s 
but don't have them today, or why we had natural gas service 
curtailments in the 1970s but don't have them today. Price controls 
encouraged us to waste gasoline and imposed tremendous human costs in 
the 1970s; decontrolled prices penalize that kind of waste now. Ditto 
for natural gas. And I doubt that advances in research on human 
behavior would give us reason to think that the effects of price 
controls on consumer and producer behavior would be qualitatively 
different in the future.
    Maybe the size of the effect would be different: if there's more of 
a conservation ethic now and we reinstituted price controls, maybe 
people wouldn't waste as much gasoline as they did in the 1970s. And if 
we had gas lines again, a better understanding of what drives 
individual decisions could also aid in crafting effective public-
service messages to discourage people from going to the gas station 
just to top off their tanks. But I doubt any change in values or 
behavioral factors would lead people to consume less gasoline as a 
result of price controls that drove down the price.
    I didn't mention price controls just because I wanted to discuss 
the 1970s; distortions due to price controls still exist in some energy 
markets today. Retail price regulation of electricity is a good 
contemporary example. Most American consumers pay the same price for 
electricity regardless of the time of day they choose to use it. This 
increases electricity demand at peak times, and it may increase overall 
demand as well. My own household is a good example of this. The 
previous owner installed a washing machine and dishwasher that can be 
programmed to start on a time delay, so they can run in the middle of 
the night. But the power company's pricing tells us it doesn't really 
matter when we run the appliances. The resulting increase in peak power 
demand artificially increases resource use, electricity prices, and 
environmental costs--if only because more peak-load power plants must 
be built. Dynamic pricing that promotes conservation or shifting of use 
to off-peak times would be a ``win-win'' for consumers and the 
environment. It would reduce the likelihood of peak-load price spikes 
in the bulk power market while making some new power plant construction 
unnecessary. Pilot programs demonstrate that consumers--even 
residential consumers--will respond to the price signals provided by 
dynamic pricing.\5
\\---------------------------------------------------------------------------
    \5\ Lynne Kiesling, ``Retail Electricity Deregulation: Prospects 
and Challenges for Dynamic Pricing and Enabling Technologies'' (May 4, 
2007), http://www.law.northwestern.edu/searlecenter/papers/
Kiesling<INF>-</INF>Annual<INF>-</INF>Rev<INF>-</INF>Final.pdf.
---------------------------------------------------------------------------
    Thus far, you probably think it sounds like I'm saying that 
economists already know what's important to know for energy policy, and 
we can't learn anything from other social sciences. Nothing could be 
further from the truth. I don't think other social sciences' research 
on human behavior overturns any fundamental economic laws if we really 
understand what economics has to offer. But I do think this research 
can supply critical information that can help us understand how 
established practices, habits, and routines change; how policy affects 
behavior in situations where many people are motivated by factors other 
than price; or how institutional and behavioral factors affect the size 
of individuals' response to policy changes.
    Dynamic electricity pricing, for example, is not being adopted very 
rapidly. In her survey of dynamic pricing issues and pilot programs, 
Northwestern University economist Lynne Kiesling notes a variety of 
barriers. Some are formal institutions, such as the rate structures 
traditionally adopted by state regulators. But she also notes that 
inertia stems from what might be called cultural barriers:

         The most important, yet also the most intangible and difficult 
        to change, obstacle to dynamic pricing and enabling 
        technologies is the set of incentives for inertia. The primary 
        stakeholders in the industry--utilities, regulators, and 
        customers--all have status quo bias.. . . Customer inertia is 
        deep because they have not had to think about their consumption 
        of electricity and the price they pay for it. . ..\6
\\---------------------------------------------------------------------------
    \6\ Kiesling, p. 37.

    The marketing of ``green'' electric power presents another 
interesting and informative example. Where they have the freedom to do 
so, many consumers choose to purchase green power even though it costs 
more. Clearly, something other than price is important to these 
consumers. If a goal of public policy is to induce people to buy more 
green power, then it's important to know what factors motivate people 
to buy it even though it's more expensive--and it's equally important 
to know how a change in any factor, including but not limited to price, 
would change the amount of green power people decide to purchase. Do 
people buy green power because they want to contribute to measurable 
improvements in environmental quality? Or because they want to reduce 
carbon emissions? Or because it's the ``in'' thing to do and they want 
to be with the crowd? Or because they want to make a statement about 
their own values regardless of what everyone else is doing? The answers 
to these questions probably imply very different public policy and 
marketing strategies, and behavioral science can help answer these 
questions.
    People also make tradeoffs. If policy alters the desirability of 
green power along several different dimensions in opposite directions, 
then the amount purchased might go up or down. Knowing how important 
the different dimensions are would help us identify whether a 
particular set of policies would ultimately increase or decrease sales 
of green power. Market research informed by psychology can help us find 
out which other attributes of green power matter to consumers, and what 
kinds of tradeoffs consumers are willing to make.
    In short, I don't think new research on human behavior allows us to 
discard what we know from economic analysis. The real contribution of 
this research is that it helps us understand behavior in situations 
where people's motivations, perceptions, and limitations were 
previously not very well understood.

2.  To what extent are policies to influence individual and community 
energy use being shaped by what has been learned from research in the 
social sciences, including economics?

    This is a huge question, to which there is no simple answer. I 
certainly hope we as a nation have learned something from the 
experiment with price controls in the 1970s. On a smaller scale, there 
are certainly examples of situations where research in economics or 
other social sciences is being used either to design policies or test 
their actual effects. One of the most ambitious pilot programs testing 
consumer acceptance of dynamic electricity pricing, for example, is the 
Olympic Peninsula GridWise Demonstration Project, led by the Pacific 
Northwest National Laboratory.\7\ Federal policy seeks to encourages 
dynamic pricing and other forms of ``demand response'' that reduce 
electricity use at peak times.\8
\\---------------------------------------------------------------------------
    \7\ Kiesling, p. 29.
    \8\ See, e.g., Federal Energy Regulatory Commission, Assessment of 
Demand Response & Advanced Metering, Staff Report (Sept. 2007), http://
www.ferc.gov/legal/staff-reports/09-07-demand-response.pdf.
---------------------------------------------------------------------------
    However, I've also seen cause for concern. When teaching in 
Mercatus Center programs for congressional staff, time and again I hear 
feedback to the effect of, ``I understand what you're saying about 
what's good public policy, but you have to realize we do things for 
other reasons on the Hill.'' One of my favorite examples was 
legislation enacted in 2003 which gave the Federal Trade Commission a 
180-day deadline to enact a regulation requiring optometrists to 
furnish patients with a copy of their contact lens prescriptions, but a 
365-day deadline to perform a study that would help determine whether 
the regulation was necessary! (I mention his not because I think this 
was a bad regulation, but because the process just seems backward.)
    When researchers at the Mercatus Center talk with federal agencies 
about the importance of measuring their outcomes and assessing how much 
of the outcome was caused by the policies they implement, we get the 
distinct impression that many career agency managers doubt whether 
Congress really wants to know about actual policy outcomes. In at least 
one case, an agency manager told me he does not believe Congress wants 
the agency to identify clear outcomes, because if specific outcomes 
were identified, that would erode support for the policy!
    Thus, actual practice sometimes seems to contradict the 
congressional intent clearly stated in the Government Performance and 
Results Act.\9\ Discovering why this happens would be an interesting 
project for an interdisciplinary team of social scientists.
---------------------------------------------------------------------------
    \9\ Section 3 of GPRA requires agencies to produce strategic plans 
that state their missions, goals, and objectives, ``including outcome-
related goals and objectives,'' and identify program evaluations used 
to reevaluate goals and objectives. A program evaluation is defined as 
``an assessment, through objective measurement and systematic analysis, 
of the manner and extent to which federal programs achieve intended 
objectives. Section 4(b) requires agencies to produce annual 
performance plans identifying measures that will be used to assess 
``the relevant outputs, service levels, and outcomes of each program 
activity'' and resources required to produce those results. Annual 
performance reports must compare actual program performance with the 
goals in the performance plan.
---------------------------------------------------------------------------
    It would be helpful if lawmakers signaled their willingness to make 
use of social science research--both prospectively when considering 
legislation and appropriations, and retrospectively when conducting 
oversight. If every piece of authorizing legislation contained a clause 
stating what specific outcome or outcomes Congress expects the 
legislation to achieve, that would send a clear message that 
retrospective policy evaluation really matters. Another clear message 
would be a clause in each appropriation indicating how much of the 
outcome Congress expects the agency to achieve with the appropriation. 
If some policies were explicitly enacted as experiments, perhaps with 
sunset clauses and with an authorization and appropriation for 
independent program evaluation, that would help as well. As it is, even 
when agencies want to do program evaluation, it's often regarded as a 
distraction, a burden, or something they just don't have the time and 
resources to do. Building program evaluation into legislation could 
help raise its priority.

3.  What tools and methodologies are most appropriate for evaluating 
the effectiveness of policies to incentivize consumer behavior with 
respect to energy use? What kinds of basic research questions underlie 
the development of such tools and methodologies?

    A variety of tools and methodologies have been developed to 
evaluate the effects of policy on behavior: econometrics and other 
statistical techniques, surveys, field interviews, randomized field 
trials, laboratory experiments, archival history, and others. One type 
of laboratory experiment that consumer researchers frequently use is 
one that is the social science equivalent of a clinical trial, where 
consumers are given ``conditions'' that would either contain a stimulus 
(something that you want to evaluate to see if it changes behavior) and 
a control, without the stimulus. By varying pairs of stimuli and 
controls, social scientists can uncover which policies are likely to 
cause consumers to change their behavior. Practitioners of each 
technique can always point to aspects that could use further 
development.
    But it's important that research in each discipline avoid becoming 
wedded to a particular methodology as the only path to truth. I know of 
economists, for example, who feel that manipulation of large data sets 
is the only ``scientific'' way to do empirical research. I've heard 
experts in program evaluation argue that randomized field trials are 
the only accurate way to gauge the effects of policy. No doubt we could 
find some social scientists with similar tunnel-vision in regard to 
other research methodologies. Federal research grants can either 
promote or discourage this kind of tunnel-vision, depending on what 
kinds of criteria are used to select research for funding. I don't have 
a specific complaint or solution in this regard, but just raise this as 
an issue that should be considered.

Conclusion

    Policy changes at best affect some of the knowledge flows and 
incentives people face. Social science research bridges the gap between 
policy and actual outcomes by examining how knowledge flows and 
incentives change human behavior. Without social science, achieving the 
desired outcome is really a shot in the dark. Good social science 
doesn't guarantee that a policy will succeed, but it greatly raises the 
odds.

                       Biography for Jerry Ellig
    Jerry Ellig is a senior research fellow at the Mercatus Center at 
George Mason University and an Adjunct Professor at the George Mason 
University School of Law. Between August 2001 and August 2003, he 
served as Deputy Director and Acting Director of the Office of Policy 
Planning at the Federal Trade Commission. Dr. Ellig has also served as 
a senior economist for the Joint Economic Committee of the U.S. 
Congress and as an Assistant Professor of Economics at George Mason 
University.
    Dr. Ellig has published numerous articles on government regulation 
and business management in both scholarly and popular periodicals, 
including the Journal of Regulatory Economics, Journal of Politics, 
Federal Communications Law Journal, Managerial and Decision Economics, 
Business & Politics, Antitrust Bulletin, Contemporary Policy Issues, 
Competitive Intelligence Review, Journal of Private Enterprise, Texas 
Review of Law & Politics, Wall Street Journal, New York Times, 
Barron's, and the Washington Post. His co-authored/edited books include 
Dynamic Competition and Public Policy (Cambridge, 2001), Economic 
Deregulation and Customer Choice (Center for Market Processes, 1997, 
with Robert W. Crandall), New Horizons in Natural Gas Deregulation 
(Praeger, 1996, with Joseph Kalt) and Municipal Entrepreneurship and 
Energy Policy (Gordon & Breach, 1994, with Alison E. Woodward and Tom 
R. Burns). He is co-author of the Mercatus Center's annual Performance 
Report Scorecard, which evaluates the quality of annual performance 
reports produced by federal agencies.
    Dr. Ellig received his Ph.D. and M.A. in economics from George 
Mason University in Fairfax, VA, and his B.A. in economics from Xavier 
University in Cincinnati, OH.

    Chairman Baird. Dr. Bordley.

 STATEMENT OF DR. ROBERT F. BORDLEY, TECHNICAL FELLOW, VEHICLE 
  DEVELOPMENT RESEARCH LABORATORY, GENERAL MOTORS CORPORATION

    Dr. Bordley. Chairman Baird, Dr. Ehlers, Dr. McNerney, and 
all the Members of this committee and staffers, I am truly 
honored to be able to present in this forum and also visit my 
parents in Maryland.
    I was asked three questions. The first question is about 
describing the type of market research I have done at General 
Motors. The first question I have looked at is estimating the 
change in----
    As you can see, I am not technologically fully equipped to 
handle the sophistication of this committee meeting, but bear 
with me.
    The second area I was focused on is grouping products into 
segments. You know, there is an awful lot of products out 
there, small, mid-sized, large. The key question is, how do 
people perceive them? How do they group products together in 
their own minds? Do they group small products together, do they 
group mid-sized products together? Do they group 
environmentally efficient products together? How do they 
actually group products together? And we want to try to look at 
the way customers group them. So that is one issue. That 
involved a lot of psychological work on how individuals decide 
which items are similar.
    We have also done a lot of--or I have also done a lot of 
work about grouping customers into segments. For example, 
lower-income people with large families, people who want some 
style but are price-sensitive, people who want a vehicle that 
convey status. You know, this draws mainly on the socioeconomic 
literature about the different social classes in America, their 
needs for a vehicle, if they have large families, if they need 
to tow, as well as whether they view the vehicle as merely a 
means of transportation, an expression of personality or 
status, or something they want to enjoy. People are different. 
They have different needs during their lifestyle depending upon 
where they live, and that is important to understand.
    Modeling demand for products as a function of all the 
attributes of the product, performance, comfort, appearance, 
price. Now again, this draws mainly on the economic and 
statistical literature. Modeling the decision process by which 
customers first become aware of a product, like how much can 
advertising affect their awareness of a product? And this work 
draws heavily on psychology. If you are not aware of a product, 
then you can't consider buying it.
    The second stage is how they come to seriously consider the 
product. Given the hundreds of products available, what are the 
simple criteria people use for winnowing down the set of 
choices down to a manageable set of choices? Do they screen out 
vehicles with a poor image for quality, a poor image for 
environmental-friendliness. How do they screen them down to 
their choice set? This draws on the psychological and 
sociological literature on how products acquire an image and 
reputation.
    How do they come to shop for a vehicle? Do people visit a 
lot of car dealers or a few? How much does the increased 
availability of information on the internet affect the shopping 
process? This is an economic/psychological question.
    How did they come to buy the product? What kind of products 
should a dealer have on their lot to maximize the chances of 
having what the customer needs? What kinds of financial offers 
are more attractive in sealing the deal? How should dealers 
determine how best to approach each customer since some 
customers are very detail-minded and others are more 
holistically oriented. Some of these questions draw on 
economics, others draw on areas of psychology that are still 
being researched.
    Modeling the impact of advisor recommendations on the 
products customers seriously consider. Today, recommendations 
come from all sorts of places, from the internet, from 
Consumers Report, other magazines, auto magazines, word of 
mouth. This is still an area of considerable research by 
psychologists and market researchers. One of the big issues is 
what sources of information do people trust? What do they rely 
on in making their decision?
    Understanding the differences between work practices in 
different dealerships and how those different work practices 
lead to better or worse dealer performance. In this kind of 
problem, the dealership is often treated as a special culture 
which is studied using methods adapted from cultural 
anthropology, and it is been very successful.
    Second question, what has social science revealed about the 
factors that influence an individual's vehicle purchasing 
decisions? What questions remain unanswered? Although the 
developments in economic and psychological methodology on 
models predicting individual choice have been central to 
modeling customer demand. The economist, Douglas McFadden, was 
very influential. He was awarded a Nobel Prize because of his 
central role in creating many of these models. The mathematical 
psychologist, Duncan Luce, received the National Medal of 
Science for his role in creating the building block that led to 
these models. These models are fundamental to what GM and what 
other carmakers use in trying to understand the relative 
importance of different attributes of customers. We also employ 
direct assessment techniques for trying to assess customer 
willingness to pay for attributes as well as for specific 
features like OnStar. And we do clinics again based on the 
research in psychology and sociology about how to do clinics.
    The whole question about how the internet has reshaped the 
purchasing process is currently a very active area of research 
for which no one has yet developed a definitive answer. It is 
profoundly changing the market. Does the internet shape 
customer preferences to focus on attributes that are more 
communicable on the internet, like cost and quality, versus 
less communicable attributes, like vehicle styling and the 
interior comfort?
    I myself have not specifically looked at the issue of fuel 
economy.
    How are recent breakthroughs in research incorporated into 
marketing or business? In what role might the NSF play? A lot 
of our previous models based on economics assumed individuals 
are rational. One of the real paradigm changes has been in 
research in economics and psychology. The Nobel Prize-winning 
work of Vernon Smith and psychologist, Daniel Kahneman as well 
as Herb Simon, have strongly undermined that perspective and 
suggest that individuals are systematically not rational. We 
know basically how they deviate from rationality, and that is 
led to a whole effort of trying to rethink how we should 
understand customer behavior rigorously. And trying to 
operationalize that is still ongoing. We still don't understand 
that.
    There are clearly some success stories in industry 
collaboration. I mentioned the Edelman Prize at the at the 
Institute's forum conference as an example showing successful 
applications. There are some non-successes. I think it is 
critical to say that NSF has been very pro-active in trying to 
build bridges between the universities and academia. When I 
worked at the NSF in the Decision Risk and Management Sciences 
Program, I basically was concerned with a program that 
explicitly kept matching grants between, you know, NSF and 
industry to fund academic research. I was also involved with 
administering some of NSF's small business initiation grants. 
There is a lot of important bridges that NSF has built. 
Obviously we can strengthen them and develop other kinds of 
things. For example, one of my thoughts is we might have a 
faculty in residence kind of program, you know, in different 
kinds of corporations because a lot of times the questions 
that, you know, industry people have aren't easy to formalize. 
If you have an acknowledge scholar there, oftentimes they can 
lend perspective because you really oftentimes can't 
communicate your problem via an email.
    Chairman Baird. Dr. Bordley, I am going to ask you to wrap 
up a little early. We are going to have a vote in about 15 
minutes, so in order to make sure everybody gets to ask some 
level of questions, then I am going to ask you to----
    Mr. Bordley. All right. That actually finishes my 
testimony. A lot has been done. NSF deserves high praise for 
what has been done, but a lot more could be done. Thank you.
    [The prepared statement of Dr. Bordley follows:]
                Prepared Statement of Robert F. Bordley
    Mr. Chairman and Committee Members, thank you for the opportunity 
to testify today on behalf of General Motors. I am Bob Bordley, a GM 
Technical Fellow. I am working in GM R&D and Strategic Initiatives 
Group. The Committee asked me to respond to the following questions:

1.  Please describe the type of market research you do for GM and how 
your background and experience as a social scientist influences your 
work.

    I have been employed at GM since 1978. My marketing research work 
includes:

(1)  Estimating the change in product demand given changes in product 
prices. This work draws heavily on conventional economics.

(2)  Grouping products into segments (e.g., small, mid-sized, etc.) 
based on which products customers consider comparable. (This addresses 
questions like: do people first decide they want a vehicle made by a 
certain manufacturer and then shop among the available vehicles made by 
the manufacturer or do they first decide they want a mid-sized vehicle 
and then look across manufacturers in determining which mid-sized 
products they will consider? It is based on psychological work on how 
individuals decide which items are similar.

(3)  Grouping customers into segments (e.g., lower income people with 
large families, people who want some style but are price-sensitive, 
people who are want a vehicle that conveys status, etc.) This draws 
mainly on the socioeconomic literature about the different social 
classes in America, their needs for a vehicle (if they have large 
families or need towing capacity) as well as whether they view the 
vehicle as merely a means of transportation, an expression of 
personality or status, or something they want to enjoy.

(4)  Modeling demand for products as a function of all the major 
attributes of the product: performance, comfort, appearance, price, 
etc. This draws mainly on the economic and statistical literature.

(5)  Modeling the decision process by which customers

(5.1)  Become aware of a product: (How much can advertising affect 
awareness?) This works draws heavily on psychology.

(5.2)  Come to seriously consider the product: (Given the hundreds of 
products available, what are the simple criteria people use for 
winnowing the set of choices down to a manageable set of choices? Do 
they screen out vehicles with a poor image for quality, a poor image 
for environmental-friendliness, etc.?) This draws on the psychological 
and sociological literature on how products acquire an image and 
reputation.

(5.3)  Come to shop for a product (Do people visit a lot of dealers or 
a few? How much does the increased availability of information on the 
internet affect the shopping process?) This is an economic/
psychological question.

(5.4)  Come to buy the product. (What kinds of products should a dealer 
have on their lot to maximize the chances of having what the customer 
needs? What kinds of financial offers are more attractive in sealing 
the deal? How should dealers determine how best to approach each 
customer since some customers are very detail-oriented, others are more 
holistically oriented?) Some of these questions draw on economics, 
others draw on areas of psychology that are still being researched.

(6)  Modeling the impact of advisor recommendations on the products 
customers seriously consider. (Recommendations come from the Internet, 
consumers report and other magazines, automotive magazines, word of 
mouth, etc.) This is still an area of considerable research by 
psychologists and marketing researchers. What sources of information do 
people trust?

(7)  Understanding the differences between work practices in different 
dealerships and how those different work practices lead to better or 
worse dealer performance. In this kind of problem, the dealership is 
often treated as a special `culture' which is studied using adaptations 
of methods in cultural anthropology.

2.  What has social science research revealed about factors that 
influence an individual's vehicle purchasing decisions? What questions 
remain unanswered? Have you looked specifically at the issue of fuel 
economy?

(1)  Developments in economic and psychological methodology on models 
predicting individual choices and how those models can be best 
estimated have been central to modeling customer demand. The economist, 
McFadden, was awarded a Nobel Prize because of his central role in 
creating many of these models. The mathematical psychologist, Duncan 
Luce, received the National Medal of Science for his role in creating 
the building block that led to McFadden's work. These models help GM 
understand, for example, the relative importance of quality, 
performance, roominess, fuel economy, and price in affecting a 
customer's chance of buying a vehicle. We also employ direct assessment 
techniques for trying to assess customer willingness to pay for these 
attributes (as well as for specific features like OnStar.) Conducting 
these clinics is based on methodologies developed in psychology. The 
company also conducts massive surveys and, once again, psychological 
theories about how questions should be asked in surveys have been very 
important.

(2)  The whole question of how the Internet has reshaped the purchasing 
process is a very active area of current research--to which noone has 
yet developed a definitive answer. Does the Internet shape customer 
preferences to focus on attributes that are more communicable on the 
Internet (e.g., cost and quality ratings) versus less communicable 
attributes (like vehicle styling and the interior comfort of its 
seats)?

(3)  I myself have not specifically looked at the issue of fuel 
economy.

3.  How are recent breakthroughs in research incorporated into 
marketing or business strategies? What role might the National Science 
Foundation play in building bridges between academic social science 
researchers and government and industry policy-makers?

(1)  The previous models assume that individuals are rational. Research 
in both economics and psychology (e.g., the Nobel-Prize winning work of 
economist, Vernon Smith, and psychologist, Daniel Kahneman as well as 
Herb Simon) has strongly undermined that perspective. This suggests 
that the entire paradigm may potentially have to be rethought on the 
basis of a psychologically sounder understanding of human behavior.

(2)  There are clearly some success stories in industry/university 
collaboration as well as many more stories of non-success. The fact 
that a paper gets published in a journal which cites industry support 
and funding for the project definitely provides no guarantee that the 
research was ever used (or even looked at) by the sponsoring company. 
However the Edelman competition of the Institute of Operations Research 
and Management Sciences provides many examples of clearcut successes 
where universities were often involved. We need to learn from these and 
other success stories.

      It would be wrong to say that NSF has not already built some 
bridges between university and industry. The Decision Risk and 
Management Sciences Program of the National Science Foundation, when I 
was a program director there, had a program that was explicitly 
concerned with funding research with matching support from industry. 
NSF also has small business initiation grants that are explicitly 
focused on trying to encouraging technology. I administered some of 
those grant proposals and felt that this program was also very useful. 
(This is probably also true for other NSF programs with which I am not 
directly familiar.) We need to look at these existing programs, 
understand both what is successful about them and what is less 
successful about them, so that we can strengthen the bridges which NSF 
has already tried to build.

(3)  Here is another thought: We might imagine moving to a model where 
a person with an endowed chair by a certain company would be committed 
to physically spending a certain number of days a week on-site in that 
company's location or on-site at the location of a consortium where 
industry practitioners would have direct access. Currently endowed 
chairs are mainly housed in universities where their occupants are more 
removed from the specific needs to industry. While it's important to 
have some time spent in isolation from the practical problem--in order 
to think about it--it's also important to have some time spent directly 
involved in the practical problem. A practical problem is frequently 
not something that can be communicated from an industry person to an 
academic with a short e-mail. And even when it is successfully 
communicated by e-mail, the academic solution to that problem often 
turns out to be too late and too complicated to address the real 
practical issue. The Center for Naval Analysis used to have a program 
(and might still have a program) where researchers were rotated between 
the research labs to work onboard a ship in order that they retain a 
real feel for the needs of industry.

       So a lot has been done to build bridges and NSF deserves high 
praise for its accomplishments. But there is more that could be done.

                    Biography for Robert F. Bordley

CAREER SUMMARY

    A Dominican Lay Scholar with extensive experience in developing, 
applying and managing statistical, decision analysis and operations 
management models.

WORK EXPERIENCE

2007-Present, GM Technical Fellow, Operations Research Group, Warren, 
        MI

2006-2007, GM Technical Fellow, Vehicle Development Research 
        Laboratory, Warren, MI. Received Award for Best Decision 
        Analysis Publication. Supply Chain Design: Determined how GM's 
        supply chain should react if GM had a sudden need to add 
        production of a foreign vehicle at an existing plant (Part of 
        Global Flex initiative). Product Development: Quantified 
        Impacts of late engine changes using design structure matrix 
        and workload model. Reanalyzed models relating vehicle 
        attributes and customer attributes. Developed an alternative 
        approach to robust design optimization based on decision 
        analysis.

2003-2006, GM Technical Fellow, GM NA Product Development Center, 
        Warren, MI. Health Care Costs: Worked with corporate strategy 
        to model the drivers of GM's health care costs. Results led to 
        reductions in brand drug coverage, initiatives on coordination 
        of benefits and other efforts. Product Development: Modeled 
        GM's new product development process to identify sources of 
        cost and waste. Particularly targeted opportunities for 
        reducing rework. Led to initiatives focused on reducing product 
        content change.

GM Proving Grounds, Milford, MI. GMNA Award for Creative & Incredible 
        Performance in Engineering Design. Updating GM problem 
        remediation tools (e.g., control charts) and testing by 
        applying to root causes various product problems (fuel caps, 
        fuel pumps, rattling, ignition switches, blower motors). Using 
        Statistical Analysis to Properly Target Welcome Call 
        Initiative. Helped specify when calls would be made and the 
        vehicles to be emphasized.

Received 2004 Chairman's Honors Award (savings>$360M/yr) and currently 
        exceeding $1B.

GM Global Engineering Center, Pontiac, MI. Used influence diagrams to 
        identify the key drivers of GM warranty costs.

        <bullet>  Modeled the drivers of GM's JD Power Score. Results 
        led to more headcount focused on root cause analysis.

        <bullet>  Developed overall warranty cost driver model.

        <bullet>  Led team receiving 2002 GM's People Make Quality 
        Happen Award. (Realized savings: 250M/yr)

        <bullet>  Developed battery warranty cost driver model. 
        Potential Cost savings of $30M/yr identified. Company switched 
        to more heat-resistant battery design, consistent with model 
        recommendations. Developed models for ground warranty, brake 
        warranty, powertrain control modules.

Enterprise Customer Network, Detroit, MI.

        <bullet>  Developed model of drivers of customer loyalty to 
        assist in formation of GM's CRM strategy.

1998-2002, Technical Director, GM Corporate Strategy & Knowledge 
        Development, Detroit, MI. Provide technical support in decision 
        analysis and marketing to strategy formulation and operations 
        improvement projects.

        <bullet>  Validated and implemented algorithm creating current 
        product segmentation.

        <bullet>  Used statistical analysis to identify key drivers of 
        dealer dissatisfaction, leading to development of best 
        practices for improving VSSM dealer relations. Subsequent 
        corporate focus on these drivers improved GM's dealer 
        satisfaction from worst in the industry to average

        <bullet>  Developed marketing modules of enterprise model 
        commissioned by Strategy Board, including modules to value the 
        impact of changing the number of GM product entries and to 
        project GM's long-run share given current policies.

        <bullet>  Conducted statistical analyses supporting the design 
        of GM web tool, AUTOCHOICE.

        <bullet>  As part of a three-person team, guided the use of 
        CART software for revising GM's needs segmentation.

        <bullet>  Developed a panel on social cycles as part of 
        creation of New Product Concepts war room. Team received 1998 
        President's Council Award.

        <bullet>  Led successful Dialogue Decision Process projects in 
        technology partnering, information technology and procurement.

        <bullet>  Used Enterprise Miner to prove that the current needs 
        segmentation is more accurate than Claritas or demographic 
        segmentations.

        <bullet>  Developed a 120-page overview of the approaches used 
        by 60 major corporate strategists.

1993-1997, GM Vehicle Development & Technical Operations, Warren, MI. 
        Manager, Portfolio Planning Department. Coordinated the review 
        & documentation of GM's R&D projects.

        <bullet>  Led decision analysis on more than 50 R&D projects. 
        Work stimulated dramatic changes in some projects. Team 
        received GM Award of Excellence in 1994.

        <bullet>  Managed creation of a database to enable customers to 
        access GM R&D projects more easily.

        <bullet>  Managed the implementation of new project budgeting 
        system.

1991-1993, GM Research & Development, Warren, MI. Manager, Management & 
        Marketing Sciences. Managed a team of 12 R&D professionals.

        <bullet>  Managed development of a model prioritizing product 
        problems based on their impact on product repurchases.

        <bullet>  Developed the mathematical model that was the basis 
        of Pricewar, a widely used GM product pricing software package.

1990-1991, National Science Foundation, Washington, D.C. Director, 
        Decision, Risk & Management Science Program. Administered 
        review and recommended awards of grants from a $3 million 
        budget.

        <bullet>  With other grant officers, successfully lobbied for 
        creation of a social sciences directorate at NSF.

        <bullet>  Awarded first grants to industry as part of NSF's 
        private sector initiative.

        <bullet>  Successfully championed the funding of educational 
        grants to teach students decision-making.

        <bullet>  Successfully lobbied for doubling the research budget 
        on biotechnology social impact research.

1987-1990, Operating Sciences Department, GM Research Laboratories, 
        Warren, MI. Manager, Decision Support Systems. Managed a 
        diverse team of nine professionals in marketing, intelligence 
        vehicles and risk analysis.

        <bullet>  Managed development of first needs-based 
        segmentation.

        <bullet>  Managed development of in-vehicle navigation system.

1985-1987, GM Trilby Vehicle Design Project, Troy, MI. Supervisor, 
        Mission Analysis Group. Managed a four-person team developing a 
        mission statement for the Trilby prototype vehicle.

        <bullet>  Led business case analysis for proposed new vehicle.

        <bullet>  Developed a template specifying how the ``voice of 
        the customer'' could feed into vehicle engineering.

1982-1985, Societal Analysis Department, GM Research Laboratories, 
        Warren, MI. Staff Research Engineer. 1978-1981, Associate 
        Senior Research Engineer. Conducted research & consulting work 
        in economics, finance and environment.

        <bullet>  Discovered the importance of second choice data in 
        potentially segmenting products. This idea was central to the 
        development of GM's initial product segmentation.

        <bullet>  Developed a model of air pollution for Environmental 
        Activities Staff.

TEACHING EXPERIENCE

2002-present, Adjunct Professor, Industrial & Operations Engineering 
        Department, University of Michigan Ann Arbor, MI. Taught Course 
        in Decision Analysis.

2000-2002, University of Michigan, Dearborn, MI. Adjunct, Lecturer, 
        School of Management. Taught Courses in Operations Management.

1995-2000, Oakland University, Rochester, MI. Adjunct Full Professor, 
        Systems Engineering Department. Taught courses in engineering 
        risk analysis at Oakland University campus. Taught courses at 
        Vienna on behalf of Oakland University and Vienna Technical 
        University.

1996-1998, Wharton, Philadelphia, PA. Guest Lecturer, Marketing.

EDUCATION

2005, Sacred Heart Seminar, Detroit, MI. Master of Arts in Pastoral 
        Studies (summa cum laude).

1979, University of California, Berkeley, CA. Ph.D., Industrial 
        Engineering & Operations Research. Thesis: ``Studies in 
        Mathematical Group Decision Theory'' (Dr. T. Marschak). Awarded 
        3-Year National Science Foundation Fellowship.

1979, MBA, Finance.

1977, MS, Industrial Engineering & Operations Research.

1976, Michigan State University, Lansing, MI. MS Systems Science with 
        specialty in Economic Systems.

1976, BA in Public Policy. Graduated Magna cum Laude.

1975, BS, Physics. Awarded 4-Year Full Scholarship, National Merit 
        Scholarship.

REFEREED PUBLICATIONS

(74) ``How to Make Risky Decisions Visually.'' Visual Communication, 
        2007.

(73) ``Statistical Decision Making without Math.'' Chance, 2007.

(72) ``The Rosary and RCIA''. Catechumenate, 2006.

(71) ``Econophysics and Individual Choice.'' Physica A: Statistical 
        Mechanics and its Applications. Vol. 354. pg. 479, Elsevier, 
        2005.

(70) ``Multiattribute Preference Analysis with Performance Targets.'' 
        Operations Research. (Vol.5, 6) Nov-Dec, 2004.

(69) ``Reformulating Decision Theory using Fuzzy Set Theory and 
        Shafer's Theory of Evidence.'' Fuzzy Sets and Systems. 139, 2 
        (October, 2003), 243-266.

(68) ``Determining the Appropriate Depth and Breadth of a Product 
        Portfolio.'' Journal of Marketing Research, Spring, 2003.

(67) ``Decision Rings: Making Decision Trees Visual & non-
        Mathematical'' INFORMS Transactions on Education, 2002, Vol. 2, 
        No. 3, http://ite.informs.org/Vol2No3/Bordley/

(66) ``Representing Trees using Microsoft Doughnut Charts.'' American 
        Statistician, 56, 2, 1, 2002.

(65) ``Relating Value-Focused Thinking and Interactive Planning.'' 
        Journal of the Operational Research Society, December, 2001.

(64) ``Foundations of Target-Based Decision Analysis.'' 2002, in 
        Encyclopedia of Life Support Systems, EOLSS Publishers, Oxford, 
        UK. www.eolss.net.

(63) ``Teaching Decision Theory in Applied Statistics Course.'' Journal 
        of Statistical Education, Vol. 9, #2, 2001.

(62) ``Integrating Gap Analysis and Utility Theory in Service 
        Research,'' Journal of Service Research, March, 2001.

(61) ``Naturalistic Decisionmaking and Prescriptive Decision Theory,'' 
        Journal of Behavioral Decision-making, 2001.

(60) (with L. Calzi) ``Decision Analysis using Targets instead of 
        Utility Functions.'' Decisions in Economics and Finance. 23, 
        53-74, 2000.

(59) (with J. Kadane). ``Experiment-Dependent Priors in Psychology and 
        Physics.'' Theory & Decision. December, 1999.

(58) (with Dennis Blumenfeld and Mark Beltramo.) ``Consolidating 
        Distribution Centers can Reduce Lost Sales.'' International 
        Journal of Production Economics, 1998.

(57) ``R&D Project Generation versus R&D Project Selection.'' IEEE 
        Transactions in Engineering Mgt. December, 1998.

(56) ``Keeping it Sophisticatedly Simple in R&D Management.'' 
        Engineering Economist, 1998.

(55) ``Stochastic Mechanics & Classical Mechanics with Finite 
        Differences.'' Journal of the Physical Society of Japan 66, 10, 
        1997.

(54) ``Teaching Precalculus Classical Mechanics instead of a Calculus-
        Based Classical Mechanics.'' European Journal of Physics. #5, 
        9, 1997, pg. 327-333.

(53) ``Quantum Mechanical and Human Violations of Compound Probability 
        Principles: Toward a Generalized Heisenberg Uncertainty 
        Principle.'' Operations Research. November, 1998.

(52) ``Filling in Incomplete Survey Responses.'' Communications in 
        Statistics: Simulation & Computation, 26, 4, 1997.

(51) ``Experiment-Dependent Probabilities in Quantum Mechanics & 
        Psychology,'' Physics Essays. 10, #3, 1997.

(50) ``Discrete-time General Relativity & Hyperspace,'' in Il Nuovo 
        Cimento, 1997.

(49) (with Ron Harstad.) ``Lottery Qualification Auctions,'' in Bayes, 
        M. (ed.) Advances in Applied Micro-economics: Auctions, Volume 
        6, JAI Press, 1996.

(48) (with Jim McDonald, Anand Mantrala).``Something New, Something 
        Old: Parametric Models for the Size of Distribution of Income. 
        3Journal of Income Distribution, 6, 1, 1996.

(47) ``Relating Probability Amplitude Mechanics to Standard Statistical 
        Models.'' Physics Letters A. 204, 26-32 (1995).

(46) ``Modeling Unforseen Events with Similarity Templates Changes 
        Bayesian Probabilities into Pignistic Probabilities.'' 
        International Journal of Approximate Reasoning (1995).

(45) ``Possible Convexity of the Indirect Utility Due to Nonlinear 
        Budget Constraints.'' Economic Letters, (1994).

(44) `` Making Social Tradeoffs Among Lives, Disabilities and Costs.'' 
        Journal of Risk and Uncertainty, 9, 2 (1994), 135-150.

(43) ``An Overlapping Choice Set Model of Automotive Elasticities.'' 
        Transportation Research, 28B, 6 (1994), 401-408.

(42) ``Estimating Automotive Elasticities from Segment Elasticities and 
        First Choice/Second Choice Data.'' Review of Economics and 
        Statistics. 3, August, 1993, 455-462.

(41) (with Jim McDonald). ``Estimating Aggregate Automotive Income-
        Elasticities from the Population Income-Share Elasticity.'' 
        Journal of Business and Economic Statistics, 2 (1993).

(40) ``An Intransitive Expectations-Dependent Variant of Prospect 
        Theory.'' Journal of Risk and Uncertainty, 5 (1992).

(39) (with G. Hazen) ``Nonlinear Utility Models Implied by Small World 
        Intercorrelations.'' Management Science, (1992).

(38) (with G. Hazen). ``Intertemporal Risk-Aversion and Calibration 
        Uncertainty May Explain Violations of the Independence Axiom.'' 
        in J. Geweke. Decision-Making under Risk and Uncertainty: New 
        Models and Empirical Findings. Kluwer Academic Publishers, 
        London, 1992.

(37) ``The Dogit Model is Applicable even without Perfectly Captive 
        Buyers.'' Transportation Research, (1990).

(36) (with G. Hazen)``SSB & Weighted Linear Utility as Expected Utility 
        with Suspicion.'' Management Science, 4, 1990.

(35) ``Discounted Longevity as a Risk-Reduction Measure.'' Operations 
        Research 38, 5, (1990), 815-819.

(34) ``Relaxing the Loyalty Assumption in the Colombo/Morrison Model.'' 
        Marketing Science, (1989).

(33) ``An Intertemporal Utility Function Concave in Gains and Convex in 
        Losses.'' In Annals of Operations Research (ed. By I. LaValle & 
        P. Fishburn, 1989).

(32) ``Fuzzy Set Theory, Observer Bias and Probability Theory.'' Fuzzy 
        Sets and Systems. (1989).

(31) ``Reflection as an Explanation of Bell's Inequality Violations.'' 
        Physics Letters (1989).

(30) ``Generating Market Elasticity Estimates Using Cross-Sectional 
        First and Second Choice Data.'' Journal of Business and 
        Economic Statistics (1988).

(29) ``An Additive Group Utility for a Funds Manager.'' Management 
        Science, 34, 7, (1988), 835-842.

(28) ``The Energy Function in Optimal Control Theory.'' Journal of 
        Optimization Theory and Applications, 57, 3, 1988.

(27) ``The Cost of Delayed Lottery-Resolution.'' Operations Research, 
        36, 1 (1988).

(26) ``The Sum of Two Bell-Shaped Curves Can Be Sinusoidal.'' Physics 
        Letters (1987).

(25) ``An Intuitive Form of Non-localism for Quantum Mechanics.'' 
        Physics Letters (1987).

(24) ``Satiation and Habit Persistence (or the Dieter's Dilemma).'' 
        Journal of Economic Theory (1986).

(23) ``Linear Combination of Forecasts with an Intercept: A Bayesian 
        Approach.'' Journal of Forecasting (1986).

(22) ``One Person/One Vote is not Optimal given Information on 
        Factions.'' Theory and Decision (1986).

(21) ``Higher Derivatives of Velocity and Quantum Mechanics.'' Physics 
        Letters (1986).

(20) ``Comparing Different Decision Rules: A Simulation.'' Behavioral 
        Science 10 (1985).

(19) ``Using Factions to Estimate Preference Intensity: An Argument 
        Against One Person/One Vote.'' Public Choice 3 (1985).

(18) ``A Precise Method for Evaluating Election Schemes.'' Public 
        Choice 2 (1985).

(17) ``Relating Elasticities to Changes in Demand.'' Journal of 
        Business and Economic Statistics (Summer, 1985).

(16) ``A Model of Risky Shift.'' Organizational Behavior and Human 
        Performance (December, 1983).

(15) ``Deriving the Schroedinger Equation and Hamilton's Principle from 
        Generalized Consistency Conditions.'' International Journal of 
        Theoretical Physics 9 (1983).

(14) ``A Pragmatic Approach to Evaluating Election Schemes through 
        Simulation.'' American Political Science Review 3, (March, 
        1983), 123-141.

(13) ``A Central Principle of Science:Optimization.'' Behavioral 
        Science (January, 1983).

(12) ``A Standard (Non-Quantum) Probability Model of Quantum 
        Behavior.'' Journal of Mathematical Physics 9 (1983).

(11) ``The Combination of Forecasts: A Bayesian Approach.'' Journal of 
        the Operational Research Society (Feb., 1982).

(10) ``A Multiplicative Formula for Aggregating Probability 
        Estimates.'' Management Science 10 (1982).

(9) ``Deducing Warr's Power Function.'' Social Forces (September, 
        1982).

(8) (with Ron Wolff). ``The Aggregation of Individual Probability 
        Estimates. Management Science (August, 1982).

INVITED PUBLICATIONS

(7) ``The Psychology of Individual Choice.'' Proceedings of the 
        American Statistical Association. American Statistical 
        Association, Alexandria, Virginia (1993).

(6) ``Murphy's Law and Non-Informative Priors.'' in C.R. Smith (ed.) 
        Maximum Entropy & Bayesian Methods. Seattle, Washington, 1991.

(5) ``Bayesian Group Decision Theory.'' in B. Grofman & G. Owen. 
        Information Pooling and Group Decision-making. Decision 
        Research Series. Jai Publishers, London (1986).

(4) Book Review of `Rationality & Consensus in Science and Society.'' 
        Nous (December, 1986).

(3) Book Review of Shapira. ``Risk-Taking: A Managerial Perspective. 
        Interfaces July, 1996.

(2) Book Review of Bell & Schleiffer. ``Risk-Management'' Interfaces 
        Sept. 1996

(1) ``Quantifying Societal Concerns in R&D Project Selection'' in M. 
        Shahinpoor & J. Weinrhach. Environmentally Conscious Design & 
        Manufacturing. ECM Press, New Mexico, 1996.

PROFESSIONAL ACTIVITIES

AMERICAN STATISTICAL ASSOCIATION
Program Chair, Section on Marketing in Statistics, American Statistical 
        Association, 2002-2004

General Chair, Section on Risk Analysis American Statistical 
        Association, 1997-99

Program Chair, Risk Analysis Section, American Statistical Association, 
        1996-97

Program Chair, Risk Analysis Section, American Statistical Association, 
        1995-96

Member, Council of Representatives(for Risk Analysis), American Stat. 
        Association, 1994

Member, Council of Sciences, International Society for Bayesian 
        Analysis, 1994-1995

Session Chair, 1987, International Society of Forecasting

Session Chair, 1989, Southern Economic Association Meeting

Program Committee, International Symposium on Automotive Technology & 
        Automation

Advisor on NSF Contract

INFORMS Society

Councilmember, Decision Analysis Society, 2002-2005

Chair, INFORMS Award Committee for the Teaching of Practice

Councilmember, Institute for Operations Research & Management Science 
        (INFORMS), 1995.

Councilmember, Operations Research Society of America (ORSA), 1994

Member, Management Sciences Roundtable (Member, Membership 
        Subcommittee)

Chair, Marketing Strategy Committee, Institute of Management Sciences 
        (TIMS), 1993-94

Co-Chair, Fall 1994 TIMS/ORSA Program Committee(Responsible for invited 
        papers)

Member, Meetings Committee, INFORMS, 1995

Councilmember, ORSA/TIMS Decision Analysis Section (1987-1990).

Chair, ORSA/TIMS Marketing Strategy Committee (1993-1994)

Decision Analysis Cluster Chair, 1987, 1994 TIMS/ORSA Meetings

Session Chair: 1985, 1986, 1988, 1992 TIMS/ORSA Meetings

Vice-President, Southeast Michigan Chapter of ORSA/TIMS, 1992-1995

Secretary, Southeast Michigan Chapter of ORSA/TIMS, 1987

Co-Founder, Southeast Michigan Chapter

American Marketing Association

Review Board, Journal of Marketing

Ad Hoc Reviewer, Management Science, Jr. of Academy of Mgt., Production 
        & Operat. Mgt. Soc., etc.

PRODUCTION & OPERATIONS MGT SOCIETY

Vice-President for Publications, Production & Operations Mgt. Society 
        (1999-2000)

Vice-President for Finance, Production & Operations Mgt. Society (1995-
        1996)

Member, Board of Governors, Production & Operations Mgt. Society (1992-
        1994)

Area Editor, Production & Operations Mgt. Journal (1993-1995)

Member, Josephy Orlicky Operations Mgt. Award Committee (1993)

GOVT. COMMITTEES

National Advisory Council on Environmental Policy--Envir. Protection 
        Agency

Member, Pollution Measurement Subcommittee

Chairperson, Materials Accounting Data Working Party

Member, Toxic Data Reporting Subcommittee

ALUMNI ASSOCIATIONS

James Madison College, Michigan State University

Alumni Association President, 1985-88, Boardmember, 1981-83, Vice-
        President, 1984-85

Vice-Chair, James Madison College Board of Visitors, 1995-1997

Chair, Program Committee, James Madison College Board of Visitors, 
        1997-1998

Delivered many papers at

TIMS/ORSA, International Federation of Operations Research, 
        International Society of Forecasting, Public Choice, Bayesian 
        Research Conference, American Physical Society, Economic 
        Sciences & Public Choice Conference, Foundations of Utility & 
        Risk Conference, Judgement/Decision-making Conference, NBER-NSF 
        Seminar on Bayesian Inference in Econometrics & Statistics, 
        University of Chicago, Northwestern University, University of 
        Michigan, University of Arizona, University of California at 
        Irvine.

Ad Hoc Reviewer for

Physics Letters, IEEE Transactions, JASA, Mgt. Science, International 
        Economic Review, American Political Science Review, Journal of 
        Risk and Uncertainty, National Science Foundation grant 
        applications, Kentucky Planning Office grant applications.

Society Memberships:

Institute for Operations Research & Mgt. Science

Society for Risk Assessment

International Society for Bayesian Analysis

American Physical Society

International Platform Association

Royal Economic Society

American Economic Association

Public Choice Society

American Statistical Association

Phi Beta Kappa

Judgment/Decision-Making Society

Phi Kappa Phi

FELLOWSHIPS/HONORS

National Merit Scholarship

National Science Foundation 3-Year Fellowship

Alumni Distinguished Scholarship, Michigan State University

Lilly Fellowship

Award of Excellence, General Motors R&D, for R&D Project Selection 
        Process

1998 President's Council Award, General Motors Corporation, for work on 
        Portfolio Concepts Process

2002 UAW-GM People Make Quality Happen Award

2003: GMNA Award for Creative & Incredible Performance in Engineering 
        Design

2004 GM Chairman's Honors

2006 Decision Analysis Publication Award

                               Discussion

    Chairman Baird. Thank you very much. Thanks to all our 
witnesses. I want to welcome Dr. Roscoe Bartlett to our panel 
here. Thank you very much, Dr. Bartlett. We have also been 
joined by Dan Lipinski. Thanks, Dan, for being here. I am 
sorry, Dr. Dan Lipinski. One of the nice things about this 
committee is we actually have people who know something about 
science on it which is a nice thing. Jerry McNerney is telling 
me he has to leave fairly shortly, so I am going to yield my 
first five minutes to Dr. McNerney. First question.
    Mr. McNerney. Thank you, Mr. Chairman. I have to say, I 
found your testimony very interesting and stimulating; and from 
what it sounds like, we need to develop a herd mentality toward 
conservation and develop strongly held beliefs. Of course this 
is something that we want to move toward in bringing 
conservation and good behavior about. Modeling is an important 
part of that. Could you tell me, Dr. Bordley, and maybe any of 
the other witnesses, what state are we at in terms of modeling 
behavior of society as a whole in terms of directing behavior 
towards something like more conservation behavior or attitudes? 
Is that something we can get our hands around? Is that 
something we need to have more funding in to get more students 
involved in it or where are we with that?
    Dr. Bordley. Right now, obviously we have got a lot of 
modeling. For example, Nick's multi-logent models to try to 
better understand customer behavior and make kinds of 
decisions. We are clearly--obviously we are clearly not exactly 
on the mark in predicting people's behavior as well as we would 
like. You have big fluctuations, like oil price changes can 
come up and dramatically change the market. I mean, you get hit 
with curve balls.
    So we have an awful lot of work going on in the modeling. 
We are drawing on all the social sciences, and quite honestly, 
we are nowhere near where we would like to be in terms of 
accurate models. We are a lot better than where we were five or 
seven years ago, but it is definitely an area of current 
research; and we pay very close attention to the evolving 
social sciences to develop better models.
    Inputs to models are always a big issue and uncertainty 
about inputs, too. You know, you don't understand all the 
things that are driving customer behavior, what kinds of search 
advisors they are looking at. So there is a lot of things that 
make modeling hard as well as the proper assumptions to make 
about customer behavior, which is why those realization that 
customers don't follow economic rationalities to--you know, big 
deal for us.
    Mr. McNerney. One other question to give more time. The 
modeling is an important tool, but our influence in the fed is 
also an important tool. How can we make policy that would 
influence the automakers and the other manufacturers to make 
the right choices because they have a lot of leeway in terms of 
how they direct customers? I mean, you see advertisements where 
they are promoting SUV's, big vehicle purchases. How can we and 
the fed influence the manufacturers to make the choices to 
direct their customers toward conservation?
    Dr. Bordley. Well, I guess one of the things unfortunately 
is we found that as I mentioned the internet, Consumers Report, 
whatever. Increasingly people are looking to information 
sources outside of General Motors or the car makers in 
evaluating basically what kinds of vehicles they are going to 
buy. You know, Consumers Report is strongly influential, 
basically. You have Kelly Blue Book, lots of sources out there. 
So advertising is still a factor but it is nowhere near as 
important as it used to be, and we are finding to some extent 
that, you know, we are in a very competitive market. Things 
have just changed so much, and so, you know----
    Dr. Cialdini. Dr. McNerney, I might have an answer as well 
for that question and that is in the messaging literature, in 
fact, we just heard about Dr. Kahneman who won the Nobel Prize 
a few years ago. His theory, a prospect theory, suggests that 
if we inform an audience what they stand to lose if they fail 
to move in the direction that we are suggesting, that will be 
more mobilizing than telling them what they stand to gain if 
they do move in that direction.
    So our message to the large automobile manufacturers can be 
structured and framed in terms of what stands to be lost, what 
will be missed if they fail to take the action, rather than 
what kinds of gains they will attain if they do.
    Mr. Laitner. Dr. McNerney, if I might, I am a modeler. I 
spent 10 years with the USEPA doing modeling, and I left the 
agency because I think they are pursuing a very bad practice of 
economic modeling. Their models tend to assume, for example, 
what they call the full employment assumption. You may think it 
is jobs, but to an economist that means that all resources, 
whether capital, whether labor, or energy, are fully utilized 
and already efficiently allocated. So along comes Congress and 
wants to do something about climate or energy policy or 
international security, their models by definition imply a net 
cost to the economy because we are already optimal, anything we 
do must impose a cost. But in fact, I think we would recognize 
that there are so many inefficiencies throughout the economy 
that if their models had a better ability to capture the 
technologies already available to us and the behaviors that 
could see a different way of doing things, a different way of 
innovating, a different way of adopting technologies, you might 
have a more satisfying outcome; and one of the things I think 
this subcommittee could do is send a signal to the economic 
modeling community and say, hey, there are better technologies 
your models are not capturing. There are better behaviors that 
you could be implementing and better policies than the price 
signal alone you could be incorporating in your modeling 
efforts, and you would see a much more satisfying end result. 
As an example, finally, modelers tend to use what we call a 
constant elasticity of substitution. You can imagine invariant 
over time the same elasticity regardless of changes in 
perception, availability of technology, changes of incomes. 
That is not a very satisfying way to provide you with the kind 
of policy insights you may require to know what better policies 
make sense for this economy.
    Chairman Baird. We see that also in health care policy, 
dramatically illustrated there. Dr. Ehlers.
    Mr. Ehlers. Thank you. It is fascinating to listen to this 
and imagine what we could be doing. Of course, some folks would 
consider this mind control. I would prefer to consider it as 
unleashing the mind, getting it away from built-in prejudices. 
But what I am curious, and this is for all of you, what role do 
you see the Federal Government playing in changing consumer 
behavior, particularly as it applies to energy usage and 
dealing with the energy situation we have today? Any 
suggestions, recommendations, et cetera?
    Dr. Bordley. I guess I had a thought that I raised with the 
Chairman beforehand which is you like to look for win-win 
situations, you know, where the customer wins and the 
environment wins. One of the things that people don't like is 
being stuck in traffic jams, and they don't like stopping and 
starting at various traffic lights. And there is a continuing 
effort, you know, in traffic science, you know, this whole 
business about trying to help coordinate when people leave on 
trips so they avoid congestion and get to their routes more 
efficiently and more effectively. It is a win-win situation. 
The advent of the internet, which as I mentioned is a real big, 
major deal in the car industry, allows for a lot more improved 
communication and coordination between individuals that allows 
them to, for example, avoid traffic jams, you know, and spend 
less time at stopping lights and so on and so forth. The advent 
of technologies like OnStar that allow you to communicate with 
the vehicle likewise improves that. So there is an example I 
think of one thing that can happen to encourage that kind of 
coordination so people, you know, waste less time in traffic 
jams or at stop lights and at the same time waste less fuel, 
you know, win-win for all concerned using the coordination 
powers of the Internet.
    Mr. Ehlers. But if you succeed at that then my method won't 
work. My method is to try to do what most people don't do. That 
is why I come to work before most people and go home after most 
people do. That is not a very popular alternative, but it 
certainly gets me both ways much faster.
    Dr. Bordley. That is where the social sciences really come 
in because obviously if we all do the same thing, we are all 
going to be in the same traffic jam. So the question is, it is 
almost like auctioning, which is one of the areas of social 
science, you are almost auctioning off the space, like we can 
make an agreement like, for example, the Chairman leaves 10 
minutes early for work, you leave on time for work, I leave 10 
minutes later, we all avoid traffic jams. So some kind of 
coordination. People loosely try to do that, you know, we all 
leave early or whatever as far as that goes. But we can 
coordinate a lot more precisely with the internet, and it will 
take some social science work on auction theory about how to do 
that; but that is one possibility, that technologically we have 
the technology to do it but it is going to take the social 
science issues to figure out how to coordinate among us so we 
can collectively reduce the amount of time we are wasting and 
the amount of energy as well. Does that make sense?
    Mr. Ehlers. Yeah. Any other comments about the role of the 
Federal Government in changing consumer behavior and energy 
issues? Dr. Wegener.
    Dr. Wegener. Thank you. Certainly when the Federal 
Government invests in research, there are a number of ways in 
which that research can make a difference in what you are 
describing. Certainly investing in basic research can provide 
tools to individuals like Dr. Laitner described where they have 
a product but haven't brought it to market, haven't found ways 
to make it work. And basic research that may be across many 
different content domains, health, energy, other types of 
topics, can provide tools for those companies, for those 
marketers and such to take a good product and make it work in 
the marketplace. Certainly the model that we use in the Energy 
Center where I work as well is that in the technology 
development itself, it is a different kind of perhaps research 
investment and maybe for interdisciplinary teams and such 
rather than the basic work, but that can help those technology 
developers to identify and address on line and up front what 
those public obstacles may be, and that will pay dividends down 
the road in the same places. But deal with it before there is a 
product and marketing after the product has been developed, but 
deal with it before the obstacles are encountered.
    Mr. Ehlers. Dr. Ellig.
    Dr. Ellig. Two quick suggestions. One thing the Federal 
Government could do it take a careful look at institutional 
barriers that might be thrown up by other levels of government 
in some cases. For example, if I go home and look at my 
electric bill, the price that I pay for electricity tells me it 
doesn't matter when I use it, whether I use the washing machine 
or the dishwasher at 5:00 on a July afternoon or 2:00 in the 
middle of the night in December, it doesn't matter. And there 
is some significant rigidity introduced by the way electricity 
has been priced in the U.S. which pretty much in many cases 
discourages people from shifting their use to off-peak times 
and doing things that would be energy efficient; and there are 
some experiments out there, both laboratory experiments, and 
experiments in the real world with real consumers that show 
that when people have the opportunity to pay a price that 
varies based on market conditions, they actually do alter their 
behavior and move their use to off-peak times.
    The other thing just thinking about the traffic issue and 
having spent some time in the Federal Government in a 
management position, to the extent that federal agencies can 
better define what they are accomplishing in terms of outcome 
for the public and then link the performance, evaluation, and 
compensation of employees to that, it is easier to let people 
work without much supervision which means it is easier to keep 
people productive when they are telecommuting. I happen to work 
for an institution where we are completely evaluated based on 
what do you accomplish, not when are you in the office, how 
much face time do you have with relevant people. Having been in 
the Federal Government, I know that the idea that you would 
evaluate people based on what they accomplished rather than 
face time, time in the office, number of hours, is foreign to a 
lot of folks even, and it is because of a tremendous focus on 
trying to measure outputs and inputs, rather than actual 
results.
    Mr. Ehlers. And in many cases it is hard to measure either 
one. Thank you.
    Chairman Baird. Dr. Ehlers, thanks very much. We face a 
somewhat similar challenge here in Congress, the issues we are 
talking about, vis-a-vis trying to involve social sciences more 
and the policy-making and actually gain respect for them. In 
the halls of Congress when it comes to NSF funding, we have had 
some interesting battles about whether social science somehow 
would be a second-class citizen in NSF funding.
    I am interested, Dr. Wegener--and you are in an institution 
where they specifically apparently incorporated that. So my 
question would be how would the physicist, the engineers, the 
others interact with you? Have they come to see the value or do 
they say, oh God, now we have got to go talk to those social 
scientists and pretend we care. So I am interested in that, and 
then I would be interested in any of your comments for how your 
disciplines and the insights for your disciplines can help your 
associations and those of us who care about social science can 
convey to our colleagues the importance of this endeavor we are 
talking about. So first, Dr. Wegener, and then open it up.
    Dr. Wegener. Yes, so I deal with those issues every day now 
it seems in terms of--and with mixed results I would have to 
say, that for some of our scientists in other parts of the 
technology development wings of our Energy Center, they 
absolutely understand the need for issues like attitude change 
and consumer behavior, although you might be able to predict 
that some of these areas for example in the area of biofuels 
where some of the technologies that are being developed would 
include genetically modifying cellulosic feed stocks for 
biofuels, for example, have already noted resistance from 
environmental groups and others about that kind of technology. 
And so they understand that there is a human, social aspect to 
the technology development itself. And so they have been eager 
to talk with us about those issues. You might also imagine the 
folks that study nuclear power for example who know that there 
are social pressures and opposition in some cases to that 
technology are certainly interested to talk with us.
    In some other areas, we are just not really on the map for 
those scientists yet, although I have not I would say met a lot 
of real resistance to talking about those issues; but I think 
our successes have been varied and in some predictable ways for 
technologies for which they already notice that there is that 
social issues.
    Dr. Cialdini. I have had success with my colleagues in the 
natural and physical sciences by validating the worth of their 
efforts and suggesting that what we can do is assure that those 
efforts will be implemented and adopted as a consequence of the 
hard work that they have done.
    Mr. Laitner. If I might respond, Mr. Chairman, as an 
economist and a modeler, I think the best way to begin is that 
Kenneth Boldling, an American economist, once commented that 
images of the future are critical to choice-oriented behavior. 
If the modeling doesn't allow different images to unfold in the 
way we might deploy technology, the way we might involve other 
kinds of policy than a mere very high price signal, that we may 
not see any kind of reaction because we are hesitant. We think 
we are going to end up with nothing but a penalty. If your 
model assumes that a $100 investment in a new refrigerator is a 
pure cost as opposed to an investment with a return on it, you 
get a whole different set of results.
    So we are trying to work with sociologists and others to 
understand that we can shift perception on the innovation side 
and that we can shift perception on the consumer side in order 
to facilitate an adoption of technology. So rather than this 
idea of the constant elasticity, behavior that never changes 
regardless of the size of the price, the severity of the 
problem, always the same behavior, we are trying to dissolve 
that and show that there are ways of incorporating different 
behaviors that do result in a positive and a benefit to the 
economy.
    Chairman Baird. If I would apply that argument along with 
the kind of comments from your colleagues to the right, that 
might be the kind of argument we could try to help our 
colleagues here understand, that the efficacy of the investment 
in the physical, engineering, and mathematical sciences will be 
enhanced not detracted from by an investment in the 
corresponding social sciences. And I think that is incumbent 
upon the social sciences themselves to demonstrate that in some 
fashion.
    Dr. Bordley. If I could also speak. I basically--I have 
sort of worked from both ends. I have done most of my work in 
modeling but I have also worked on the other end, you know, 
where you are actually trying to put stuff together and 
everything else like that. Vehicle development or--when you 
take a new technology, basically trying to build a vehicle or 
complex system, there is a very complex coordination system 
among lots of different individuals at various kinds of levels. 
You know, it is a massively complex kind of thing. Individuals 
have different kinds of incentives, this whole project 
management kind of thing. You are talking about thousands of 
people basically, getting down to the actual guys who 
basically, you know, screw on nuts or whatever, take things 
apart and, you know, I have been in both worlds. And I think 
that is an area, you know, technology transfer, I mean, it 
involves people ultimately. We can get distracted about these 
kinds of things and directional things in saying here is a 
great new technology. But translating that into a product that 
can actually be built, you know, cost effectively and made into 
the market by real people. That is a lot of very social 
science, you know, kind of interaction, very complex, and at 
least--I mean, in my mind basically, that is not an area we 
shun at all because that is clearly a big issue. So I think it 
is a very clear area.
    Chairman Baird. Dr. Ellig.
    Dr. Ellig. Yeah, I think graduate education plays a big 
role in how people develop attitudes toward other disciplines, 
toward other tools and so forth. And so to the extent that we 
can get graduate-level education for social sciences and 
natural sciences to help folks appreciate, you know, the other 
methods and what the other folks, the other disciplines have to 
offer. There is probably a big payoff there in terms of 
creating a body of people who are then predisposed to work with 
scholars and other disciplines and use other methods rather 
than saying, oh, we are the only ones who really understand the 
world.
    Chairman Baird. I appreciate that perspective. In fact the 
America Competes Act, the NSF reauthorization bill that Dr. 
Ehlers and I worked on does a number of things to try to 
encourage interdisciplinary research. Dr. Bartlett.
    Mr. Bartlett. Mr. Chairman, thank you very much for 
arranging this hearing. I think that the social sciences in our 
energy future will have the biggest challenges and perhaps the 
most responsible position.
    There are three groups that have common cause in wanting to 
move from fossil fuels to alternatives. You have been 
mentioning just one of those groups, and that is the group that 
believes that our use of fossil fuels is increasing CO<INF>2</INF> 
which is changing the climate and resulting in global warming. 
There are those who will argue that if you look back through 
the past you will see that the CO<INF>2</INF> increases 
occurred after the global warming, therefore the result of 
global warming, not the cause of global warming. There will be 
others who will argue that the Earth at one time had been very 
much warmer. There were, as a matter of fact, subtropical seas 
in northern Siberia and the north slope of Alaska and so forth 
or else there wouldn't be gas and oil there, right? There will 
also be others who argue that, gee, a warmer Earth wouldn't be 
all that bad. If I am living in Siberia, you would have a hard 
time convincing me that a warmer Earth would be all that bad.
    And so you have the problem of convincing everybody that 
this is something that we need to vent our energies to because 
they may argue that the Earth is warming and we have nothing to 
do with it; so the Earth may be different but it won't be 
necessarily worse. So it is going to be hard to marshal 
everybody to follow this drummer.
    The second group that has common cause in wanting to move 
from fossil fuels to alternatives, the group that believes that 
because we have only two percent of the world's oil and use 25 
percent of the world's oil and import almost two-thirds of what 
we used, that this is a totally unacceptable national security 
risk and we really got to do something about that. And what you 
need to do, of course, is move from fossil fuels to 
alternatives so that we are less dependent on oil since we have 
only two percent of it and use 25 percent of it. We need to 
change that.
    Not everybody will agree that this ought to be a priority 
that would result in them changing their lifestyle because they 
will argue, gee, we think that if we just had better dialogue 
with those Arab nations, they will play nice and the guy who 
has the dollars buys the oil anyhow and it really won't matter 
if we don't have the oil because it is out there in the world, 
and it is a global economy and we will have the oil.
    There is a third group little mentioned but growing in 
recognition. That is the group that believes that the energy is 
just not going to be there. In 1956, M. King Hubbard predicted 
the United States would peak in 1970. Right on schedule, we 
peaked in 1970. By 1980, we absolutely knew we were sliding 
down the other side of Hubbard's feet, and our response to that 
was to drill more, totally, totally the wrong response. For the 
last 30 months, oil production world wide has been--by the way, 
I noticed that sir, while you were referring to EIA, please 
have a lot of reserve and confidence in what EIA is telling you 
there. They are a bunch of economists who are predicting that 
if you understand the past you can predict the future. And they 
are exactly right if our resources are infinite. They are not 
infinite. In a thousand years of recorded history, we are about 
150 years into the age of oil. The best evidence is that in 
another 150 years, we will be through the age of oil. No more 
for all practical purposes. No more oil, gas, or coal. What 
kind of a world will our great, great grandchildren live in.
    So you have a huge challenge, and marshalling people to do 
the right thing--and I think that properly articulated, it is 
undeniable that oil is not forever, that we will reach a peak 
at some time. I think the evidence is pretty much overwhelming. 
Conventionally, we have already reached that peak. We are now 
static because we are having some unconventional oil like 
Albert tar sands and really heavy sour oil that we are 
exploiting today.
    So absent national leadership, we don't have much energy in 
this country. We have even less responsible national 
leadership. Absent national leadership, what can you all do so 
that we move along the right path?
    Mr. Laitner. Well, Dr. Bartlett, if I might lead off, there 
is a fourth group I might add to that list and that is a group 
that says between now and say the year 2030, this nation will 
absolutely have to invest literally trillions of dollars in new 
energy supply, infrastructure, highways, buildings, and that if 
we are going to have to make that investment anyway, why 
wouldn't we want to ask the question, what is the smart mix of 
resources that best get the job done that satisfy multiple 
concerns, whether you believe in climate, whether you believe 
in peak oil, or whether you have other concerns? Why wouldn't 
we want to put all of our resources, energy efficiency, 
nuclear, hydrogen, renewables, unconventional fossil fuels, get 
them all on the table, do an honest assessment of their cost 
and their performance, see which blend, not picking winners, 
but generally what direction we could move in as an economy and 
satisfy those concerns by then incorporating both the hard 
science and the social sciences to help address that very 
difficult question. We are either going to lock in a hard 
future because we are not making a smart decision about the 
investments today or we are going to open up opportunity for 
some innovation which I said earlier in my opening remarks. We 
have the means to move ourselves into a solid economic 
prosperity and a sustainable path if we choose to do it, but 
that requires taking the field with a full complement of 
players and really addressing the issue up front.
    Dr. Wegener. I am glad that Dr. Bartlett raised this issue 
because certainly we have folks within our Energy Center that 
are also careful to say that we are talking about a limited and 
polluting resource, and that limitation is important. I do have 
an economist colleague at Purdue who says, well, we will never 
actually run out of oil, not because it is not limited but 
because it will become so scarce, it will become so expensive 
to use it people won't anymore. The problem is if we wait until 
that point where the economics alone push us to do other 
things, our economy will have taken so much of a hit already 
that we will not want to face it. And so it is important for us 
to be pro-active and to work ahead of that eventuality rather 
than to wait for it.
    Dr. Ellig. I think we probably have to have a big dose of 
humility in speaking about how we, whether it is us experts or 
lawmakers or regulators or anyone, is going to shape things to 
deal with things that could happen in the future and appreciate 
that there are very real limits to either what folks like us 
can know or to frankly, you know, what folks you all can 
accomplish through law and through regulation and so forth. And 
so we should just be careful to realize that anytime one of us 
says something must be done or anytime one of us says here is 
what the problem is, that is reflecting not just maybe some 
technical expertise but also a set of value judgments and some 
assumptions about the future that may or may not be right.
    Chairman Baird. Those bells you hear, those of you as 
social scientists remember Pavlov's dog. We now have 15 minutes 
to get to the meat. And so that means our final questioner will 
be Dr. Lipinski, and I very much appreciate that and we will 
finish after Dr. Lipinski and thank you very much. If people 
leave now, it is because they are going to votes, not they are 
being rude.
    Mr. Lipinski. Thank you, Mr. Chairman. We have plenty of 
time since the 15 minutes is really more than 15 minutes, but I 
won't go on that long.
    I want to thank Chairman Baird for holding this hearing 
today. I am a social scientist. I was teaching political 
science before I was elected to Congress. I also have a 
background. Before that I was an engineer. I studied an 
interesting program called engineering economic systems at 
Stanford and had Amos Tversky as a teacher there also. So all 
of the--of what you said I think is very interesting, very 
important for our understanding as we here try to--if we work 
on creating public policy to try to, you know, get the outcomes 
that we would like to see, there are so many factors that go 
into what those outcomes are going to be. There are so many 
different directions I could possibly go, but let me start with 
a more general question and then I want something more 
specific. My first question is I know Dr. Ellig talked about 
graduate-level education is so important in terms of really 
teaching graduating students that interdisciplinary work is 
important and it is good. I would like to know anyone who has 
any--what their view is right now of how much incentive there 
is right now among scholars doing social science to actually do 
interdisciplinary work because certainly as a political 
scientist I do not see a whole lot where I was at in my 
experience. I know it differs by institution, but overall, do 
you see there being that much incentive out there to do that 
kind of work? Is that rewarded in any way in academe? It 
certainly seems like it is rewarded out in industry. Anyone who 
has any comments on that.
    Mr. Laitner. Dr. Lipinski, I might open up because we have 
seen that unfold with our forthcoming conference in November in 
Sacramento. Apologies it may not be in your district. The 
building--or the Behavioral, Energy and Climate Change 
Conference that is being convened, and I have been stunned and 
my colleague, Dr. Karen Earhart-Martinez with me here today, 
has been even more so because she has been fielding an 
incredible number of questions from a multi-disciplinary field 
across all parts of the country, people really wanting to see 
more of this interdisciplinary approach and incorporating the 
social sciences into the thinking about energy policy. So I 
might comment that convening the conference on a shoestring 
budget brought forth a really unprecedented number of inquiries 
and interest to see not only in terms of policy but the 
question you asked, what kinds of interdisciplinary actions can 
occur, and the good news is I am learning about even more I did 
not know existed. I did not know about Dr. Wegener's efforts 
until this testimony here today, and we are just learning about 
Bob who is I am glad to say is going to be one of the speakers 
at that conference in November. So the good news is it is 
almost as if it is been under a pressure cooker, people just 
churning and wanting to get out and be much more involved in an 
interdisciplinary way but not having the means to do so, both 
the funding and the connections and the infrastructure to make 
that possible. But that is starting to happen, but I think you 
are going to see a lot more compelling interest in that kind of 
a direction.
    Mr. Lipinski. Dr Ellig.
    Dr. Ellig. I think at least in economics, the incentives 
facing the more junior, untenured professors are still to, you 
know, publish in the top journals by doing the things that 
economists are normally expected to do, rather than doing a lot 
of interdisciplinary stuff unless the interdisciplinary work 
involves some new type of neato technical technique because 
then it can get into the top journals where technique is prized 
very highly. And so I think where you have seen economists 
doing good interdisciplinary work is when either in unusual 
cases where there is a particular academic department that 
explicitly decides it is going to be different--I have to say 
my colleagues at George Mason University comprise one such 
department--or where there is some sort of an institution on 
campus that is explicitly designed to promote this, like the 
Center, Dr. Wegener is with, or you know, once you get up to 
the Nobel level and other situations where more senior scholars 
aren't subject to some of the more mundane incentives of their 
discipline, then they have a lot more freedom to kind of, you 
know, go out and follow wherever the path may lead.
    Mr. Lipinski. And I am very happy to hear that we are--the 
disciplines are moving in that direction but what Dr. Ellig 
said, certainly it was my experience in political science in 
terms of what was, as a junior scholar, valued; and I certainly 
think that we need for the sake of the social sciences and, you 
know, for the sake of helping our country and our world move 
forward, interdisciplinary work is certainly very necessary. I 
always look back, and this is a much more general factor that 
influences people is the way that they are brought up, and I 
always say I am a child of the '70s, grew up in the '70s, and 
saving energy and the environment were very important and 
showed up so much in popular culture; and as a kid I grew up 
with those things. They still are with me today, and I see that 
as one factor influencing my behavior; but I wish we had more 
time but I think that is going to be it. But I am very 
interested in all of your research in what we need to do, what 
the factors are that influence people's work. It is up to the 
Chairman if----
    Chairman Baird. Very, very, very briefly.
    Dr. Wegener. I would like to say very briefly I think that 
in a lot of places that there are not the incentives that there 
could be to encourage this kind of interdisciplinary work. 
People are largely doing it out of their own desires rather 
than incentives to bring them there. But also I think it is 
really important for us to strike a difficult balance between 
that interdisciplinary work but strong training in disciplines 
that people can take to those interactions, and that is always 
a difficult balance to find.
    Chairman Baird. I want to thank our panelists. As a way to 
close this, Dr. Laitner, I am going to give you one opportunity 
for the shameless plug for the conference because I think it is 
absolutely the perfect sequel to this hearing. Can you tell us 
about the conference very briefly and location, time, and date.
    Mr. Laitner. Thank you very much, Mr. Chairman. Yes, it is 
a conference entitled Behavioral, Economic and Climate Change 
Conference designed exactly to bring together the panoply of 
disciplines, whether anthropology, sociology, psychology, 
economics, a way to see what might be done to provide amore 
satisfying and understanding and movement toward a prosperous 
energy policy, one that addresses a number of these concerns in 
Sacramento November 7th to 9th. In my testimony I do give the 
URL and other information.
    Chairman Baird. Terrific.
    Mr. Laitner. But thank you.
    Chairman Baird. What is URL?
    Mr. Laitner. Uniform Resource Locator, the website.
    Chairman Baird. Oh, I know that, but what is----
    Mr. Laitner. We are apparently not communicating.
    Chairman Baird. I know what URL means. I mean, what is the 
URL for the conference?
    Mr. Laitner. It is on the ACEEE website. If you go to 
www.aceee.org you will find it there.
    Chairman Baird. That is all right.
    Mr. Laitner. Thank you.
    Chairman Baird. That is pretty good. You appreciate the 
normal ignorance of Members of Congress, and I can't fault you 
for that. Let me thank our panelists and my colleagues for a 
very interesting hearing, all of those who helped to put this 
together. With that, the hearing stands adjourned, and I thank 
everyone for participating.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]

</pre></body></html>
